                      The Office of Inspector General's report on the RRB's
OIG Report #12-01     financial statements begins on page 109 of the RRB's
November 15, 2011     FY 2011 Performance and Accountability Report.




      RAILROAD RETIREMENT BOARD 



PERFORMANCE AND ACCOUNTABILITY 

           REPORT 





                    FISCAL YEAR 2011 

BLANK PAGE FOR PRINTING PURPOSES
                                            Railroad Retirement Board
                                      Performance and Accountability Report
                                                 Fiscal Year 2011


                                                     TABLE OF CONTENTS
                                                                                                                                       PAGE

Message from the Board Members ........................................................................                                    3

Management’s Discussion and Analysis...............................................................                                         7
     Overview of the Railroad Retirement Board .....................................................................                        7
         Mission .......................................................................................................................    7
         Major Program Areas .................................................................................................              7
             Railroad Retirement Act .......................................................................................                8
             Railroad Unemployment Insurance Act ................................................................                           9
         Reporting Components ..............................................................................................               10
         RRB Organizational Structure ....................................................................................                 10
         Financial Highlights ....................................................................................................         13
             Comparison of Net Cost of Operations and Financing Sources ...........................                                        15
             Railroad Retirement Investments at Treasury ......................................................                            19
             National Railroad Retirement Investment Trust ...................................................                             20
     Program, Operations, and Financial Performance and Results .......................................                                    21
     Strategic Goals and Objectives ........................................................................................               22
         Future Plans/Objectives .............................................................................................             31
             Program Improvements ........................................................................................                 31
             Improper Payments Information Act (IPIA) ........................................................                             31
             Systems and Controls ..........................................................................................               32
                 Management Assurances ...............................................................................                     33
             Financial Management Systems Strategy ............................................................                            34
             Summary of Actuarial Forecast ............................................................................                    34
     Social Insurance: Key Measures..................................................................................                      35
     American Recovery and Reinvestment Act of 2009.........................................................                               37
     Worker, Homeownership and Business Assistance Act of 2009 .....................................                                       37
     Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010                                                      38
     Limitations of the Financial Statements ...........................................................................                   38

Performance Section – Government Performance and Results Act (GPRA)
 Report............................................................................................................................ 41



                                                                     I
                                                  TABLE OF CONTENTS
                                                                                                                                 PAGE


Financial Section ..................................................................................................... 67
     Message from the Chief Financial Officer ........................................................................ 67
     Financial Statements........................................................................................................ 68
        Consolidated Balance Sheet ...................................................................................... 68
        Consolidated Statement of Net Cost .......................................................................... 69
        Consolidated Statement of Changes in Net Position ................................................. 70
        Combined Statement of Budgetary Resources .......................................................... 72
        Statement of Social Insurance ................................................................................... 73
        Statement of Changes in Social Insurance Amounts ................................................. 74
     Notes to the Financial Statements ................................................................................... 75
     Required Supplementary Information .............................................................................. 94
        Social Insurance ......................................................................................................... 94
            Program Financing ............................................................................................... 94
            Benefits ................................................................................................................ 94
            Program Finances and Sustainability ................................................................... 95
        Disaggregate of Budgetary Resources ...................................................................... 104
     Auditor’s Report ............................................................................................................... 105

Other Accompanying Information .......................................................................... 117
     Inspector General’s Statement on Management and Performance Challenges ..............                                         117
     Management’s Comments ...............................................................................................         123
     Improper Payments Information Act (IPIA) Reporting Details ..........................................                         127
     Summaries of Financial Statement Audit and Management Assurances ........................                                     134

Appendices .............................................................................................................. 137
     Glossary of Acronyms and Abbreviations ........................................................................ 137
     RRB Board Members, Inspector General, and Executive Committee ............................. 140



RRB’s fiscal year 2011 Performance and Accountability Report is available on the Internet at: www.rrb.gov




                                                                  II
MESSAGE FROM THE BOARD MEMBERS
PAGE INTENTIONALLY LEFT BLANK
                            Message from the Board Members

This fiscal year 2011 Performance and Accountability Report highlights the goals and
accomplishments of the Railroad Retirement Board (RRB) in achieving its mission of administering
the retirement, disability, and survivor benefit program provided under the Railroad Retirement Act
(RRA) and the unemployment and sickness insurance benefit program provided under the Railroad
Unemployment Insurance Act (RUIA). This report describes our continuing efforts to provide timely
and useful information to RRB managers, the Office of Management and Budget (OMB), the
Congress, and our constituents. We are proud of the agency’s dedicated employees whose
achievements are reflected in this report.

The RRB has a long and distinguished tradition of excellence in serving our customers and
safeguarding the agency’s trust funds. In recent years, we have achieved high levels of accuracy
and timeliness in the benefit programs we administer. In July 2011, the RRB concluded its year-long
participation in the American Customer Satisfaction Index (ACSI) Survey, which focused on
customers’ experiences with the agency’s website (www.rrb.gov). We are using the customer
feedback received to improve and enhance the RRB website over the coming months.

This year we implemented the Tax Relief, Unemployment Insurance Reauthorization and Job
Creation Act of 2010, which extended the provisions of the Worker, Homeownership and Business
Assistance Act of 2009. The Tax Relief Act provides for the payment of up to 65 days of additional
extended unemployment benefits. The RRB began making payments under this Act on December
17, 2010, and has paid approximately $5.4 million of these extended benefits through May 31, 2011.

In October 2010, the RRB implemented an on-line process to allow beneficiaries to submit biweekly
claims for sickness insurance benefits. In May 2011, we implemented an automated eligibility
screening process so that less complex claims can be automatically forwarded to employers for
prepayment verification. These initiatives provide for improved customer self-service as well as more
timely and efficient processing of sickness benefit claims.

We believe the performance and financial data presented in this report are complete and reliable in
accordance with OMB guidance. The adequacy and effectiveness of our management controls and
the compliance of our financial management systems with governmentwide requirements are
delineated in the Systems and Controls part of the Management’s Discussion and Analysis section.
That part also provides the status of the actions we are taking and progress we are making to
correct Office of Inspector General identified material weaknesses in internal control environment for
information security (risk management and applications and services), non-integrated subsystems,
and budgetary reporting.

We will continue to apply information technology and innovation to provide excellent customer
service to the railroad employers, railroad employees, and the beneficiaries whom we serve. We are
also committed to prudent stewardship over the agency trust funds and the administrative resources
entrusted to us.

                                                                                   Original signed by:


                                                                    Michael S. Schwartz, Chairman
                                                                  Walter A. Barrows, Labor Member
                                                             Jerome F. Kever, Management Member

                                                                                   November 8, 2011


                                                 -3-
PAGE INTENTIONALLY LEFT BLANK
MANAGEMENT’S DISCUSSION AND ANALYSIS
PAGE INTENTIONALLY LEFT BLANK
                        Management’s Discussion and Analysis

Overview of the Railroad Retirement Board

Mission

The RRB is an independent agency in the executive branch of the Federal Government. The
agency’s mission statement is as follows:

       The RRB’s mission is to administer retirement/survivor and unemployment/sickness insurance
       benefit programs for railroad workers and their families under the Railroad Retirement Act and the
       Railroad Unemployment Insurance Act. These programs provide income protection during old
       age and in the event of disability, death or temporary unemployment and sickness. The RRB
       also administers aspects of the Medicare program and has administrative responsibilities under
       the Social Security Act and the Internal Revenue Code. In carrying out its mission, the RRB will
       pay benefits to the right people, in the right amounts, in a timely manner, and will take appropriate
       action to safeguard our customers’ trust funds. The RRB will treat every person who comes into
       contact with the agency with courtesy and concern, and respond to all inquiries promptly,
       accurately and clearly.


Major Program Areas

The RRB was created in the 1930’s by legislation establishing a retirement benefit program for
the nation’s railroad workers. Private industrial pension plans had been pioneered in the
railroad industry; the first industrial pension plan in North America was established on a railroad
in 1874. By the 1930’s, pension plans were far more developed in the rail industry than in most
other businesses or industries, but these plans had serious defects which were magnified by the
Great Depression.

The economic conditions of the 1930’s demonstrated the need for retirement plans on a national
basis because few of the nation’s elderly were covered under any type of retirement program.
While the social security system was in the planning stage, railroad workers sought a separate
railroad retirement system which would continue and broaden the existing railroad programs
under a uniform national plan. The proposed social security system was not scheduled to begin
monthly benefit payments for several years and would not give credit for service performed prior
to 1937, while conditions in the railroad industry called for immediate benefit payments based
on prior service.

Legislation was enacted in 1934, 1935, and 1937 to establish a railroad retirement system
separate from the social security program legislated in 1935. Such legislation, taking into
account particular circumstances of the rail industry, was not without precedent. Numerous
laws pertaining to rail operations and safety had already been enacted since the Interstate
Commerce Act of 1887. Since passage of the Railroad Retirement Acts of the 1930’s,
numerous other railroad laws have subsequently been enacted.

While the railroad retirement system has remained separate from the social security system, the
two systems are closely coordinated with regard to earnings credits, benefit payments, and


                                                   -7-
taxes. The financing of the two systems is linked through a financial interchange under which,
in effect, the portion of railroad retirement annuities that is equivalent to social security benefits
is coordinated with the social security system. The purpose of this financial coordination is to
place the social security trust funds in the same position they would be in if railroad service were
covered by the social security program instead of the railroad retirement program.

Legislation enacted in 1974 restructured railroad retirement benefits into two tiers, so as to
coordinate them more fully with social security benefits. The first tier is based on combined
railroad retirement and social security credits, using social security benefit formulas. The
second tier is based on railroad service only and is comparable to the private pensions paid
over and above social security benefits in other industries.

The railroad unemployment insurance system was also established in the 1930’s. The Great
Depression demonstrated the need for unemployment compensation programs, and State
unemployment programs had been established under the Social Security Act in 1935. While the
State unemployment programs generally covered railroad workers, railroad operations which
crossed State lines caused special problems. Unemployed railroad workers were denied
compensation by one State because their employers had paid unemployment taxes in another
State. Although there were cases where employees appeared to be covered in more than one
State, they often did not qualify in any.

A Federal study commission, which reported on the nationwide State plans for unemployment
insurance, recommended that railroad workers be covered by a separate plan because of the
complications their coverage had caused the State plans. The Congress subsequently enacted
the Railroad Unemployment Insurance Act (RUIA) in June 1938. The RUIA established a
system of benefits for unemployed railroad workers, financed entirely by railroad employers and
administered by the RRB. Sickness insurance benefits were added in 1946.

   Railroad Retirement Act

Under the Railroad Retirement Act (RRA), retirement and disability annuities are paid to railroad
workers with at least 10 years of service. Such annuities are also payable to workers with
5 years of service if performed after 1995.

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on the year
of birth. Disability annuities can be paid on the basis of total or occupational disability.
Annuities are also payable to spouses and divorced spouses of retired workers and to
widow(er)s, surviving divorced spouses, remarried widow(er)s, children, and parents of
deceased railroad workers. Qualified railroad retirement beneficiaries are covered by Medicare
at age 65, or earlier if disabled, in the same way as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and the
Social Security Administration (SSA). The RRB has jurisdiction over the payment of retirement
benefits if the employee had at least 10 years of railroad service, or 5 years if performed after
1995; for survivor benefits, there is an additional requirement that the employee’s last regular
employment before retirement or death was in the railroad industry. If a railroad employee or
his or her survivors do not qualify for railroad retirement benefits, the RRB transfers the
employee’s railroad retirement credits to SSA, where they are treated as social security credits.



                                                -8-
Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement and survivor benefit programs. By law, railroad retirement taxes are
coordinated with social security taxes. Employees and employers pay tier 1 taxes at the same
rate as social security taxes. In addition, both employees and employers pay tier 2 taxes which
are used to finance railroad retirement benefit payments over and above social security levels.
Tier 2 taxes are based on the ratio of certain asset balances to the sum of benefit payments and
administrative expenses. Historically, railroad retirement taxes have been considerably higher
than social security taxes.

Revenues in excess of benefit payments are invested to provide additional trust fund income,
and the legislation enacted in 2001 allows for Railroad Retirement (RR) Account funds
transferred to the National Railroad Retirement Investment Trust (NRRIT) to be invested in
non-governmental assets, as well as in governmental securities. Funds transferred from the
Social Security Equivalent Benefit (SSEB) Account to the NRRIT are allowed to be invested
only in governmental securities. The legislation also established the NRRIT, whose Board of
seven trustees oversees these investments. The Board of Trustees is comprised of three
members selected by rail labor, three members selected by rail management, and one
independent member selected by a majority of the other six members.

Another major source of income to the railroad retirement and survivor benefit program consists
of transfers from the social security trust funds under a financial interchange between the two
systems. The financial interchange is intended to place the social security trust funds in the
same position in which they would have been had railroad employment been covered by the
Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2011, the
RRB trust funds realized a net of almost $3.9 billion, representing 41 percent of RRB financing
sources (excluding transfers to/from the NRRIT and the decrease in NRRIT net assets), through
the financial interchange.

Other sources of income currently include revenue resulting from Federal income taxes on
railroad retirement benefits (tier I, tier II, and vested dual benefits), and appropriations from
general Department of the Treasury (Treasury) revenues provided after 1974 as part of a
phase-out of certain vested dual benefits.

   Railroad Unemployment Insurance Act

Under the RUIA, unemployment insurance benefits are paid to qualified railroad workers who
are unemployed but ready, willing, and able to work and sickness insurance benefits to railroad
workers who are unable to work because of illness, injury, or pregnancy. The RRB also
operates a placement service to assist unemployed railroad workers in securing employment.

A new unemployment and sickness insurance benefit year begins every July 1, with eligibility
generally based on railroad service and earnings in the preceding calendar year. Up to
26 weeks of normal unemployment and 26 weeks of sickness insurance benefits are payable to
an individual in a benefit year. Additional extended benefits are payable for up to 13 weeks to
persons with 10 or more years of service.

The railroad unemployment and sickness insurance benefit program is financed by taxes on
railroad employers under an experience rating system initiated in 1991. Each employer’s
payroll tax rate is determined annually by the RRB on the basis of benefit payments to the
railroad’s employees.



                                                 -9-
Reporting Components

The RRB, as an independent agency in the executive branch of the U.S. Government, is
responsible for administering the RRA and the RUIA. The financial statements include the
accounts of all funds under the control of the RRB and the Office of Inspector General (OIG).
These funds consist of two administrative funds, three trust funds, two general funds,
one deposit fund, six American Recovery and Reinvestment Act of 2009 (ARRA) funds, and two
Worker, Homeownership and Business Assistance Act of 2009 (WHBAA) funds.

RRB Organizational Structure

The RRB is headed by three Board Members appointed by the President of the United States,
with the advice and consent of the Senate. One member is appointed upon recommendation of
railroad employers; one is appointed upon recommendation of railroad labor organizations; and
the third, who is the Chairman, is appointed to represent the public interest. The Board
Members’ terms of office are 5 years and are scheduled to expire in different years. The
Chairman of the Board is Michael S. Schwartz, the Labor Member is Walter A. Barrows, and the
Management Member is Jerome F. Kever. The President also appoints an Inspector General
for the RRB; the Inspector General is Martin J. Dickman.

The primary function of the RRB is the determination and payment of benefits under the railroad
retirement and survivor and the unemployment and sickness insurance programs. To this end,
the RRB employs field representatives to assist railroad personnel and their families in filing
claims for benefits, examiners to adjudicate the claims, and information technology staff,
equipment, and programs to maintain earnings records, calculate benefits, and process
payments. The RRB also employs actuaries to predict the future income and outlays of the
agency’s trust funds and accounts, statisticians and economists to provide vital data, and
attorneys to interpret legislation and represent the RRB in litigation. Internal administration
requires a procurement staff, a budget and accounting staff, quality assurance staff, and
personnel specialists. The Inspector General employs auditors and investigators to detect
waste, fraud, or abuse in the benefit programs.

The RRB’s headquarters is located at 844 North Rush Street in Chicago, Illinois. The RRB field
structure is comprised of 53 offices located throughout the United States as shown on page 12.




                                             - 10 -
                                                                       U.S. RAILROAD RETIREMENT BOARD

                                                                                        THE BOARD                          CHIEF ACTUARY *
                                              OFFICE OF
              OFFICE OF                      INSPECTOR
                                                                                Chairman, Michael S. Schwartz                 BUREAU OF
                EQUAL                          GENERAL
                                                                               Labor Member, Walter A. Barrows               THE ACTUARY
            OPPORTUNITY                     Martin J. Dickman
                                                                             Management Member, Jerome F. Kever               Frank J. Buzzi
            Lynn E. Cousins



                                                                                    EXECUTIVE COMMITTEE

                MEMBER                              MEMBER                          SENIOR EXECUTIVE                  MEMBER                       MEMBER
            George V. Govan                    Steven A. Bartholow                      OFFICER                   Dorothy A. Isherwood           Terri S. Morgan
                                                                                     Henry M. Valiulis



            CHIEF FINANCIAL                          OFFICE OF                          OFFICE OF                 OFFICE OF                    CHIEF INFORMATION
                OFFICER                         GENERAL COUNSEL                      ADMINISTRATION              PROGRAMS                           OFFICER
                                                 Steven A. Bartholow                  Henry M. Valiulis       Dorothy A. Isherwood
              BUREAU OF                                                                                                                           BUREAU OF
                 FISCAL                                                                                                                          INFORMATION




- 11 -
                                                   OFFICE OF                         ACQUISITION                   OPERATIONS
              OPERATIONS                                                                                                                           SERVICES
                                                  LEGISLATIVE                        MANAGEMENT                    Robert J. Duda
             George V. Govan                                                                                                                     Terri S. Morgan
                                                    AFFAIRS                           Paul T. Ahern
                                                Margaret S. Lindsley
                                                                                    REAL PROPERTY
                                                                                     MANAGEMENT                    POLICY AND
                                                  BUREAU OF                            Scott Rush                   SYSTEMS
                                                 HEARINGS AND                                                      Ronald Russo
                                                   APPEALS
                                                   Karl Blank
                                                                                    PUBLIC AFFAIRS
                                                                                      Anita Rogers               PROGRAM
                                                 SECRETARY TO                                                 EVALUATION AND
                                                  THE BOARD                                                     MANAGEMENT
                                                  Martha P. Rico                                                  SERVICES
                                                                                       BUREAU OF               Janet M. Hallman
                                                                                         HUMAN
                                                                                      RESOURCES
                                                                                      Keith B. Earley
                                                                                                               FIELD SERVICE
                                                                                                              Martha M. Barringer
                The Inspector General reports administratively to the Chairman.

                The Director of Equal Opportunity reports administratively to the
                Director of Administration and programmatically to the Board.

    * Non-voting member of the Executive Committee.                                                                                                     OCTOBER 2011
                                                                          U.S. RAILROAD RETIREMENT BOARD
                             WAS
                                HING
                                                                                    District Office Map
                                    TON

                                                         MONTA                                                                                                                                                                                                                                   MAINE
                           Bellevue                           NA
                                          Spokane

                                                                                                        NORTH DAKOTA
                                                                                                                                    MINNESOTA


                Portland
                                      OREGON                                                                                                           Duluth
                                                                                                                                                                                                                                                                                  V.T.
                                                                                                                            Fargo                                              MICHIGAN
                                                                               Billings                                                                                                                                                                                RK
                                                                                                                                                                                                                                                                     YO
                                                                                                                                                              WISCONSIN                                                                                          W
                                                                                                       SOUTH DAKOTA                                                                                                                                            NE

                                                                          WYOMING                                                               St. Paul                                                                                                                                  N.H.    Boston
                                                                IDAHO                                                                                                                           MICHIGAN
                                                                                                                                                                                                                                                                         Albany            .
                                                                                                                                                                                                                                                                                      MASS
         CAL                                                                                                                                                                                                                                      Buffalo                                 .
            IFOR                                                                                                                                                                                                                                                                      CONN
                NIA
                            NEVA
                                DA                                                                                                                                                                                                                                                            Westbury
                                                                                                                                                                            Milwaukee
                                                                                                                                        IOWA                                                                 Detroit                            ANIA           Scranton
                                                                                                                                                                                                                                            SYLV                             NJ       New York
                                                                                                      NEBRASKA                                                                                                                          PENN
                                                         UTAH                                                                                                                                                                                                                       Newark
                                                                                                                                                                                Chicago                                                                     Harrisburg
                                                                                                                                                                                                               OHIO         Cleveland                                                 lphia
                                                                                                                                                                                              INDIANA                                                                       Philade
                                                                                                                                                                                                                                                 Altoona
                                                                                                                                                                                   Joliet                                                 Pittsburgh               D
                                                         Salt Lake City                                                                         Des Moines                                                                                                     YLANBaltimore
            Roseville                                                         COLORADO                                                                                                                                                                      MAR
                                                                                                                                Omaha                                       ILLINOIS                                                                                        DE

                                                                                                                                           MISSOURI                                           Indianapolis       Cincinnati           WEST
                                                                                                                                                                               Decatur
          Oakland                                                                                                                                                                                                                    VIRGINIA
                                                                                                            KANSAS
                                                                                             Denver                                                                                                                                                 VIRGINIA
                                                                                                                                                  Kansas City
                                                                                                                                                                                                                                 Huntington
                                                                                                                                                                St. Louis                                                                              Richmond
                                                                                                                                                                                                         Louisville




- 12 -
                                                                                                                                                                                                                                         Roanoke
                                                    ARIZO
                                                         NA                                                                                                                                                                                         INA
                                                                                                                          Wichita                                                                                                              CAROL
                                                                                                                                                                                                KENTUCKY                                 NORTH
                                                                            NEW MEXICO
                                                                                                                                                                                                                                        Charlotte
                                                                                                                       OKLAHOMA
                                                                                                                                                                                       TENNESSEE   Nashville
                                                                                                        TEXAS                                       ARKANSAS

                                                                               Albuquerque                                                                                                                                        SOUTH CAROLINA
                           Covina
                                                                                                                                                                                                                 GEORGIA
                                                                                                                                                                                              ALABAMA
                                                                                                                                                                                MISSISSIPPI
                                                                                                                                                             Little Rock
                                                        Mesa                                                                                                                                                           Atlanta
                                                                                                                                                                                               Birmingham


                                                                                                                                                           LOUISIANA
                                                                                                                            Ft. Worth



                                                                                                                                                                                                    FLORIDA                        Jacksonville



                                                                                                                                        Houston
                                                                                                                                                                           New Orleans

                                                                                                                                                                                                                                              Tampa

                           LEGEND

                           District Office




                                                                                                                                                                                                                                                                                                 10-11
Financial Highlights

Amounts in the RR Account not needed to pay current benefits and administrative expenses are
transferred to the NRRIT whose Board of seven trustees is empowered to invest NRRIT assets
in non-governmental assets, such as equities and debt, as well as in governmental securities.
Amounts in the SSEB Account not needed to pay current benefits and administrative expenses
are transferred to either the RR Account or the NRRIT.

On February 17, 2009, President Obama signed the ARRA. Under the ARRA, the RRB has two
major benefit programs to administer, economic recovery payments, and extended
unemployment insurance benefits. For additional information on the ARRA, see page 37.

On November 6, 2009, President Obama signed the WHBAA. The legislation authorized
payment of extended unemployment insurance benefits to rail workers. For additional
information on WHBAA, see page 37.

On December 17, 2010, President Obama signed the Tax Relief, Unemployment Insurance
Reauthorization, and Job Creation Act of 2010. The legislation provides a 1-year reduction in
employee payroll taxes and provides more extended unemployment benefits for railroad
workers. For additional information on the Tax Relief Act, see page 38.

Shown on the following page are snapshots of the net position, financing sources, and benefit
payments (before elimination of inter-fund transactions) for the RRB accounts. All dollar
amounts are in millions.




                                             - 13 -
                                  Net Position, Financing Sources, and Benefit Payments
                                                        (In millions)

                                                                                                              2011              2010

NET POSITION AT SEPTEMBER 30
  Social Security Equivalent Benefit Account                                                                 $ 319.9           $ 564.9
  Railroad Retirement Account 1/                                                                              22,466.7          23,981.0
  Railroad Retirement Administration Fund                                                                          3.3               3.6
  Railroad Unemployment Insurance Trust Fund –
    Benefit Payments                                                                                              40.3             (25.2)
    Administrative Expenses                                                                                       11.7               8.2
  Limitation on the Office of Inspector General                                                                     .8                .8
  Dual Benefits Payments Account                                                                                   9.0               8.3
  Federal Payments to the Railroad Retirement Accounts                                                            21.0                .5

      American Recovery and Reinvestment Act of 2009
      Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)                     9.5                8.9
      Economic Recovery Payments – Recovery Act                                                                      5.0                5.1
      Administrative Expenses – Recovery Act (no year dollars)                                                         -                  -
      Administrative Expenses – Recovery Act                                                                           -                  -
      Limitation on Administration – Recovery Act (no year dollars)                                                    -                  -
      Limitation on Administration – Recovery Act                                                                     .7                 .7

      Worker, Homeownership and Business Assistance Act of 2009
      Railroad Unemployment Insurance Extended Benefits Payments (no year dollars)                               147.8             155.6
      Administrative Expenses, Railroad Unemployment Insurance Extended Benefit Payments                             -                 -

        Total                                                                                                $23,035.7         $24,712.4

FINANCING SOURCES FOR FISCAL YEAR
   Social Security Equivalent Benefit Account                                                                $ 6,272.1         $ 6,389.4
   Railroad Retirement Account 2/                                                                              3,008.7           5,054.9
   Railroad Retirement Administration Fund                                                                       118.6             117.1
   Railroad Unemployment Insurance Trust Fund –
     Benefit Payments                                                                                            158.1              84.2
     Administrative Expenses                                                                                       3.4              (0.5)
   Limitation on the Office of Inspector General                                                                   8.7               8.5
   Dual Benefits Payments Account                                                                                 55.2              62.1
   Federal Payments to the Railroad Retirement Accounts 3/                                                       698.1             467.1

      American Recovery and Reinvestment Act of 2009
      Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)                     (.5)                .8
      Economic Recovery Payments – Recovery Act                                                                        -                 .4
      Administrative Expenses – Recovery Act (no year dollars)                                                         -                  -
      Administrative Expenses – Recovery Act                                                                           -                  -
      Limitation on Administration – Recovery Act (no year dollars)                                                    -                  -
      Limitation on Administration – Recovery Act                                                                      -                  -

      Worker, Homeownership and Business Assistance Act of 2009
      Railroad Unemployment Insurance Extended Benefits Payments, (no year dollars)                                  7.8            19.4
      Administrative Expenses, Railroad Unemployment Insurance Extended Benefit Payments                               -              .8

        Total                                                                                                $10,330.2         $12,204.2


 1/     NRRIT-held net assets are a financing source and are included in the Railroad Retirement Account above.
 2/     Change in NRRIT-held net assets is included in the Railroad Retirement Account above.
 3/     Includes funds subsequently transferred to other accounts. Such inter-fund transfers are eliminated in the preparation of the
        consolidated statements.




                                                                 - 14 -
                                                                                                       2011             2010

BENEFIT PAYMENTS FOR FISCAL YEAR 4/
  Social Security Equivalent Benefit Account                                                       $ 6,384.6           $ 6,260.9
  Railroad Retirement Account                                                                        4,522.4             4,473.1
  Railroad Unemployment Insurance Trust Fund –
   Unemployment Insurance                                                                                 36.8              84.4
   Sickness Insurance                                                                                     54.1              51.7
  Dual Benefits Payments Account                                                                          55.2              62.1

     American Recovery and Reinvestment Act of 2009
     Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)                .5              .8
     Economic Recovery Payments – Recovery Act                                                                  -              .4

     Worker, Homeownership and Business Assistance Act of 2009
     Railroad Unemployment Insurance Extended Benefits Payments (no year dollars)                             7.8           19.4

       Total                                                                                       $11,061.4           $10,952.8


4/     Net of recoveries and offsetting collections; excludes SSA benefit payments.


The RRB’s financial statements are comprised of: Balance Sheet and Statements of Net Cost,
Changes in Net Position, Budgetary Resources, and Social Insurance and notes which are an
integral part of the statements. We also present as required supplementary information a
discussion of the actuarial outlook for the railroad retirement program and the Disaggregate of
Budgetary Resources.

       Comparison of Net Cost of Operations and Financing Sources

The net cost of operations for fiscal years 2011 and 2010 was $11,321.8 million and
$11,221.5 million, respectively. The details of the net cost of operations by type, amount,
increase or decrease, and percentage change from fiscal year 2010 to fiscal year 2011 are
shown below. Additional information regarding the net cost of operations and financing sources
for fiscal years 2011 and 2010 is shown on the following pages.


                                              NET COST OF OPERATIONS
                                                    (In millions)

                                                                                            Amount of            Percent of
                                                                                             Increase             Increase
                                                           FY 2011            FY 2010      (Decrease)           (Decrease)
  Interest expense – Treasury borrowing                     $ 132.2            $ 141.1       $ (8.9)                (6.3)
  Salaries and expenses                                         127.7              129.4       (1.7)                (1.3)
  Benefit payments – RRB                                     11,083.3           10,975.8      107.5                  1.0
  Other expenses                                                 11.6                8.9        2.7                 30.3
    Subtotal                                                 11,354.8           11,255.2       99.6                  0.9
  Less: Earned revenues                                          33.0               33.7       (0.7)                (2.1)
    Net cost of operations                                  $11,321.8          $11,221.5     $100.3                  0.9




                                                                - 15 -
                                         FY 2011
                                NET COST OF OPERATIONS
                                       (In millions)


                                                                               Benefit Payments
                                                                                   $11,083.3
                                                                                    97.61%




Salaries and
 Expenses
   $127.7                                  Other Expenses
    1.12%                                        $11.6
                                                 0.10%
                  Interest Expense
                       $132.2
                       1.17%

     Totals $11,354.8 million, excluding reimbursements and earned revenues of $33.0 million.


                                NET COST OF OPERATIONS (In millions)
                                             FY 2010



                                                                               Benefit Payments
                                                                                   $10,975.8
                                                                                    97.52%




Salaries and
 Expenses
   $129.4                                  Other Expenses
    1.15%                                        $8.9
                                                 0.08%
                  Interest Expense
                       $141.1
                        1.25%

     Totals $11,255.2 million, excluding reimbursements and earned revenues of $33.7 million.




                                             - 16 -
The following table shows financing sources (excluding changes in unexpended appropriations)
by type, amount, increase or decrease, and percentage change from fiscal year 2010 to fiscal
year 2011.


                                              FINANCING SOURCES
                                                  (In millions)

                                                                                  AMOUNT          PERCENT
                                                                                    OF              OF
                                                                                 INCREASE        INCREASE
                                                 FY 2011         FY 2010        (DECREASE)      (DECREASE)

Appropriations used                               $    760.5     $    550.5        $ 210.0            38.1

Taxes and other non-exchange revenues:
 Payroll taxes                                        4,696.7        4,648.1            48.6           1.0
 Interest revenue and other income                       41.6           37.2             4.4          11.8
 Carriers refunds – principal                            (2.4)          (1.0)           (1.4)        140.0
 Railroad Unemployment Insurance (RUI)
   revenue                                           172.8            98.1            74.7            76.1
     Subtotal                                     $4,908.7       $ 4,782.4         $ 126.3             2.6

Imputed financing (amount to be provided
 by the Office of Personnel Management
 (OPM) to pay future retirement benefits to
 RRB employees)                                         11.2             8.8             2.4          27.3

Transfers in:
  Financial Interchange, net                       3,885.6         3,964.1             (78.5)          (2.0)
  NRRIT                                            1,744.0         1,989.0            (245.0)         (12.3)
     Subtotal                                     $5,629.6       $ 5,953.1           ($323.5)          (5.4)

Other:
 Change in NRRIT net assets                       (1,641.0)           441.5         (2,082.5)        (471.7)

 Subtotal                                         $9,669.0       $11,736.3         ($2,067.3)         (17.6)

Less: Transfers out to NRRIT                              0.0            0.0             0.0            0.0
  Loss Contingency                                       37.9            0.9            37.0        4,111.1
     Subtotal                                            37.9            0.9            37.0        4,111.1

 Total                                            $9,631.1       $11,735.4         ($2,104.3)         (17.9)




The most significant difference between the RRB’s financial statements for fiscal year 2010 and
fiscal year 2011 was the change in NRRIT net assets. The decrease in NRRIT net assets of
$1,641.0 million is due to market fluctuations during the past year. There is a section on
page 20 that describes the NRRIT, and the NRRIT net assets balances for 2010 and 2011 are
shown in the RRB’s Financial Section of this publication.




                                                        - 17 -
                                FINANCING SOURCES (In Millions)
                                           FY 2011
   6,000         $5,629.6
                                                     $4,908.7


   4,000



   2,000
                                   $760.5
                                                                                       ($1,641.0)
                                                                        $11.2
        0
                 Transfers     Appropriations     Taxes and Other Imputed Financing Change in NRRIT
                    In             Used            Non-Exchange                       Net Assets
                                                     Revenues
   (2,000)



   (4,000)


Total Financing Sources $9,669.0 million, excluding $37.9 million loss contingency.



                                  FINANCING SOURCES (In millions)
                                             FY 2010

                    $5,953.1
       6,000


       5,000                                           $4,782.4


       4,000


       3,000


       2,000


       1,000
                                     $550.5                                              $441.5
                                                                         $8.8
             0
                   Transfers     Appropriations    Taxes and Other      Imputed     Change in NRRIT
                      In             Used           Non-Exchange       Financing      Net Assets
                                                      Revenues


Total Financing Sources $11,736.3 million, excluding $0.9 million loss contingency.




                                                   - 18 -
   Railroad Retirement Investments at Treasury

The book value of all railroad retirement investments, including accrued interest, increased to
$1,494.2 million as of September 30, 2011, from $1,299.9 million on September 30, 2010
(excludes NRRIT net assets). The graph below reflects the book value of the railroad retirement
investments from September 30, 2007, through September 30, 2011.

                INVESTMENT BALANCES HELD AT TREASURY (AT BOOK VALUE)
                                AT SEPTEMBER 30, 2007 - 2011

                               (In millions, excluding NRRIT net assets)


                                                                                     $1,494.2
     $1,500.0                      $1,407.3
     $1,400.0      $1,323.6                                           $1,299.9
     $1,300.0
                                                    $1,191.2
     $1,200.0
     $1,100.0
     $1,000.0
                     2007              2008             2009               2010        2011


The following chart shows the portfolio of the railroad retirement investments as of
September 30, 2011.

                 RAILROAD RETIREMENT INVESTMENTS HELD AT TREASURY
                                       AS OF SEPTEMBER 30, 2011

                                 (In millions, excluding NRRIT net assets)


                                                                                  RR Account
                                                                                    $697.4
                                                                                     47%



                      SSEB
                     Account
                     $796.8
                       53%



                   AT BOOK VALUE
                      Total $1,494.2




                                               - 19 -
     Railroad Retirement Account

On September 30, 2011 and 2010, the book values of the RR Account investments, excluding
NRRIT assets, including accrued interest, totaled $697,396,746 and $506,776,803, respectively.
The balance on September 30, 2011, consisted of $696,280,000 in 3.000 percent par value
specials (with market value equal to face value) maturing on October 3, 2011, and $1,116,746
in accrued interest. The balance on September 30, 2010, consisted of $505,951,000 in
3.000 percent par value specials (with market value equal to face value) maturing on October 1,
2010, and $825,803 in accrued interest. Par value specials mature on the first working day of
the month following the month of issue and have a yield based on the average yield of
marketable Treasury notes with maturity dates at least 3 years away.

     Social Security Equivalent Benefit Account

On September 30, 2011 and 2010, the book values of the SSEB Account investments, including
accrued interest, totaled $796,827,566 and $793,129,608, respectively. The balance on
September 30, 2011, consisted of $795,547,000 in 3.000 percent par value specials maturing
on October 3, 2011, and $1,280,566 in accrued interest. The balance on September 30, 2010,
consisted of $791,857,000 in 3.000 percent par value specials maturing on October 1, 2010,
and $1,272,608 in accrued interest.

   National Railroad Retirement Investment Trust

The NRRIT was established by the Railroad Retirement and Survivors’ Improvement Act of
2001 (RRSIA). The sole purpose of the NRRIT is to manage and invest railroad retirement
assets. The NRRIT is a tax-exempt entity, independent from the Federal Government and not
subject to Title 31, United States Code (USC). The NRRIT is domiciled in and subject to the
laws of the District of Columbia.

The NRRIT is comprised of a Board of seven Trustees, three selected by railroad labor unions
and three by railroad companies. The seventh Trustee is an independent Trustee selected by
the other six. Members of the Board of Trustees are not considered officers or employees of
the Government of the United States.

The RRSIA authorizes the NRRIT to invest railroad retirement assets in a diversified investment
portfolio in the same manner as those of private sector retirement plans. Prior to the RRSIA,
investment of railroad retirement assets was limited to U.S. Government securities.

The NRRIT and the RRB are separate entities. The RRB remains a Federal agency and
continues to have full responsibility for administering the railroad retirement program, including
eligibility determinations and the calculation of benefit payments. The NRRIT has no powers or
authority over the administration of benefits under the railroad retirement program. Under the
RRSIA, the NRRIT is required to act solely in the interest of the RRB, and through it, the
participants and beneficiaries of the programs funded under the RRA. The RRSIA does not
delegate any authority to the RRB with respect to day-to-day activities of the NRRIT, but the
RRSIA provides that the RRB may bring a civil action to enjoin any act or practice of the NRRIT
that violates the provisions of the RRSIA or to enforce any provision of the RRSIA.




                                                  - 20 -
Under the RRSIA, the financial statements of the NRRIT are required to be audited annually by
an independent public accountant. In addition, the NRRIT must submit an annual management
report to the Congress on its operations, including a Statement of Financial Position, a
Statement of Operations, a Statement of Cash Flows, a Statement on Internal Accounting and
Administrative Control Systems, the independent auditor’s report, and any other information
necessary to inform the Congress about the operations and financial condition of the NRRIT. A
copy of the annual report must also be submitted to the President, the RRB, and the Director of
OMB.

Program, Operations, and Financial Performance and Results

During fiscal year 2011 (ended September 30, 2011), railroad retirement and survivor benefit
payments totaled $11.0 billion, net of recoveries and offsetting collections. Railroad
unemployment and sickness insurance benefit payments totaled $90.9 million in fiscal year
2011, net of recoveries and offsetting collections. During fiscal year 2011, the RRB also paid
benefits on behalf of SSA (for which the RRB is reimbursed) amounting to $1.4 billion to about
115,000 beneficiaries.

In fiscal year 2011, the RRB continued to focus its efforts on providing excellent customer
service to current and former railroad workers and their family members. Our regular workloads
in fiscal year 2011 included:

   •   Providing payments to 578,000 retirement and survivor beneficiaries.
   •   Providing payments to 11,000 unemployment insurance beneficiaries.
   •   Providing payments to 18,000 sickness insurance beneficiaries.
   •   Processing 30,146 retirement, survivor, and disability applications for benefits and then
       determining eligibility (through May 2011).
   •   Processing 179,221 applications and claims for unemployment and sickness insurance
       benefits (through May 2011).
   •   Issuing 257,302 certificates of employee railroad service and compensation (mailed on
       June 10, 2011).

During fiscal year 2011, the RRB used 40 specific program performance objectives, including
several with multiple indicators, to manage and track progress in meeting its long-term strategic
plan goals. These objectives were accomplished with direct appropriations of $108,854,854 for
administration of the RRB. (A breakdown of administrative expenses by strategic goal is not
available at the time of this report.) Agency performance with respect to the key performance
indicators is covered in the following section. For most performance measures, actual full-year
performance results for fiscal year 2011 were not available at the time this report was published.
For those objectives, we reported part-year performance information for fiscal year 2011, if
available. We also reported actual results from prior years, as applicable.

Summary of Achievement by Strategic Goal

Strategic Goal I: Provide Excellent Customer Service. For fiscal year 2011, we expect that
benefit payment accuracy rates will exceed 99 percent, and we expect to meet or exceed most
of our timeliness goals.




                                              - 21 -
Strategic Goal II: Serve as Responsible Stewards for Our Customers’ Trust Funds and
Agency Resources. The RRB is committed to fulfilling its fiduciary responsibilities to the rail
community. For fiscal year 2011, we expect to meet or exceed our performance goals.

Strategic Goals and Objectives

The RRB has a long and distinguished tradition of excellence in serving our customers, and we
will strive to continue that tradition in the coming years. We have achieved high levels of
accuracy and timeliness in processing retirement/survivor and unemployment/sickness
insurance benefits, while embracing new technology, especially in areas where it can improve
customer service and efficiency. We have also achieved very high scores for customer service
in independent assessments of our operations related to initial railroad retirement applications,
unemployment and sickness insurance benefits, survivor applications and disability applications.

The two overriding strategic issues for the upcoming planning period relate to customer service
and trust fund stewardship. The service issue involves our ability to continue to meet our
customers’ expectations for personal, high quality service, and our ability to position the agency
to meet rising customer expectations for new and improved services in the future. The
stewardship issue has multiple aspects, some of which arise from legislative changes and
others which relate to our ongoing ability to meet our program integrity responsibilities and to
maintain effective, efficient and secure agency operations. To effectively address these issues,
we have established two strategic goals on which we will focus our efforts.

 Provide excellent customer service

We aim to satisfy our customers’ expectations for quality service both in terms of service
delivery options and levels and manner of performance. Our Annual Performance Budget for
Fiscal Year 2011 reflects two strategic objectives that focus on the specifics of achieving this
goal.

   •   Pay benefits accurately and timely.
   •   Provide a range of choices in service delivery methods.

 Serve as responsible stewards for our customers’ trust funds and agency resources

The RRB is committed to fulfilling its fiduciary responsibilities to the rail community. Our
performance budget reflects four objectives that direct our focus on this goal.

   •   Ensure that trust fund assets are projected, collected, recorded and reported
       appropriately.
   •   Ensure the integrity of benefit programs.
   •   Ensure effectiveness, efficiency, and security of operations.
   •   Effectively carry out responsibilities with respect to the NRRIT.

The RRB of the future will continue to be customer-focused, quality-driven, and fiscally
responsible. Our overall mission and responsibilities as a Federal agency will remain
unchanged, even though our organization may be smaller in terms of staff and budget
resources. We will use creativity, automation and innovation to continue to deliver best-in-class
service while ensuring cost-effective and efficient operations.




                                               - 22 -
Our customers will have a broad range of choices for conducting their business with the agency,
including more Internet options that will allow for private, secure transactions from their homes
at any time of the day. Railroad employers will be able to conduct most, if not all, of their routine
transactions with the RRB through secure and efficient electronic systems. Direct customer
feedback will shape our planning efforts and enhance our responsiveness. Our customer
service levels will serve as a standard of excellence for the rest of the Federal community.

The agency’s internal culture will reflect a strong commitment to its employees, and a drive to
ensure continual learning at all levels. Given the large percentage of employees who will be
eligible for retirement in the near future, senior employees will engage in knowledge transfer
and sharing as a top priority.

Our ultimate measures of success will be the sustained satisfaction level of our customers and
our ability to respond to their needs and concerns.

Validation of Performance Information. The RRB has implemented comprehensive
administrative procedures to ensure that reported performance information is accurate and
valid. Administrative Circular RRB-2 establishes standards and assigns responsibility for
collecting, documenting, validating, certifying, reporting and retaining information related to the
actual performance data reported for objectives in the RRB’s Annual Performance Budget and
Government Performance and Results Act (GPRA) Report.

The procedures require that reporting managers develop and maintain written procedures for:

   •   Collecting data related to each objective,
   •   Testing and validating performance data to ensure accuracy,
   •   Retaining source documents for future reference, and
   •   Attesting to the accuracy of performance information reported.

Members of the RRB’s Planning Council review the certified performance data and attestations
for completeness and identify any problems. The Planning Council also compiles the
performance data for agency reports, and monitors compliance with the requirements of
Administrative Circular RRB-2.

Members of the RRB’s Executive Committee review performance issues related to their areas of
responsibility and assign follow-up action, as necessary. The Executive Committee also
reviews and approves performance reports before releasing the drafts for approval by the Board
Members.

                            __________     __________      __________


The following begins a discussion of our key performance indicators.




                                               - 23 -
Discussion of Key Performance Indicators

The RRB has identified the following 10 key performance indicators, which represent our most
important responsibilities.

Key performance indicator 1: Initial recurring retirement payment accuracy
(Objective I-A-1a)

Our overall strategic goal is to achieve a railroad retirement benefit payment recurring accuracy
rate of at least 99 percent on our initial processing of applications for retirement (employee,
spouse and widow) benefits.

FY 2011 goal:            99.75%
Our FY 2011 performance: Not available                       Initial Retirement Payment Accuracy

Full-year data will be available in fiscal year            100%
2012.
                                                            99%
FY 2010 goal:            99.75%
Our FY 2010 performance: 99.58%                             98%
                                                                    FY 08    FY 09    FY 10    FY 11

We did not meet our goal. However, the                     Goal     99.50%   99.75%   99.75%   99.75%
performance goal was set at an approximate                 Actual   99.75%   99.59%   99.58%    N/A
target level, and the deviation from that level
is slight. There was no effect on overall
program or activity performance.

Automation plays a key role in assuring initial benefit payment accuracy by reducing the number
of erroneous payments. Automation will become more critical in this area as experienced
personnel retire in the coming years.

Data definition: This is the percentage of the dollar value of initial recurring retirement benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.




                                                  - 24 -
Key performance indicator 2: Unemployment insurance payment accuracy
(Objective I-A-2a)

Our overall strategic goal is to achieve a railroad unemployment insurance benefit payment
accuracy rate of at least 99 percent.

FY 2011 goal:               99.60%
Our FY 2011 performance: 100%                             Unemployment Insurance Payment
              through the quarter                                     Accuracy
                                                           (FY 11 actual is through 3/31/11)
We are achieving our goal. Automation plays
a key role in assuring benefit payment accuracy        100%
by reducing the number of erroneous payments.
                                                        99%
FY 2010 goal:            99.40%
Our FY 2010 performance: 100%                           98%
                                                                 FY 08     FY 09     FY 10        FY 11

Data definition: This is the percentage of the        Goal      99.00%    99.25%    99.40%        99.60%
dollar value of unemployment insurance benefit        Actual    99.71%    98.93%     100%         100%
payments paid correctly as a result of
adjudication actions performed, based on a
review of a sample of cases.


Key performance indicator 3: Sickness insurance payment accuracy (Objective I-A-2b)

Our overall strategic goal is to achieve a railroad sickness insurance benefit payment accuracy
rate of at least 99 percent.

FY 2011 goal:                 99.85%
Our FY 2011 performance: 99.45%                               Sickness Insurance Payment
              through the quarter                                      Accuracy
                                                             (FY 11 actual is through 3/31/11.)
We are close to achieving our goal. We
hope to achieve our goal with actual year-end
performance. Automation plays a key role in            100%
assuring benefit payment accuracy by reducing
the number of erroneous payments.                       99%


FY 2010 goal:            99.80%                         98%
                                                                 FY 08     FY 09     FY 10        FY 11
Our FY 2010 performance: 99.94%
                                                      Goal      99.70%    99.80%     99.80%       99.85%
Data definition: This is the percentage of the        Actual 99.89% 99.70%           99.94%       99.45%
dollar value of sickness insurance benefit
payments paid correctly as a result of
adjudication actions performed, based on a review of a sample of cases.




                                             - 25 -
Key performance indicator 4: Timeliness of initial railroad retirement annuity payments,
when advanced filed (Objective I-A-5)

FY 2011 goal:              92.75%
Our FY 2011 performance: 96.37%
              through the quarter                          The RRB makes a decision to pay or
                                                           deny a railroad retirement employee
We are exceeding our goal. Automation plays a              or spouse initial annuity application
key role in assuring benefit payment timeliness for       within 35 days of the annuity beginning
this performance indicator.                                       date, if advanced filed.
                                                             (FY 11 actual is through 3/31/11.)
FY 2010 goal:            92.75%
Our FY 2010 performance: 96.16%                           100%

                                                           95%
Data definition: This goal is included in the RRB
Customer Service Plan. Prior to fiscal year 2008,           90%
the goal was stated from the customer’s
perspective and attempted to measure timeliness             85%
                                                                   FY 08   FY 09   FY 10   FY 11
to the point of delivery by reporting performance
as the percent of retirement age and service              Goal    92.00% 92.00% 92.75% 92.75%
applications for which all RRB processing was             Actual 92.40% 94.86% 96.16% 96.37%
completed within 30 days, allowing 5 days to
account for handling by the Department of the
Treasury or U.S. Postal Service (USPS). An audit by the RRB’s OIG (05-05, dated May 17,
2005), however, found technical problems with the data, specifically, the time to voucher the
case for payment was not included in the measure. Since that time, we qualified the
performance report to indicate that, due to system limitations, our tracking did not include all
internal processing time, but only measured to 30 days adjudicative processing time. In its audit,
the RRB’s OIG also found a reporting flaw in our measurement process for third-party payment
cases, which affected 2 out of 150 cases in the sample. For fiscal years before 2009, the
performance level reported is inaccurate for the few cases of this type processed during the
reporting period, and is measured as 30 days to the end of the adjudicative process.

In fiscal year 2008, we reworded the goal to express performance from the RRB’s perspective.
The current goal is stated in the chart above.

Effective October 1, 2008, the system problems described above were corrected allowing us to
track performance for the entire internal processing time. Beginning with fiscal year 2009, there
is no longer a need to qualify the measure for this objective to refer to “adjudicative processing
days.” The other errors found by the OIG have also been corrected.

We believe that performance data reported for fiscal year 2009 and later accurately reflect the
percentage of applications processed to the point of payment or denial within 35 days of the
annuity beginning date, if advanced filed.

We will continue to disclose the previous problems until the point where the performance for
fiscal year 2008 and earlier is no longer included in this report.




                                              - 26 -
Key performance indicator 5: Timeliness of initial railroad retirement annuity payments, if
not advanced filed (Objective I-A-6)

FY 2011 goal:               96.80%
                                                             The RRB makes a decision to pay or
Our FY 2011 performance: 98.10%
                                                           deny a retirement employee or spouse
              through the quarter
                                                              initial annuity application within 60
                                                             days of the date the application was
We are exceeding our goal. Automation plays a              filed. (FY 11 actual is through 3/31/11.)
key role in assuring benefit payment timeliness for
this performance indicator.
                                                          100%

FY 2010 goal:            96.80%                            98%
Our FY 2010 performance: 96.90%
                                                           96%
Data definition: This goal is included in the RRB
Customer Service Plan. Prior to fiscal year 2008,             94%
                                                                     FY 08   FY 09     FY 10  FY 11
the goal was stated from the customer’s
perspective and attempted to measure timeliness             Goal     96.0%   96.8%     96.8%  96.8%
to the point of delivery by reporting performance           Actual   96.1%   97.0%     96.9%  98.1%
based on the percent of retirement age and
service applications for which all RRB processing
was completed within 60 days, allowing 5 days to account for handling by the Department of the
Treasury or U.S. Postal Service (USPS). An audit by the RRB’s OIG (05-05, dated May 17,
2005), however, found technical problems with the data, specifically the time to voucher the case
for payment was not included in the measure. Since that time, we qualified the performance
report to indicate that, due to system limitations, our tracking did not include all internal
processing time, but only measured to 60 days adjudicative processing time. While the issues
described in detail for Key Indicator 4 apply to these non-advanced filed cases as well, the net
impact on actual performance levels was not as significant.

In fiscal year 2008, we reworded the goal to express performance from the RRB’s perspective.
The current goal is stated in the chart above.

Effective October 1, 2008, the system problems described above were corrected allowing us to
track performance for the entire internal processing time. Beginning with fiscal year 2009, there
is no longer a need to qualify the measure for this objective to refer to “adjudicative processing
days.” The other errors found by the OIG have also been corrected.

We believe that performance data reported for fiscal year 2009 and later accurately reflect the
percentage of applications processed to the point of payment or denial within 60 days of the date
the application was filed.

We will continue to disclose the previous problems until the point where the performance for
fiscal year 2008 and earlier is no longer included in this report.




                                              - 27 -
Key performance indicator 6: Timeliness of new survivor benefit payments
(Objective I-A-7)

FY 2011 goal:               93.50%
Our FY 2011 performance: 95.98%
              through the quarter                         RRB m akes a decision to pay, deny or transfer
                                                             to SSA an initial annuity application for a
We are exceeding our goal. Automation                      retirem ent survivor not already receiving a
plays a key role in assuring benefit payment              benefit w ithin 60 days of the annuity beginning
                                                              date or date filed, (w hichever is later).
timeliness for this performance indicator.
                                                                      (FY11 is through 3/31/11.)
                                                         100%
FY 2010 goal:            93.00%
Our FY 2010 performance: 96.10%                           95%

Data definition: This goal is included in the             90%
RRB Customer Service Plan. In fiscal year
2008, we reworded the goal to more precisely              85%
measure RRB internal processing time. The
indicator was again restated in our final                 80%
                                                                  FY 08       FY 09      FY 10      FY 11
performance budget for fiscal year 2010 to
more accurately describe how timeliness is              Goal      94.0%       94.0%      93.0%      93.50%
measured. The current goal is stated in the             Actual    92.9%       94.4%      96.1%      95.98%
chart at the right.



Key performance indicator 7: Timeliness of spouse to survivor benefit payment
conversions (Objective I-A-8)

FY 2011 goal:               95.20%
Our FY 2011 performance: 95.58%
                                                             RRB makes a decision to pay, deny or
              through the quarter                         transfer to SSA an initial annuity application
                                                         for a survivor already receiving benefits as a
We are achieving our goal. Automation                      spouse within 30 days of the RRB's receipt
plays a key role in assuring benefit payment                 of first notice of the employee's death.
timeliness for this performance indicator.                       (FY 11 actual is through 3/31/11.)

FY 2010 goal:            95.10%                         100%
Our FY 2010 performance: 95.30%
                                                         95%
Data definition: This goal is included in the
                                                         90%
RRB Customer Service Plan. In fiscal year
2008, we reworded the goal to more precisely             85%
measure only RRB internal processing time.
The indicator was again restated in our final            80%
                                                                 FY 08       FY 09      FY 10       FY 11
performance budget for fiscal year 2010 to
more accurately describe how timeliness is              Goal     94.0%      95.1%       95.1%      95.20%
measured. The current goal is stated in the             Actual   95.1%      95.4%       95.3%      95.58%
chart at the right.




                                               - 28 -
Key performance indicator 8: Timeliness of unemployment or sickness insurance
payments (Objective I-A-12)

FY 2011 goal:               99.80%
Our FY 2011 performance: 99.90%                             RRB certifies a payment or releases a
              through the quarter                             letter of denial of UI or SI benefits
                                                             within 10 days of the date the RRB
We are meeting our goal. Automation plays a key                       receives the claim.
role in assuring benefit payment timeliness for this           (FY 11 actual is through 3/31/11.)
performance indicator.
                                                          100.0%
FY 2010 goal:            99.80%                            99.8%
Our FY 2010 performance: 99.90%                            99.6%
                                                           99.4%
Data definition: This goal is included in the RRB          99.2%
Customer Service Plan. In fiscal year 2008, we
                                                           99.0%
reworded the goal to more precisely measure only                      FY 08     FY 09     FY 10     FY 11
RRB internal processing time. The current goal is                     99.7%     99.8%     99.8%     99.8%
                                                           Goal
stated in the chart at the right.
                                                           Actual     99.7%     99.8%     99.9%     99.9%




Key performance indicator 9: Timeliness of disability decisions (Objective I-A-13)

FY 2011 goal:               70.00%
Our FY 2011 performance: 64.80%
                                                           The RRB makes a decision to pay or
              through the quarter
                                                          deny a benefit for a disabled applicant
                                                           or family member within 100 days of
We are not yet achieving our goal. We are
                                                              the date the application is filed.
monitoring closely our monthly performance                   (FY 11 actual is through 3/31/11.)
statistics in this area, and are hoping for a higher
percentage by the end of the fiscal year. Actions
                                                         100%
to improve performance include expanded efforts
to identify and monitor aging cases and use of            80%
overtime.
                                                          60%
FY 2010 goal:            70.00%
Our FY 2010 performance: 68.90%                           40%
                                                                    FY 08     FY 09     FY 10     FY 11

Data Definition: This goal is included in the RRB        Goal       68.0%     70.0%     70.0%     70.0%
Customer Service Plan. In fiscal year 2008, we           Actual     70.4%     62.5%     68.9%     64.8%
reworded the goal to more precisely measure only
RRB internal processing time. The current goal is
stated in the chart at the right.




                                                - 29 -
Key performance indicator 10: Return on investment in program integrity activities
(Objective II-B-1)

FY 2011 goal:            $3.60 : $1
Our FY 2011 performance: Not available                      Achieve a return of at least $3.60 for
                                                           each dollar spent on program integrity
FY 2011 data will be available in FY 2012.                               activities.

FY 2010 goal:            $5.48 : $1                        $6.00
Our FY 2010 performance: $5.51 : $1
                                                           $4.00

We met our goal. In November 2010, we                       $2.00
discovered that not all program integrity cost
information was being used to compile the                   $0.00
                                                                   FY 08   FY 09    FY 10   FY 11
program integrity ratio – most significantly, the
cost of a major monitoring activity was not being          Goal    $5.00   $5.36    $5.48   $3.60
captured, even though the benefits of that                 Actual  $3.97   $4.20    $5.51    N/A
process were included. As a result, we
recomputed the program integrity ratios for fiscal
years 2008 and 2009 using the updated cost amounts. We have also adjusted the fiscal year
2011 target for this indicator from $5.48: $1.00, to an adjusted level of $3.60: $1.00, which is
consistent with the initial statement of the objective.

As part of our fiduciary responsibilities to the rail community, we must ensure that the correct
benefit amounts are being paid to the right people. We match our benefit payments against
SSA’s earnings and benefits database, the Centers for Medicare & Medicaid Services’ utilization
and death records, the Office of Personnel Management’s benefit records, and State wage
reports, usually via computer tapes, and administer other benefit monitoring programs to identify
and prevent erroneous payments. We also refer some cases to the RRB’s OIG for investigation.
After investigation, the OIG may pursue more aggressive collection methods, which include civil
and criminal prosecution.

Data definition: This is the ratio of the sum of the dollar recoveries and savings, to the labor
dollars spent.




                                               - 30 -
Future Plans/Objectives

    Program Improvements

•     Patient Protection and Affordable Care Act The Patient Protection and Affordable
      Care Act of 2010 provides for an Income-Related Monthly Adjustment Amount (IRMAA) to
      be added to the Medicare prescription drug plan (Part D) premiums paid by high-income
      beneficiaries beginning in January 2011. This provision allows for the collection of Part D
      IRMAA through withholding from railroad retirement benefit checks or through direct
      billing. We implemented Part D IRMAA collection in January 2011 through direct billing,
      utilizing the existing Program Accounts Receivable system. Work is now proceeding to
      implement premium withholding from railroad retirement benefit checks. This work is
      targeted to be completed by January 2013.

•     Employer Reporting System (ERS) – Internet Site Phase 3 of the ERS Internet-based
      versions of Forms BA-3, Annual Report of Service and Compensation and BA-11, Report
      of Gross Earnings is planned for completion in fiscal year 2011. When this phase is
      completed, the ERS project will have consolidated 20 paper-based forms into 17 on-line
      services. We also initiated Phase 4 which will automate access to the Forms ID-40 series
      of RUIA contribution notices; the ID-6 series of tax notices; and the Form G-88a.2, which
      transmits annuity eligibility information to rail employers. This will result in three additional
      on-line services.

      In fiscal year 2012, we will continue our development of automated processes to notify
      employers of errors or the need for additional information and provide a means for
      correcting the data. These include requests for verification of last date on the payroll
      (Form G-88a.1) and for the payment of supplemental annuities (Form G-88p). Starting in
      fiscal year 2013, we plan to develop additional record correction forms (Forms GL-99,
      Deemed Service Questionnaire and GL-132, Notice of Service After ABD). Automating
      these processes will give us direct contact with the responsible official and provide a
      means for immediate correction of the data. When implemented, these will add four more
      services to the system. Replacing these paper based processes continues to improve
      customer service by speeding up initial annuity processing, and enhances stewardship of
      the trust funds by securing and better protecting personally identifiable information.

    Improper Payments Information Act (IPIA)

•     Improper Payment Related Initiatives To improve the accuracy of our benefit
      payments, we are pursuing the following initiatives:

      o   development of an enhanced automated retirement payment system to replace the
          current legacy system that processes retirement applications, planned for calendar
          year 2012,
      o   development of an interface between systems to ensure accurate use of military
          service in the calculation of benefits, tentatively scheduled for completion in calendar
          year 2012,
      o   work on the expansion of a Medicare premium collection database to include Part B
          premium withholding history is expected to begin in fiscal year 2013,
      o   development of an interface between ORCS (Overpayment Recovery Correspondence
          System) and payment programs to insure that the most current data is retrieved and



                                                - 31 -
       used in the development of cases involving overpayment recovery. Current plans are
       to complete this initiative by end of calendar year 2011,
     o continued development of SPEED (System Processing Excess Earnings Data), a
       multi-phase automation initiative designed to process annuity adjustments resulting
       from excess earnings and work deductions on a timely basis.

See the IPIA reporting details for further discussion of these automation initiatives.

   Systems and Controls

The RRB continually evaluates the effectiveness and efficiency of its operations using ongoing
assessments and reviews of management controls, internal and external audits, quality control
and assurance reviews, program integrity activities, and customer satisfaction surveys.

Under the direction of a Management Control Review Committee (MCRC) composed of senior
managers from its program, information services, administrative, and financial operations, the
RRB has divided these operations functionally into 44 assessable units. The number of
assessable units can vary from year to year as operations are restructured to accommodate
changes precipitated by such factors as new and revised missions, reduced resources, and
increased automation.

The mission, key performance indicators, workflow, control objectives and techniques,
guidance, automated systems support, impact, and vulnerability of each assessable unit are
documented. The RRB maintains and annually updates a 5-year plan for review of the
assessable units. The official responsible for each assessable unit prepares an annual
assessment of key indicators and open or new issues requiring management’s attention. High
impact and vulnerable assessable units are scheduled for more frequent, in-depth reviews as
deemed necessary by the MCRC in consultation with senior management. During fiscal year
2011, responsible officials performed in-depth reviews of 4 assessable units, assessed all 44,
and certified 42.

In fiscal year 2011, the OIG has determined that there is still an Information Security – Risk
Management material weakness in the security authorization (previously C&A) and continuous
monitoring review process that includes complete, accurate, and trustworthy documentation.
Their inspection determined that the activities conducted by the RRB for the authorization and
continuous monitoring process do not fully comply with existing policy, procedures, guidance,
and standards. The agency is addressing these concerns and the Chief Information Security
Officer has been tasked to develop training to ensure that RRB staff involved in the
authorization and continuous monitoring process can perform this process adequately and meet
the requirements set forth by the OIG.

In fiscal year 2009, the OIG identified Non-Integrated Subsystems as a material weakness. The
agency developed an inventory of non-integrated subsystems and is implementing and
documenting new reconciliations between these and the general ledger.

The OIG recently identified Information Security – Applications and Services and Budgetary
Reporting as material weaknesses.

The agency is committed to resolving these reported weaknesses and will closely monitor
progress during fiscal year 2012.



                                               - 32 -
                                     Management Assurances

The Railroad Retirement Board states and assures that to the best of our knowledge:

1. In accordance with OMB Circular No. A-123, Section VI (B), we are issuing a qualified statement of
   assurance considering the OIG-identified material weaknesses indicated under paragraph (4).
   Except as indicated under (4), the system of internal control of this agency is functioning and provides
   reasonable assurance as to the: efficiency and effectiveness of programs and operations; reliability
   of financial and performance information; and compliance with laws and regulations. These controls
   satisfy the requirements of the Federal Managers’ Financial Integrity Act (FMFIA) §2.

2. The financial management systems of this agency maintain accountability for assets and provide
   reasonable assurance that obligations and costs are in compliance with applicable law, and that
   performance data and proprietary and budgetary accounting transactions applicable to the agency
   are properly recorded and accounted for to permit the timely preparation of accounts and reliable
   performance information. The financial management systems at this agency satisfy the requirements
   of the FMFIA §4.

3. The financial management systems of this agency provide the agency with reliable, timely, complete,
   and consistent performance and other financial information to make decisions and efficiently operate
   and evaluate programs and substantially satisfy the requirements of the GPRA and OMB Circular
   No. A-11.

4. The RRB’s Inspector General, in his auditor’s report, identifies Information Security – Risk
   Management, Information Security – Applications and Services, Non-Integrated Subsystems, and
   Budgetary Reporting as material weaknesses.


                          Description of OIG-Identified Material Weaknesses

1. During fiscal year 2011, the OIG inspected the internal control environment regarding the
   authorization and continuous monitoring process, which includes risk assessments and testing and
   evaluation of security controls and is still considered to be a material weakness for Information
   Security – Risk Management.

    In fiscal year 2012, the plan is to develop a comprehensive review process that will adequately
    address the authorization and continuous monitoring process as required for FISMA compliance. To
    ensure that this process is completed accurately, all RRB staff with roles and responsibilities in the
    process will be provided training by the Chief Information Security Officer.

2. The OIG recently identified Information Security – Applications and Services as a material weakness,
   which is being assessed for corrective actions.

3. The OIG also identified Non-Integrated Subsystems as a material weakness. The agency is working
   on implementing and documenting an enhanced reconciliation process.

4. The OIG recently identified Budgetary Reporting as a material weakness. The agency is reviewing its
   process for budgetary reporting.

5. The OIG recently identified Railroad Audits as a significant deficiency. Although, the assessment is
   not a material weakness, the agency is applying automated and procedure enhancements to improve
   audit controls in the future.
                                                                                        Original signed by:


                                                                         Michael S. Schwartz, Chairman
                                                                       Walter A. Barrows, Labor Member
                                                                  Jerome F. Kever, Management Member

                                                  - 33 -
   Financial Management Systems Strategy

The RRB has continually upgraded its financial system structure to meet evolving standards and
requirements. Our strategy is, and has been, to continually upgrade and improve the financial
management systems structure. The RRB is committed to an integrated and automated
financial management system that focuses on the agency’s mission and accountability. Our
goals are to (1) achieve compliance with applicable laws, regulations, standards, and
requirements; (2) identify requirements for financial systems support; (3) improve and facilitate
user access to financial information; (4) reduce redundant data entry, storage, and processing;
and (5) improve security, control, and disaster recovery capability for information processed and
stored on mainframe, local area network, and personal computer systems.

The financial management system of the RRB is considered a major application for certification
and accreditation purposes. Other major applications include the financial interchange and the
payment of benefits under the RUIA and RRA.

In the current financial management system area, core financial management functions are
centralized in a mainframe-based system (the Federal Financial System (FFS)) which continues
to be under a maintenance contract between the RRB and CGI. FFS met the Core Financial
System Requirements that were established by the former Joint Financial Management
Improvement Program. The last major upgrade to the system by the contractor was in 1999 to
make the system year 2000 compliant. Since then, the RRB has relied on its own
administrative and information technology (IT) staff to ensure that the RRB’s core financial
system remains able to meet current and future requirements.

Pursuant to KPMG LLP assessment of the RRB’s core financial management system (FFS) in
2010, the agency took the next step towards the recommended solution to migrate to a
designated shared service provider (SSP). The RRB, with contractual assistance, completed an
OMB Exhibit 300 (Capital Asset Plan and Business Case Summary) for submission with its
fiscal year 2013 budget request to secure the Development/Modernization Enhancement (DME)
funding required for migration. In addition, fiscal year 2011 funds were used to retain
contractual services for pre-migration activities, chiefly the preparation of a statement of work
(SOW) which will contain a complete description of the financial management requirements of
the RRB that covers the complete range of focus that the new SSP system must address.
Through the requirements definition supporting the SOW, areas of concern, such as interfacing
non-integrated subsystems will be addressed. The result of the migration to a SSP environment
will decrease the risk of gaps with Federal Systems Integration Office requirements.

   Summary of Actuarial Forecast

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2011, under our intermediate employment
assumption. The Required Supplementary Information presents sensitivity analyses showing
the impact of changes in employment and investment return assumptions. Although under our
intermediate assumption no cash flow problems arise over the period 2011-2085, the sensitivity
analyses show that, under the current financing structure, actual levels of railroad employment
and investment return over the coming years will determine whether additional corrective action
is necessary.




                                              - 34 -
Section 7105 of the Technical and Miscellaneous Revenue Act of 1988 requires the RRB to
submit an annual report to Congress on the financial status of the railroad unemployment
insurance system. Projections were made for the various components of income and outgo
under each of 3 employment assumptions for the 11 fiscal years 2011-2021. The results
indicate that the Railroad Unemployment Insurance (RUI) Account will be solvent during the
11-year projection period. Full repayment of the loans made in 2010 is expected by the end of
fiscal year 2011.

Social Insurance: Key Measures

Balance Sheet: The Balance Sheet displayed on page 68 presents our assets, liabilities, and
net position. Total assets for fiscal year 2011 are $28.2 billion, a 5.4% decrease over last year.
Of the total assets, $22.1 billion relates to funds held by the National Railroad Retirement
Investment Trust (NRRIT). The net asset value of funds held by the NRRIT decreased from
fiscal year 2010 by 6.9%. Our investments total $1.5 billion and we invest those funds not
needed to pay current expenses or benefits in interest bearing Treasury securities. A chart of
investment balances held at Treasury can be found on page 19. Total liabilities for fiscal year
2011 are $5.2 billion. Liabilities increased in fiscal year 2011 principally because of an increase
of borrowing from Treasury. Also, benefits due increased by $19.8 million. By statute, benefits
due in September are not paid until October.

Statement of Net Cost: The Statement of Net Cost displayed on page 69 presents the annual
cost of operating our two major programs: railroad retirement and railroad unemployment
insurance. In fiscal year 2011, our net cost of operations was $11.3 billion, an increase over
last year of $100.3 million, or .9%. A chart for the net cost of operations for fiscal years 2011
and 2010 can be found on page 15.

Statement of Changes in Net Position: The Statement of Changes in Net Position displayed
on page 70 reflects the changes that occurred within cumulative results of operations and
unexpended appropriations. Total net position for 2011 is $23.0 billion. The statement shows a
decrease in the net position of the agency of $1.7 billion attributable to the change in cumulative
results of operations. Total financing sources for 2011 are $9.6 billion. A chart for financing
sources for fiscal years 2011 and 2010 can be found on page 17.

Statement of Social Insurance: Federal accounting standards require the presentation of a
Statement of Social Insurance as a basic financial statement. The Statement of Social
Insurance presents estimates of the present value of the income to be received from or on
behalf of current and future participants of the Railroad Retirement program, the present value
of the cost of providing scheduled benefits to those same individuals, and the difference
between the income and cost. The Statement of Social Insurance covers a period of 75 years
in the future, and the information and disclosures presented are deemed essential to the fair
presentation of this statement.

The open group includes current participants who have attained retirement age under the
Railroad Retirement program, current participants who have not yet attained retirement age,
and those expected to become participants, or new entrants. The closed group includes only
current participants, both those who have not yet attained retirement age and those who have.
The open group measure gives a more complete assessment of the long-term financial stability
of the program.




                                               - 35 -
  The net present value (NPV) of future revenue less future expenditures for all participants over
  the next 75 years (open group) decreased from ($23.8) billion as of December 31, 2009 to
  ($25.2) billion as of December 31, 2010, a net change in the open group measure of
  ($1.4) billion.

  As can be seen on the Statement of Changes in Social Insurance Amounts, the largest change
  in the open group measure, ($1.6) billion, is due to changes in economic data and assumptions.
  Although ultimate economic assumptions remained the same, select assumptions for COLA,
  wage increase rate, and investment return were updated in 2011, as described in the footnotes
  to the Statement of Changes. Also, between December 31, 2009 and December 31, 2010, the
  fund balance increased by about $1.4 billion. The change in the valuation period (from
  2010-2084 to 2011-2085) had a lesser effect, resulting in a change of $0.2 billion in the open
  group measure. There were no changes in demographic assumptions, and the changes in
  demographic data had a minimal effect. This year there were no changes in law, policy, or
  methodology and programmatic data.

  From January 1, 2011, the valuation date of the Statement of Social Insurance, to
  September 30, 2011, the balance sheet date, there was a decline in the value of the NRRIT
  assets. If a change in the trust fund balance is not excessively large, then the effect of the
  change is expected to be offset by a corresponding change in the present value of future taxes
  due to the operation of the Account Benefits Ratio on future tax rates. Given the extent of the
  decline in the NRRIT assets from January 1 to September 30, there should be little effect on the
  net surplus position. The decline in the line item “Treasury securities and assets held by the
  program” would be expected to be largely offset by increases in the line items “Contributions
  and earmarked taxes,” resulting in relatively little change to the final line item “Open group
  surplus/(unfunded obligation).”

                                   TABLE          OF      KEY          MEASURES
                                                                                             Increase      /   (Decrease)
              Dollars in MILLIONS                      FY 2011              FY 2010
                                                                                                 $                 %

COSTS
Total Financing Sources                                  $ 9,631.1            $11,735.4      (2,104.3)            (17.9)
   Less: Net Cost                                          11,321.8               11,221.5     100.3                0.9
Net Change of Cumulative Results of Operations            ($1,690.7)          $     513.9    (2,204.6)           (428.99)


NET POSITION
Assets                                                   $28,201.2            $29,801.8      (1,600.6)             (5.37)
Liabilities                                                 5,165.5                5,089.4      76.1                1.50
Net Position (Assets minus Liabilities)                  $23,035.7            $24,712.4      (1,676.7)             (6.78)



                                                                                             Increase      /   (Decrease)
              Dollars in BILLIONS                      1/1/2011             1/1/2010
                                                                                                 $                 %

SOCIAL INSURANCE*
Social Insurance Net Expenditures (Open Group)              ($25.2)                ($23.8)        ($1.4)              5.9%


*Social insurance amounts cover calendar year timeframes January 1 through December 31.




                                                            - 36 -
American Recovery and Reinvestment Act of 2009

Under the ARRA, the RRB administered two major benefit programs. These are:

    Economic Recovery Payments (ERP). This program, authorized by Section 2201 of the
     ARRA, provided for one-time payments of $250 to eligible adult beneficiaries under the
     RRA. The RRB paid $128,718,500 to 514,874 individuals in late May 2009. Additional
     people were paid through six quarterly catch-up runs scheduled through the end of the
     program on December 31, 2010. The catch-up runs resulted in an additional $1,405,500
     paid to an additional 5,622 individuals.

       In accordance with guidance from OMB, we conducted a risk assessment of this
       program to ensure that funds are being awarded and distributed as authorized by law
       and that risks of waste, fraud and abuse are mitigated through reasonable and effective
       management controls.

       The results of the risk assessment indicated that the risks associated with the ERP
       program were low. This was primarily due to the following factors:

          we were able to use many previously existing, tested and reliable systems to assist
           in making these payments;
          we had experienced staff in place who were familiar with claims adjudication;
          the benefit to be paid was a standard, fixed amount for all beneficiaries; and
          we were working with other agencies that also had experienced staff and existing
           systems in place to assist with the overall program.

    Extended Unemployment Benefits. This program, authorized by Section 2006 of the
     ARRA, provided for up to 13 weeks of additional extended unemployment benefits to rail
     employees who had already exhausted their unemployment benefits under the RUIA.
     An appropriation of $20 million was made available to fund this program. The RRB
     began making payments and mailing claims for these special extended unemployment
     benefits on June 30, 2009. As of May 2011, claims and payments of unemployment
     benefits under ARRA have ended and the RRB had paid out over $11 million.

       Because the Extended Unemployment Benefits program is directly related to the regular
       unemployment insurance program, it is assessed as part of our normal quality
       assurance process for the RUIA program.

For more detailed information on the RRB’s ARRA programs, see
http://www.rrb.gov/recovery/default.asp.

Worker, Homeownership and Business Assistance Act (WHBAA) of 2009

In November 2009, the President signed the WHBAA which extended the previous ARRA
provisions. WHBAA provided for the payment of extended unemployment benefits to anyone
who claimed unemployment benefits during the period July 1, 2008 through June 30, 2010, thus
increasing the pool of eligible recipients. WHBAA allowed for the same number of days of
extended benefits (65 days) and also included an additional appropriation of $175 million. The
RRB began making payments under WHBAA on November 6, 2009 and has paid approximately
$20.2 million of these extended benefits through December 16, 2010. The latest date that a
WHBAA extended benefit period could begin was December 31, 2010.


                                             - 37 -
Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010

In December 2010, President Obama signed the Tax Relief, Unemployment Insurance
Reauthorization and Job Creation Act of 2010 (“the Tax Relief Act”) which extended the
previous WHBAA provisions. The Tax Relief Act provides for the payment of up to 65 days of
additional extended unemployment benefits to anyone who claimed unemployment benefits
during the period July 1, 2010 through June 30, 2011, to be paid from the existing WHBAA
appropriation of $175 million. It also sustains the voluntary tax withholding rate for
unemployment claims at 10% and reduces the Tier 1 tax rate (during calendar year 2011 only)
for sickness benefits by 2 percentage points.

The RRB began making payments under this Act on December 17, 2010 and has paid
approximately $5.4 million of these extended benefits through May 31, 2011. The latest date
that an extended benefit period may begin under the Tax Relief Act is December 31, 2011.

Limitations of the Financial Statements

The limitations of the principal financial statements are as follows:

   1. The principal financial statements have been prepared to report the financial position and
      results of operations of the entity, pursuant to the requirements of 31 USC 3515(b).

   2. While the statements have been prepared from the books and records of the entity in
      accordance with U.S. generally accepted accounting principles for Federal entities and
      the formats prescribed by OMB, the statements are in addition to the financial reports
      used to monitor and control budgetary resources which are prepared from the same
      books and records.

   3. The statements should be read with the realization that they are for a component of the
      U.S. Government, a sovereign entity.




                                               - 38 -
            PERFORMANCE SECTION –

GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA)
                  REPORT
PAGE INTENTIONALLY LEFT BLANK
Performance Section - Government Performance and Results Act (GPRA) Report


The following performance report is based on the major goals and objectives from the RRB's
Annual Performance Budget for Fiscal Year 2011. The indicators we developed support our
mission and communicate our intentions to meet challenges and seek opportunities for greater
efficiency, effectiveness, and economy.

To achieve our performance goals, the RRB holds managers accountable for achieving program
results and improving program effectiveness by focusing on results, service quality, and
customer satisfaction. In addition, the annual performance budget is used to help managers
improve service delivery by requiring that they plan for meeting program objectives and by
providing them with information about program results and service quality. To provide
reasonable assurance that the reported performance information is relevant and reliable,
performance goals are incorporated into performance standards for managers and supervisors,
and monitored on an agency-wide basis.

Automation, e-Government and Customer Service Initiatives

The RRB is continuing with long-term plans to implement significant automation initiatives and
other improvements. These changes have enabled the agency to operate with reduced
resources in recent years and continue to streamline our operations with the assistance of
information technology. We believe that significant new investments in information technology
and further management improvements will help us to meet or exceed our customer service
goals efficiently.

On October 30, 2010, we launched the RRB’s newest online service, sickness benefit claims
under the Railroad Unemployment Insurance Act (RUIA). This new service enables
beneficiaries to submit their biweekly claims over the Internet, providing safety and convenience
while expediting payments. To increase efficiency, in May 2011, we implemented an automated
eligibility screening process so that those claims that pass will be automatically forwarded to
employers for prepayment verification.

It is important that we provide information in a timely manner and in ways that are accessible
and responsive to the individual’s needs. Customer feedback through American Customer
Satisfaction Index (ACSI) surveys and directly from customers helps us determine whether the
information we are providing satisfies our customers’ needs and expectations. In July 2010, the
RRB began a year-long ACSI survey, focusing on customers’ experiences with the www.rrb.gov
website. During fiscal year 2011, based on the feedback obtained from respondents, we
implemented major changes to the home page to make it easier to navigate and more visually
appealing. The new home page also organizes information by audience and subject in a clear
and logical manner. A new feature is the addition of a log-in box that will allow customers to
access online services directly from the home page. We are working on a second phase of
improvements focusing on the secondary pages of our website which should even further
enhance the level of satisfaction our customers have with the access to information and services
via the RRB website. In fiscal year 2011, we will also initiate a survey of recipients of
unemployment and sickness insurance benefits. We will conduct the actual survey after
October 1, 2011, and we expect the final survey results to be available in December 2011.




                                              - 41 -
In fiscal year 2009, the agency successfully implemented a national toll-free telephone service.
The features include a single nationwide toll-free number, automatic distribution of customer
calls, interactive voice response (IVR) functionality, an upgrade of the existing data network, and
implementation of Voice over Internet Protocol (VoIP) telephone service at all RRB field offices.
The toll-free number provides a single access point to claims representatives in the agency’s
field service offices and to IVR self-service options. In 2011, a system enhancement was
implemented which provides the ability to create “special announcement” messages in the IVR
main menu. The special announcement messages address as they occur important legislative
or procedural changes which are likely to generate increased numbers of RRB customer calls.
Also in 2011, the RRB developed a series of customized reports of both real-time and historical
call data collected from the toll-free system. These reports are currently being used to identify
customer usage trends and ensure management decisions are being made which provide better
overall telephone service to all RRB customers.

Phase 3 of the Employer Reporting System (ERS) will implement an Internet-based version of
Forms BA-3, Annual Report of Service and Compensation and BA-11, Report of Gross
Earnings. This is on schedule to be completed in fiscal year 2011. When this phase is
completed, the ERS project will have consolidated a cumulative total of 20 paper forms into 17
on-line services. We also initiated Phase 4, which will automate access to the Forms ID-40
series RUIA contribution notices; the ID-6 series tax notices; and the Form G-88a.2 which
transmits annuity eligibility information. This will result in three additional on-line services to rail
employers. In fiscal year 2012, we will continue our development of automated processes to
notify employers of errors or the need for additional information and provide a means for
correcting the data. These include requests for verification of last date on the payroll (G-88a.1)
and for the payment of supplemental annuities (G-88p).

System Processing Excess Earnings Data (SPEED) is an automation initiative designed to
process post-entitlement annuity adjustments in both retirement and survivor cases that result
from excess earnings and work deductions. SPEED allows the RRB to adjust annuity payments
for earnings on a timely basis, which minimizes any underpayments or overpayments that may
result from changes in earnings. SPEED Phases 1 through 5 are currently in production (Phase
5 was completed in March 2011). Phase 6 is divided into two parts: Retirement Processing and
Survivor Processing, to be worked simultaneously. Phase 6 Retirement is expected to initiate or
adjust regular and/or Last Person Employment (LPE) work deductions when an estimated work
report is entered. Phase 6 Survivor is expected to download survivor current-year earnings
estimates from the survivor payments system, create an estimate report, suspend the annuity (if
necessary), calculate withholding, establish a reinstatement call-up and release a notification
letter to the annuitant. Current plans are to complete these next two phases in early calendar
year 2013.

Work continued during fiscal year 2011 on an enhanced automated retirement payment system
which will replace the current legacy system that processes retirement applications. The
enhanced process will improve the accuracy and efficiency of retirement initial claims, as it will
automatically interface with the Social Security Administration’s (SSA) benefit payment system to
provide real-time offset data. The new system will also allow for the payment of such application
types as divorced spouse annuitants, which previously could not be processed automatically. As
of June 2011, the target for completion of the enhanced system was calendar year 2012. Future
enhancements include the development of a system interface to ensure the accurate use of
military service in the calculation of benefits.




                                                 - 42 -
Work continued during fiscal year 2011 on an initiative to redesign the Overpayment Recovery
and Correspondence System (ORCS) to automatically interface with other on-line and
mainframe applications. The redesigned system, which we expect to complete in calendar year
2011, will completely automate the retrieval of overpayment recovery data for benefits under the
Railroad Retirement Act, RUIA and Medicare. The system will also include a letter writing and
calculation summary process.

The RRB has worked closely with the Centers for Medicare & Medicaid Services on
implementation of Part C and Part D premium withholding to simplify the data exchange process
between the two agencies, minimize errors and perform timely adjustments as needed.
Beginning with the premiums due for June 2011, the RRB began withholding premiums for
Medicare Part C (Medicare Advantage Plans) and Medicare Part D (prescription drug plans)
from benefit payments.

The Patient Protection and Affordable Care Act of 2010 provides for an Income-Related Monthly
Adjustment Amount (IRMAA) to be added to the Medicare Part D premiums paid by high-income
beneficiaries beginning in January 2011. This provision allows for the collection of Part D
IRMAA through withholding from railroad retirement benefit checks or through direct billing. We
implemented Part D IRMAA collection in January 2011 through direct billing, utilizing the existing
Program Accounts Receivable system. Work on premium withholding from railroad retirement
benefit checks is targeted to be completed by January 2013.

Treasury recently amended its regulations to require recipients of Federal nontax payments to
receive payment by electronic funds transfer (EFT), effective May 1, 2011. The effective date is
delayed until March 1, 2013, for individuals receiving Federal payments by check on May 1,
2011; and for individuals who file claims for Federal benefits before May 1, 2011, and request
check payments when they file. Individuals who do not choose direct deposit of their payments
to an account at a financial institution, are enrolled in the Direct Express® Debit MasterCard®
card program, a prepaid card program established pursuant to terms and conditions approved
by Treasury. RRB began offering Direct Express® to Railroad Retirement Act (RRA) beneficiaries
in March 2011. As of July 1, 2011, there were 503 beneficiaries enrolled in the program.
Additionally, RRB began offering International Direct Deposit (IDD) in April 2011 to our RRA
beneficiaries who reside in foreign countries. As of July 1, 2011, there were 561 beneficiaries
enrolled in the IDD program. RRB is currently working with Treasury on program changes that
will allow child support payments, that are withheld from RRB benefits and paid to State
agencies, to be made by EFT. The target date for completion of the changes is calendar year
2011.

In 2009, we successfully concluded a major project to develop an optimized database and
synchronize it with legacy tables. Since then, with the assistance of a contractor we conducted a
data management practice assessment, which provided input to the agency’s data governance
planning. We have developed plans for improving the database as the legacy tables are
decommissioned and applications address the new database. We have also developed plans
for security access and change management. We expect to implement the security, change
management and data governance plans during fiscal year 2011.

We are also continuing with Phase 1 of our Systems Modernization Project Plan. Phase I of the
plan has two goals; the first is to convert all existing processing to access the master database
tables instead of the legacy tables, and the second is to eliminate the legacy tables as soon as
they are no longer needed. In September 2010, the Medicare Online Information (MOLI)
database was converted to access the master data tables, and seven legacy tables were retired.



                                              - 43 -
Further enhancements to Medicare processing systems will be implemented later in the project.
In addition to the conversion of the MOLI database, the System Modernization Team
implemented data modeling and data stewardship programs for master data, updated naming
standards, identified and standardized critical table designs, created audit columns on every
master table, eliminated data synchronization and increased the use of business intelligence.
The system modernization team and the RUIA group have begun work on converting the RUIA
systems to access the master database. Conversion of the RUIA systems is now targeted for
completion by the end of calendar year 2011.

Succession Planning and Training

Like many agencies, the RRB has an aging workforce. About 70 percent of our employees have
20 or more years of service and over 40 percent of the current workforce will be eligible for
retirement by fiscal year 2013. To prepare for the expected turnover, the agency is placing
increased emphasis on strategic management of human capital. Each organization has
completed workforce planning documents that identify the current staffing levels, projected
attrition and planned hiring in fiscal years 2011, 2012 and 2013. Each executive also completed
a gap analysis for his/her organization that identified potential areas of skills and knowledge
gaps that will need to be addressed, identified areas where additional training may be necessary
or where mentoring may be desirable to prepare employees for more senior positions, and
identified areas of new skills that may need to be addressed through outside hires.

Recently, the agency has been able to utilize the re-employment of retirees to allow retirees
under the Civil Service Retirement System and the Federal Employees Retirement System to be
temporarily rehired without losing entitlement to their retirement annuities under Section 1122(a)
of Public Law 111-84, which amended sections 8344 and 8468 of Title 5 of the United States
Code. The agency has been able to rehire several annuitants on a temporary basis to assist in
areas that have knowledge gaps due to attrition.

The RRB is also devoting more attention and resources to training. The agency-wide Training
Council coordinates this activity, recently offering courses in the areas of performance
management, and managerial and supervisory development. We also make use of technology
in this area, utilizing our on-line presentation facility, RRBVision, which allows employees to view
training, including a video component, in an online format. This is particularly useful to
employees and managers in the agency’s field offices.

Systems Security

Information security is a critical consideration for government agencies where maintaining the
public’s trust is essential. The RRB relies extensively on computerized systems to support its
mission operations and store the sensitive information that it collects. The RRB’s information
security program is established and maintained to reasonably protect systems data and
resources against internal failures, human errors, attacks and natural catastrophes that might
cause improper disclosure, modification, destruction, or denial of services.

To ensure mission continuity, plans and procedures exist to maintain continuity of operations
after a calamity for information systems that support the operations and assets of the RRB. The
RRB’s Continuity of Operations plan consists of a number of components, including an
Occupant Emergency Plan, a Business Continuity Plan, a Crisis Communication Plan, and
technically specific plans for mainframe, local area network (LAN), data communications, and
desktop recovery. The agency regularly conducts semi-annual off-site disaster recovery



                                               - 44 -
exercises. System programmers restore the systems and applications of the agency from back-
ups retrieved from an alternate data storage facility. Program libraries are re-created and
production databases established. Finally, business analysts verify that the systems recovered
correctly.

Federal agencies are required to provide annual computer security awareness training for
employees and contractors. Security awareness efforts are designed to change behavior or
reinforce good security practices by focusing attention on security. We continue to develop new
approaches for refreshing the awareness initiative by providing updated and innovative
presentations for the agency staff. We have a full training program that combines a security
awareness presentation with additional role-based training appropriate to the RRB’s information
technology environment. Every employee and contractor with computer network access
participates in this annual event. Individuals who do not use a computer receive physical
security awareness information. In addition to the awareness presentation, computer analysts,
software developers and network/system engineers also receive specialized technical education
necessary to maintain their skills and enhance proficiency. The formal awareness-training
program is supplemented by a weekly Security News feature story, prominently headlined on the
Intranet’s home page, reminding people to protect their computers and information throughout
the year. Every year, the RRB awareness program has been able to report exemplary levels of
participation. As of mid-July, the 2011 the awareness program had reached 95 percent
compliance, and full compliance was expected by the end of the month.

Faced with an increasingly dangerous threat environment, the RRB relies on a sophisticated
hardware and software defense that utilizes carefully monitored and maintained firewall
technology, anti-virus software and intrusion detection systems to prevent viruses, worms, spam
and malicious content from infiltrating the network, as well as to ensure that critical data and
sensitive information are not compromised. To buttress these proactive threat management
resources in the event of a successful malware attack, the agency has implemented a robust
incident response capability. Utilizing the capabilities of a special forensic analysis workstation,
the RRB Computer Emergency Response Team has the ability to conduct forensic collection
and analysis of electronic evidence from almost any type of digital media in use today. The RRB
has also established an Agency Core Response Group to determine if there is a reasonable
expectation that an incident may be a data breach with the potential for identity theft, and notifies
the Board members who will make the final decisions regarding breach notification.

The RRB continued to strengthen its security posture by addressing access-control audit
recommendations that are identified in the agency plan of actions and milestones. The RRB
completed migration of all local area network (LAN)-based programs to newer computer servers
with upgraded operating systems. To improve LAN security, network engineers upgraded to the
latest Windows Server 2008 operating system the architecture for the Active Directory, an
operating system database that controls the resources, services and functions on the network
domain. Also, owners of all LAN applications re-examined access rights to ensure that only
appropriate users have specific privileges. The RRB has also developed new information
security policy and procedures for the security control families identified in National Institute of
Standards and Technology guidance that meet the requirements for compliance with the Federal
Information Security Management Act (FISMA). The policies and procedures will be submitted
to the RRB’s management for approval, and published for ease of reference by the end of fiscal
year 2011.




                                               - 45 -
The Security Authorization process is integral to the information security programs of Federal
agencies. Performing the security authorization process helps provide an understanding of the
risks and other factors that could adversely affect the agency’s mission. In fiscal year 2011,
contractual services are being utilized for the authorization of the Benefit, Payment and
Operations major application, and continuous monitoring of the RRB’s other systems.
Achievement of authorization for all general support systems and major applications, together
with the initiation of the periodic control assessment process, positions the RRB in full
compliance with a major provision of FISMA.




                                             - 46 -
                                      Program Evaluations


   Program Evaluation                               Results in Fiscal Year 2011
Federal Managers’
                             See “Systems and Controls” in the “Management’s Discussion and
Financial Integrity Act
                             Analysis” section.
Reports

Annual actuarial report      The report, which was completed in June 2011, addresses the 25
required by the Railroad     calendar year period 2011 through 2035. It indicates that cash flow
Retirement Act of 1974 and   problems arise only under the most pessimistic employment assumption,
the Railroad Retirement      and not until 2034. The report did not include any recommendations for
Solvency Act of 1983         financing changes.

Railroad Unemployment        The report, which was released in June 2011, addresses the 11 fiscal
Insurance System, annual     year period 2011 through 2021. The report indicated that even as
report required by section   maximum benefits are expected to increase 38 percent from 2010 to
7105 of the Technical and    2021, experience-based contribution rates are expected to keep the
Miscellaneous Revenue Act    unemployment insurance system solvent. The report did not include any
of 1988                      recommendations for financing changes at this time.

                             The RRB continuously monitors the timeliness and accuracy of our
Customer service             performance in managing program workloads. These results are
performance reports          reflected in the performance objectives shown in the chart on the
                             following pages, and published on our website at www.rrb.gov.

                             The RRB’s program integrity report for fiscal year 2010, released in
                             December 2010, showed that program integrity activities resulted in the
Program integrity report     establishment of about $14.1 million in recoverables, recovery of
                             $12.5 million, benefit savings of $1.6 million, and referral of 34 cases to
                             the Office of Inspector General.

                             RRA adjudicative and payment accuracy is measured in regular
                             diagnostic reviews conducted by quality assurance staff within the
Quality assurance reviews
                             RRB’s Program Evaluation and Management Services (PEMS)
and special studies
                             component. PEMS also evaluates policies and processes through
                             special studies, as needed. PEMS reports to the Director of Programs.

                             Advisory doctors, representing the rail industry (labor and management),
                             are authorized by law to review agency medical decisions. An audit was
Occupational disability      done in 2000; another audit was completed in 2008. In addition,
reviews                      consulting physicians from Consultative Examinations, Ltd. perform a
                             quarterly quality review of disability documentation to ensure it is
                             adequate to support medical decisions.

                             See “Inspector General’s Statement on Management and Performance
RRB Office of Inspector
                             Challenges” and “Management’s Comments” in the “Other
General audits
                             Accompanying Information” section.




                                                - 47 -
   Program Evaluation                             Results in Fiscal Year 2011
                           Results of performance budget monitoring are shown in the chart of
                           performance objectives on the following pages. Actual performance
Performance budget
                           data are reviewed, validated and certified prior to inclusion in this report.
monitoring
                           Validation and certification processes are documented as part of the
                           RRB’s management control review process.

                           See performance goals II-C-2, II-C-3, II-C-4 and II-C-12 in the chart of
                           performance objectives on the following pages. All of the RRB’s general
Computer security and      support systems and all major applications are fully certified and
privacy assessment         accredited in compliance with the Federal Information Security
                           Management Act, Office of Management and Budget directives and
                           National Institute of Standards and Technology guidance.

Electronic government
                           Information concerning these initiatives begins on page __.
(e-Gov) activities

Improper payment           See “Improper Payments Information Act (IPIA)” in the “Other
evaluation                 Accompanying Information” section.



  The next page begins a consolidated presentation of our actual performance in fiscal
  year 2008 through March 31, 2011 (except as noted), followed by a discussion of our
  unmet performance goals and objectives for fiscal year 2010. At the time this report was
  prepared, we had incomplete information on our fiscal year 2011 performance. The
  discussion of any unmet fiscal year 2011 performance goals and indicators will be
  presented in next year’s report. This performance report was prepared by RRB
  employees.




                                              - 48 -
         Railroad Retirement Board                             2008           2009          2010              2011              2011
                                                                    1/             1/             1/                 1/              1/
         FY 2011                                             Actual         Actual         Actual          Projected          Actual
         Performance Budget                                (At $101.9m)   (At $105.5m)   (At $109.1m)     (At $108.9m)      (At $108.9m)


         STRATEGIC GOAL I: Provide Excellent Customer Service


         Performance Goal I-A: Pay benefits accurately and timely.
         I-A-1. Achieve a
         railroad retirement        a) Initial recurring
                                                             99.75%         99.59%         99.58%           99.75%           Not available
         benefit payment                     payments:
         recurring accuracy
               2/
         rate of at least 99%.             b) Sample
         (Measure: % accuracy                                                                        3/               3/                 3/
                                        post recurring       99.97%          100%         Deferred         Deferred           Deferred
         rate)                             payments:
         I-A-2. Achieve a
- 49 -




         railroad unemployment/                                                                                                  100%
                                    a) Unemployment:         99.71%         98.93%          100%            99.60%
         sickness insurance                                                                                                (through 3/31/11)
         benefit payment
                        2/
         accuracy rate of at
         least 99%.                                                                                                             99.45%
                                         b) Sickness:        99.89%         99.70%         99.94%           99.85%
         (Measure: % accuracy                                                                                              (through 3/31/11)
         rate)
         I-A-3. Achieve a
         railroad retirement case     a) Initial cases:       96.1%          96.1%          91.6%           94.00%           Not available
                        2/
         accuracy rate of at
         least 94%.
                                                                                                     3/               3/                 3/
         (Measure: % of case           b) Post cases:         96.8%          99.3%        Deferred         Deferred           Deferred
         accuracy)
         I-A-4. Achieve a
                                                                                                                                 100%
         railroad unemployment/ a) Unemployment:             98.55%         97.04%          100%            97.50%
                                                                                                                           (through 3/31/11)
         sickness insurance case
                       2/
         accuracy rate of at
         least 98%.                                                                                                             99.01%
         (Measure: % of case         b) Sickness:            99.03%         97.52%         99.51%           99.00%
                                                                                                                           (through 3/31/11)
         accuracy)
         Railroad Retirement Board                            2008           2009          2010            2011            2011
                                                                   1/             1/             1/               1/            1/
         FY 2011                                            Actual         Actual         Actual        Projected        Actual
         Performance Budget                               (At $101.9m)   (At $105.5m)   (At $109.1m)   (At $108.9m)    (At $108.9m)

         I-A-5. The RRB makes a decision to pay or
         deny a railroad retirement employee or
         spouse initial annuity application within 35
         days of the annuity beginning date, if
         advanced filed.                                     92.4%         94.86%         96.16%         92.75%          96.37%
         (Measure for fiscal year 2008: % ≤ 30
         adjudicative processing days. Measure
         starting with fiscal year 2009: % < 35
               4/
         days. )

         I-A-6. The RRB makes a decision to pay or
         deny a railroad retirement employee or
         spouse initial annuity application within 60
         days of the date the application was filed.
                                                             96.1%          97.0%          96.9%         96.80%           98.1%
         (Measure for fiscal year 2008: % < 60
         adjudicative processing days. Measure
- 50 -




         starting with fiscal year 2009: % < 60
               4/
         days )


         I-A-7. RRB makes a decision to pay, deny
         or transfer to SSA an initial annuity
         application for a railroad retirement survivor
         not already receiving a benefit within 60           92.9%          94.4%          96.1%         93.50%          95.98%
         days of the annuity beginning date or date
         filed (whichever is later).
         (Measure: % ≤ 60 days )
                                     5/




         I-A-8. RRB makes a decision to pay, deny
         or transfer to SSA an initial annuity
         application for a railroad retirement survivor
         already receiving the benefits as a spouse          95.1%          95.4%          95.3%         95.20%          95.58%
         within 30 days of the RRB’s receipt of first
                                           5/
         notice of the employee’s death.
         (Measure: % ≤ 30 days)
         Railroad Retirement Board                             2008           2009          2010            2011            2011
                                                                    1/             1/             1/               1/            1/
         FY 2011                                             Actual         Actual         Actual        Projected        Actual
         Performance Budget                                (At $101.9m)   (At $105.5m)   (At $109.1m)   (At $108.9m)    (At $108.9m)


         I-A-9. RRB makes a decision to pay or
         deny a lump sum death benefit within 60
                                                     5/       97.0%         97.43%          98.3%         97.10%          98.22%
         days of the date the application was filed.
         (Measure: % ≤ 60 days)



         I-A-10. RRB releases a UI claim form or
         letter of denial within 10 days of receiving an
                                                              99.5%         99.50%          100%          99.50%           99.5%
         application for unemployment benefits.
         (Measure: % ≤ 10 processing days)



         I-A-11. RRB releases an SI claim form or
- 51 -




         letter of denial within 10 days of receiving an
                                                              99.2%         99.34%          99.4%         99.20%          99.60%
         application for sickness insurance benefits.
         (Measure: % ≤ 10 processing days)



         I-A-12. RRB certifies a payment or releases
         a letter of denial of UI or SI benefits within
                                                              99.7%         99.80%          99.9%         99.80%           99.9%
         10 days of the date RRB receives the claim.
          (Measure: % < 10 processing days)



         I-A-13. The RRB makes a decision to pay
         or deny a benefit for a disabled applicant or
         family member within 100 days of the date            70.4%          62.5%          68.9%         70.00%           64.8%
         the application is filed.
         (Measure: % ≤ 100 days)
         Railroad Retirement Board                            2008               2009              2010                 2011               2011
                                                                   1/                 1/                 1/                    1/               1/
         FY 2011                                            Actual             Actual             Actual             Projected           Actual
         Performance Budget                               (At $101.9m)       (At $105.5m)       (At $109.1m)        (At $108.9m)       (At $108.9m)

         I-A-14. Disabled applicant receives
         payment within 25 days of decision or
                                                             94.8%
         earliest payment date (whichever is later).
                                             6/
         (Measure: % < 20 processing days )
         Revised goal for 2009 and later

         I-A-14. The RRB makes a payment to a
         disabled applicant within 25 days of the date                          96.5%              96.2%              94.50%               95.5%
         of decision or earliest payment date,
         whichever is later.
                                   6/
         (Measure: % < 25 days )
         I-A-15. Reduce the number of days elapsed
         between the date the appeal is filed and a                              231
                                                         239 (Estimated)                             252                300                 289
         decision is rendered.                                               (Estimated)
- 52 -




                                            7/
         (Measure: average elapsed days)
                                                                            ACSI field work
         I-A-16. Achieve quality                                            was completed
         and accuracy of                                   ACSI survey        by 9/17/09.
                                      (ACSI) surveys:
         correspondence,                                    deferred        The final report
         publications, and voice                                             was received
         communications.                                                       10/13/09.
         (Measure: surveys and
         reviews; number of valid                                                                                 No more than two
                                                                            No challenges
         challenges to published        Challenges to    No challenges to                      No challenges to    valid challenges   No challenges to
                                                                             to published
         data)                         published data:    published data                        published data    to published data    published data
                                                                                 data
                                                                                                                        in 2011
         I-A-17. Improve timeliness and efficiency in
         posting service and compensation data to
         agency records.                                     67.5%              96.9%
         (Measure through fiscal year 2009: % of
         service and compensation records posted
         by April 15)
                                                                                                                                           99.14%
         (Revised measure for fiscal year 2010 and                                                 99.51%             99.00%
                                                                                                                                      (through 5/01/11)
         later: % of service and compensation
         records posted by May 1)
         Railroad Retirement Board                           2008           2009            2010                  2011                 2011
                                                                  1/             1/               1/                     1/                 1/
         FY 2011                                           Actual         Actual           Actual              Projected             Actual
         Performance Budget                              (At $101.9m)   (At $105.5m)     (At $109.1m)         (At $108.9m)         (At $108.9m)


         I-A-18. Improve accuracy in posting service
         and compensation data to agency records.
                                                            96.3%          98.8%            84.6%                98.00%                99%
         (Measure: % of service and compensation
         records posted accurately)

         I-A-19. Covered employer annual reports of
         employees filed electronically, or on
                                                                                                                                      98.94%
         magnetic media.                                    98.7%          98.8%            98.8%                99.00%
                                                                                                                                 (through 5/01/11)
         (Measure: % of employee records filed
         electronically, or on magnetic media)


         Performance Goal I-B: Provide a range of choices in service delivery methods.
- 53 -




         I-B-1. Offer electronic options to our
         customers, allowing them alternative ways
         to perform primary services via the Internet    17 services    18 services       18 services          20 services          19 services
         or interactive voice response systems.           available      available         available            available            available
         (Measure: # of services available through
         electronic media)

         I-B-2. Enable employers
         to use the Internet to
         conduct business with the      a) Employers
                                                            69.0%          77.0%            81.2%                76.0%                 82%
         RRB, in support of the           using ERS:
         Government Paperwork
         Elimination Act.
         (Measures: % of
         employers who use the                            8 Internet     10 Internet
         on-line Employer                  b) Internet                                    10 Internet          17 Internet          10 Internet
                                                          services        services
         Reporting System (ERS);            services:                                  services available   services available   services available
                                                          available       available
         # of services available
         through electronic media)
         Railroad Retirement Board                               2008              2009               2010                  2011                 2011
                                                                      1/                1/                  1/                     1/                 1/
         FY 2011                                               Actual            Actual              Actual              Projected             Actual
         Performance Budget                                  (At $101.9m)      (At $105.5m)        (At $109.1m)         (At $108.9m)         (At $108.9m)


         STRATEGIC GOAL II: Serve as Responsible Stewards for Our Customers’ Trust Funds and Agency Resources.


         Performance Goal II-A: Ensure that trust fund assets are projected, collected, recorded, and reported appropriately.

         II-A-1. Debts will be collected through
         billing, offset, reclamation, referral to outside
         collection programs, and a variety of other
                                                                  58%               56%                59%                  55%                  39%
         collection efforts.
         (Measure: funds collected vs. total debts
         outstanding)
         II-A-2. Release quarterly and annual
         notices accurately and timely to employers
- 54 -




         regarding their experience rating based                  Yes               Yes                 Yes                  Yes                 Yes
         contributions.
         (Measure: Yes/No)

         II-A-3. Complete compensation
         reconciliations at least one year before the
         statute of limitations expires.
                                                              100% of the       100% of the                                                100% of the 2008
         (Compensation reconciliations involve a                                                 100% of the 2007     100% of the 2008
                                                                  2005              2006                                                     reconciliations
         comparison of compensation reported by                                                  reconciliations by   reconciliations by
                                                             reconciliations   reconciliations                                             were completed by
         railroad employers to RRB for benefit                                                       2/05/10              2/28/11
                                                               by 2/26/08        by 1/27/09                                                     2/09/11.
         calculation purposes with compensation
         reported to IRS for tax purposes.)
         (Measure: % completed)
         Railroad Retirement Board                            2008            2009           2010             2011             2011
                                                                   1/              1/              1/                1/             1/
         FY 2011                                            Actual          Actual          Actual         Projected         Actual
         Performance Budget                               (At $101.9m)    (At $105.5m)    (At $109.1m)    (At $108.9m)     (At $108.9m)

         II-A-4. Perform monthly reasonableness
         tests comparing railroad retirement taxes
         deposited electronically, which represent
         over 99% of all railroad retirement taxes,                                                                          Yes. As of
         against tax receipts transferred to RRB trust                                                                         4/29/11,
         funds by the Department of the Treasury                                                                          reasonableness
                                                              Yes             Yes             Yes             Yes
         (Treasury) to provide reasonable assurance                                                                        tests had been
         RRB trust funds are receiving appropriate                                                                        updated through
         taxes.                                                                                                             March 2011.
         (Measure: reasonableness test performed
         and anomalies reconciled with Treasury
         (Yes/No))

         II-A-5. Prepare annual Performance and
         Accountability Reports (including audited        Yes. The 2007   Yes. The 2008   Yes. The 2009   Yes. The 2010   Yes. The 2010
         financial statements and other financial and       P&AR was        P&AR was        P&AR was        P&AR was        P&AR was
- 55 -




         performance reports) by the required due          released on     released on     released on     released on     released on
         dates.                                             11/15/07.       11/17/08.       11/16/09.       11/15/10.       11/15/10.
         (Measure: Yes/No)


         II-A-6. Take prompt corrective action on
         audit recommendations.
                                                             94.0%           95.0%           95.0%           90.0%             97%
         (Measure: % of audit recommendations
         implemented by target date)


         Performance Goal II-B: Ensure the integrity of benefit programs.

         II-B-1. Achieve a return of at least $3.60 for
         each dollar spent on program integrity
         activities.                                      $3.97 : $1.00   $4.20 : $1.00   $5.51 : $1.00   $3.60 : $1.00    Not available
         (Measure: recoveries and savings per
                       8/
         dollar spent)
         Railroad Retirement Board                          2008                2009               2010                  2011                2011
                                                                 1/                  1/                  1/                     1/                1/
         FY 2011                                          Actual              Actual              Actual              Projected            Actual
         Performance Budget                             (At $101.9m)        (At $105.5m)        (At $109.1m)         (At $108.9m)        (At $108.9m)


         Performance Goal II-C: Ensure effectiveness, efficiency, and security of operations.

         II-C-1. Continue succession planning by
         ensuring there is a cadre of highly skilled
         employees available for key positions.              Yes                 Yes                 Yes                 Yes                   Yes
         (Measure: structured succession planning
         activities are continuing – Yes/No)
         II-C-2. Annually assess/update all computer   Yes. With           Yes.               Yes. The             Yes. The general    Yes. The general
         security, disaster recovery, and business     contractor          Certification      contractor           support system      support system
         resumption plans for the agency.              assistance, the     and                assisting with the   and all major       and all major
         (Measure: Yes/No)                             certification and   accreditation of   certification &      applications will   applications will be
                                                       accreditation of    both RRB           accreditation of     be in the post-     in the post-
                                                       the mainframe       general support    the agency’s         accreditation       accreditation
- 56 -




                                                       general support     systems and all    consolidated         phase               phase undergoing
                                                       system and 5 of     6 major            general support      undergoing          security control
                                                       6 major             applications       system and with      security control    monitoring. IT
                                                       applications        were               the continuous       monitoring. IT      disaster recovery
                                                       were completed.     completed.         monitoring           disaster recovery   planning will be
                                                        The was in         Updated            project began        planning will be    updated to
                                                       progress at the     disaster           work on the          updated to          consider modern
                                                       end of the fiscal   recovery           project in June,     consider modern     technology.
                                                       year. An            information        and the project      technology.         Testing will
                                                       assessment of       provided by        was completed in     Testing will        continue at the
                                                       agency-wide         agency             September. Two       continue at the     alternate site.
                                                       common              business           disaster recovery    alternate site.
                                                       controls was        components         tests were also
                                                       performed.          was used to        conducted at the
                                                       Contingency         prepare the        alternate
                                                       planning was        RFP for            recovery site in
                                                       tested and          recompeting        fiscal year 2010.
                                                       disaster            the alternate IT
                                                       recovery training   recovery site
                                                       was conducted       contract.
                                                       off-site.
         Railroad Retirement Board                          2008             2009          2010            2011            2011
                                                                 1/               1/             1/               1/            1/
         FY 2011                                          Actual           Actual         Actual        Projected        Actual
         Performance Budget                             (At $101.9m)     (At $105.5m)   (At $109.1m)   (At $108.9m)    (At $108.9m)

         II-C-3. Develop and implement new             Yes. Com-
         procedures for responding to and reporting    ponents of the
         computer security incidents.                  Core Intrusion
         (Measure: Yes/No)                             Detection/
                                                       Prevention
                                                       System were
                                                       updated to
                                                       improve the
                                                       stability and
                                                       uptime of back-
                                                       end processes.
                                                       As of 7/02/08,
                                                       tuning of
                                                       Network Access
                                                       Control was
                                                       completed. A
- 57 -




                                                       Vulnerability
                                                       Remediation
                                                       Task Force was
                                                       formed to
                                                       improve the
                                                       RRB’s security
                                                       incident
                                                       response
                                                       capability.
         Revised goal for 2009 and later

         II-C-3. Maintain an incident response
         program for responding to and reporting                             Yes            Yes            Yes             Yes
         computer security incidents.
         (Measure: All cyber security incidents will
         be reported to US-CERT, Yes/No)
         Railroad Retirement Board                              2008                   2009                2010               2011                2011
                                                                     1/                     1/                   1/                  1/                1/
         FY 2011                                              Actual                 Actual               Actual           Projected            Actual
         Performance Budget                                 (At $101.9m)           (At $105.5m)         (At $109.1m)      (At $108.9m)        (At $108.9m)

         II-C-4. Assess computer security training        Yes. The                Yes. The            Yes. The annual   Yes. The annual     Yes. The annual
         requirements and implement an ongoing            annual RRB              annual FISMA        FISMA security    FISMA computer      FISMA computer
         training program for agency staff.               computer                computer            awareness         security            security
         (Measure: Yes/No)                                security                security            training was      awareness           awareness training
                                                          awareness               awareness           completed on      training and        and specialized
                                                          program was             training and        June 30, 2010.    specialized         security training
                                                          launched in             specialized                           security training   was provided for
                                                          March 2008. As          security training                     will be provided    all employees and
                                                          of 7/02/08, the         was completed.                        for all employees   contractors during
                                                          OPM                     This training                         and contractors.    May 2011.
                                                          GoLearn.gov             program had                           Additional role-    Additional role-
                                                          role-based              100%                                  based technical     based technical
                                                          security training       participation                         training will be    training was also
                                                          program was             with 1,013                            provided as         provided to
                                                          completed.              employees and                         required.           designated
                                                          Specialized             contractors                                               employees during
- 58 -




                                                          technical               accounted for.                                            May 2011.
                                                          education was
                                                          approved for all
                                                          training
                                                          designated as
                                                          critical or vital for
                                                          achieving
                                                          performance
                                                          goals.
         II-C-5. Implement a methodology to
         successfully estimate, track and monitor
         total costs and time schedules for                This objective
         information technology investments through        was completed
         the project life cycle, incorporating both web     in fiscal year
         and mainframe investments.                              2007.
         (Measure: Yes/No)

         II-C-6. Assemble and publicize an annual
         inventory of RRB commercial activities on
                                                                  Yes                   Yes                 Yes                Yes                 Yes
         the RRB website.
         (Measure: Yes/No)
         Railroad Retirement Board                           2008               2009            2010             2011                 2011
                                                                  1/                 1/               1/                1/                 1/
         FY 2011                                           Actual             Actual           Actual         Projected             Actual
         Performance Budget                              (At $101.9m)       (At $105.5m)     (At $109.1m)    (At $108.9m)         (At $108.9m)

         II-C-7. Meet government percentage goal
         for use of performance-based contracting
         techniques for eligible service contract             Yes                Yes             Yes              Yes                  Yes
         funds.
         (Measure: Yes/No)
         II-C-8. Support government-wide
         procurement of E-Government initiatives
         using the point of entry vehicle of                  Yes                Yes             Yes              Yes                  Yes
          .FedBizOpps. for all eligible actions.
         (Measure: Yes/No)
         II-C-9. Complete migration from the
         agency’s current mainframe database
         management system (IDMS) to DB2, and           This objective
         initiate efforts to optimize the performance   was completed
         of those databases and further reduce data      in fiscal year
- 59 -




         redundancy.                                          2007.
         (Measure: Meet target dates for the
         migration. Yes/No)
                                                                              Yes. The
         II-C-10. Complete data optimization to
                                                                             project was
         optimize the performance of DB2 databases
                                                                            completed by
         for future developmental efforts, and to
                                                              Yes            the revised
         further reduce and document the data.
                                                                            target date of
         (Measure: Meet target dates for the project.
                                                                               2/28/09.
          Yes/No)

                                                                               Yes. The                        Yes. We are
         II-C-11. Complete modernization of RRB                             project was in     Yes. The     currently working    Yes. We expect
         processing systems in accordance with                               the analysis      Medicare      on the Railroad    to finish the RUIA
                                                        New indicator for
         long-range planning goals.                                         and planning     database was    Unemployment            database
                                                        fiscal year 2009
         (Measure: Meet target dates for each                               phase and on     converted on     Insurance Act       conversion by
         phase of the project. Yes/No)                                       schedule as        9/26/10.    (RUIA) database          12/31/11.
                                                                             anticipated.                       conversion.
          Railroad Retirement Board                           2008               2009               2010                 2011                 2011
                                                                   1/                 1/                  1/                    1/                 1/
          FY 2011                                           Actual             Actual              Actual             Projected             Actual
          Performance Budget                              (At $101.9m)       (At $105.5m)        (At $109.1m)        (At $108.9m)         (At $108.9m)

                                                                                                                        The two
                                                                                                                                        The two remaining
                                                                                                                       remaining
                                                                             As of 9/30/09,      Fourteen of the                        recommendations
          II-C-12. Complete 16 corrective actions to                                                               recommendation
                                                                            all 16 corrective   recommendation                          are in the process
          correct the RRB’s material weakness            Three corrective                                             s are in the
                                                                              actions were           s were                             of being resolved,
          related to information security.                actions were                                             process of being
                                                                            completed and          completed,                               and will be
          (Measure: Meet target dates for the project.     completed.                                              resolved, and will
                                                                            sent to the OIG      accepted by the                         forwarded to the
           Yes/No)                                                                                                  be forwarded to
                                                                                for review.     OIG and closed.                           OIG for closure
                                                                                                                      the OIG for
                                                                                                                                             this year.
                                                                                                                   closure this year.

          Performance Goal II-D: Effectively carry out responsibilities with respect to the National Retirement Investment Trust.
          II-D-1. Review monthly reports submitted by
          the Trust.                                           Yes                Yes                 Yes                Yes                   Yes
          (Measure: Yes/No)
- 60 -




          II-D-2. Review annual management reports
          submitted by the Trust.                              Yes                Yes                 Yes                Yes                   Yes
          (Measure: Yes/No)
          II-D-3. Review annual audit reports of the
          Trust’s financial statements.                        Yes                Yes                 Yes                Yes                   Yes
          (Measure: Yes/No)



         1/ Dollar amounts shown are funds appropriated for the fiscal year. Projected performance for fiscal year 2011 reflects the RRB’s
            Fiscal Year 2011 Operating Plan, released on May 12, 2011. Actual results represent status as of March 31, 2011, unless
            otherwise noted.

         2/ The payment accuracy rate is the percentage of dollars paid correctly as a result of adjudication actions performed. The case
            accuracy rate represents the percentage of cases that do not contain a material payment error. Case accuracy rates reflect only
            those errors that are detected as a result of reviewing award actions performed during the fiscal year being studied. (A material
            error is an incorrect payment of $5.00 or more at the point the error is identified; an incorrect payment of less than $5.00 totaling
            1 percent or more of the monthly rate; or, any situation in which a non-entitled benefit is paid.)
         3/ The quality review of post recurring payments was deferred in fiscal year 2010 because the accuracy rates have historically been
            very high, and the findings minimal. The return on measuring this area every year has diminished over time. Review has been
            deferred again in fiscal year 2011 to allow staff to complete work on a special quality assurance case review started in fiscal year
            2010.

         4/ In audit report 05-05, dated May 17, 2005, RRB’s OIG found problems with the performance data for these indicators. One
            significant problem was resolved immediately, allowing us to report performance for 2005 and later. However, there were still
            some system limitations that prevented inclusion of all internal processing time in the performance data. Another program error
            caused a small number (less than 1 percent) of spouse applications to be calculated incorrectly. Effective October 1, 2008, these
            system problems were corrected. As a result of these system changes, beginning in fiscal year 2009, we measure timeliness by
            calendar days rather than adjudicative processing days as in previous years.

         5/ This objective was restated as of April 2009, to more accurately describe how timeliness is measured. For objective I-A-9, the
            term “railroad retirement death benefit” was changed to “lump sum death benefit” to correspond with references to this benefit in
            the RRB’s regulations.

         6/ This indicator includes both employee and survivor disability payments. The employee payments were impacted by the system
            limitations identified in footnote 4 above. Effective October 1, 2008, these system problems were corrected.
- 61 -




         7/ The figures for fiscal year 2008 and 2009 were stated as estimates due to problems with the computer program which produced
            them. Program corrections and testing were completed at the end of fiscal year 2010. The program allows retroactive
            recalculation for any prior year back to fiscal year 2004. The target for fiscal year 2011 was adjusted to reflect the new
            measurement system.

         8/ In November 2010, we discovered that not all program integrity cost information was being used to compile the program integrity
            ratio – most significantly, the cost of a major monitoring activity was not being captured, even though the benefits of that process
            were included. As a result, we recomputed the program integrity ratios for fiscal years 2008 and 2009 using the updated cost
            amounts. The previously published amount for fiscal year 2007 was also incorrect; however, we have withdrawn that performance
            data, rather than recompute it. We have also adjusted the fiscal year 2011 target for this indicator from $5.48: $1.00, to an
            adjusted level of $3.60: $1.00, which is consistent with the initial statement of the objective.
    Discussion of Unmet Performance Goals and Indicators for Fiscal Year 2010


                  INDICATOR                                     DISCUSSION OF VARIANCE

Performance indicator I-A-1(a). Achieve a              The performance goal was set at an
railroad retirement benefit payment accuracy           approximate target level, and the deviation from
rate of at least 99% for initial recurring             that level is slight. There was no effect on
payments.                                              overall program or activity performance.
(Measure: percent accuracy rate)

Our goal for fiscal year 2010 was 99.75%, and
the actual was 99.58%.


Performance indicator I-A-3(a). Achieve a              Initial cases involve a certain level of manual
railroad retirement case accuracy rate of at           activity, which can be prone to human error.
least 94% for initial cases.                           System changes and improvements are
(Measure: % accuracy rate)                             pending which will address those errors caused
                                                       by system limitations. In addition, initial claims
Our goal for fiscal year 2010 was 94.00%, and          examiner training classes for both retirement
the actual was 91.6%.                                  and survivor benefits ended in May 2010. As
                                                       this staff becomes more proficient in handling
                                                       the manual workloads, we expect the case
                                                       accuracy rate to improve.


Performance indicator I-A-13. Make a                     Although fiscal year 2010 performance
decision to pay or deny a benefit for a disabled       increased to 68.9%, from 62.5% in fiscal year
applicant or family member within 100 days of          2009, performance was slightly lower than the
the date the application is filed.                     target of 70%. Actions to further improve
(Measure: % ≤ 100 days)                                performance include continued monitoring of
                                                       aging cases and overtime.
Our fiscal year 2010 goal was 70.00%, and the
actual was 68.9%.


Performance indicator I-A-15. Reduce the               As a result of staff turnover, during fiscal year
number of days elapsed between the date the            2010, four of the seven GS-14 hearings officers
appeal is filed and a decision is rendered.            were leaving training, entering training, or acting
(Measure: average elapsed days)                        as training instructors for new employees. The
                                                       resulting workload shift resulted in higher
Our fiscal year 2010 goal was 190 days, and the        caseloads for the remaining hearings officers
actual was 252 days.                                   and longer waiting times before the cases could
                                                       be considered. In addition, the 2010 goal was
                                                       set using a former, flawed computer program.




                                                   - 62 -
                  INDICATOR                                   DISCUSSION OF VARIANCE

Performance indicator I-A-18. Improve                The fiscal year 2010 performance decreased
accuracy in posting service and compensation         due to internal errors that occurred when a
data to agency records.                              report from one of the largest covered
(Measure: % of service and compensation              employers was processed with errors. We
records posted accurately)                           reversed the posted transactions and
                                                     resubmitted the corrected data. This resulted in
Our goal for fiscal year 2010 was 97.00%, and        over 90,000 record corrections that were
the actual was 84.6%.                                handled before the form BA-6 certificates were
                                                     released. This was an unusual situation, which
                                                     will be closely monitored to ensure that this
                                                     occurrence will not be repeated.


Performance indicator I-B-1. Offer electronic        Online sickness benefit claims were to be
options to our customers, allowing them              introduced by September 30, 2010, but
alternative ways to perform primary services via     implementation was delayed until October 2010,
the Internet or interactive voice response           due to staff resources spending longer than
systems.                                             anticipated on the Networx project earlier in the
(Measure: number of services available through       fiscal year. Under the GSA-Networx Universal
electronic media)                                    contract, the RRB implemented upgrades to our
                                                     data network and web host.
Our fiscal year 2010 goal was 19 services, and
the actual was 18 services.

Performance indicator I-B-2 (b). Enable              During fiscal year 2010, we continued work on
employers to use the Internet to conduct             Phase 2 of the Employer Reporting System
business with the RRB, in support of the             (ERS) project to convert the existing ERS forms
Government Paperwork Elimination Act.                from SAS to ASP.Net programming. This
(Measure: number of services available through       conversion project experienced extended delays
electronic media)                                    due to the migration of all current Internet-based
                                                     production systems to a new server as part of
Our goal for fiscal year 2010 was 17 Internet        the GSA-Networx Universal contract the RRB
services and the actual was 10 services.             implemented to upgrade and enhance our ability
                                                     to host applications on our website. Phase 3 of
                                                     the ERS project will introduce 7 new Internet
                                                     services for rail employers. Both Phases 2 and
                                                     3 are now scheduled for implementation during
                                                     fiscal year 2011.




                                                 - 63 -
PAGE INTENTIONALLY LEFT BLANK
FINANCIAL SECTION
PAGE INTENTIONALLY LEFT BLANK
                                        Financial Section

Message from the Chief Financial Officer

I am pleased to present the RRB’s Performance and Accountability Report for fiscal year 2011. This
report incorporates the annual performance report under the Government Performance and Results
Act of 1993, the internal control report under the Federal Managers’ Financial Integrity Act, and
audited consolidated financial statements under OMB guidance.

The RRB is committed to integrated and automated financial management systems that focus on the
agency’s mission and accountability. We strive to maintain an environment in which program and
financial managers work in partnership to ensure the integrity of financial information and use that
information to make decisions, measure performance, and monitor outcomes. In this environment,
we envision integrated financial management systems with appropriate internal review and controls
that provide agency managers with timely, accurate, and easily accessible information. We expect
managers throughout the agency to use that information to achieve program objectives in a
cost-effective manner and to ensure accountability.

The RRB continued to provide high quality financial management and financial reporting during fiscal
year 2011.

   •   We achieved an unqualified, or clean, audit opinion on our consolidated financial statements
       for fiscal year 2011. We also continued to prepare unaudited quarterly financial statements
       and met the accelerated schedule of releasing these statements to OMB.

   •   We implemented audit recommendations as follows:

       At the beginning of fiscal year 2011, the agency’s audit follow-up tracking system reported
       153 audit recommendations as being open. During the fiscal year, audit reports containing
       another 88 recommendations were issued. As a result, the total number of open
       recommendations during the year was 241. At the same time, final action was completed on
       50 audit recommendations and 4 audit recommendations were rejected, resulting in a
       balance at the end of the fiscal year of 187 open recommendations. Additionally, the status
       of the OIG-identified material weaknesses and planned corrective action are presented in the
       Management’s Discussion and Analysis’ Management Assurances section.

In fiscal year 2010, the RRB contracted for an assessment of our core financial system. In fiscal
year 2011, the agency took the next step towards the recommended solution to migrate to a
designated shared service provider. The agency, with contractual assistance, completed an OMB
Exhibit 300 (Capital Asset Plan and Business Case Summary) for submission with its fiscal year
2013 budget request to secure the Development/Modernization Enhancement (DME) funding
required for migration. In addition, fiscal year 2011 funds were used to retain contractual services
for pre-migration activities.

The RRB will continue to provide financial information that is timely, accurate and useful in the
coming years. We are committed to continuing our tradition of providing high quality financial
services to agency management, the Congress, OMB, and the constituents we serve.


                                                                                    Original signed by:


                                                                                     George V. Govan
                                                                                 Chief Financial Officer


                                                 - 67 -
RAILROAD RETIREMENT BOARD
CONSOLIDATED BALANCE SHEET
AS OF SEPTEMBER 30, 2011 AND 2010
(in dollars)

                                                                      FY 2011                   FY 2010

ASSETS

Intragovernmental: 

 Fund Balance with Treasury (Note 3) 
                                $229,770,395              $228,131,547
 Investments (Note 4) 
                                              1,494,224,312              1,299,906,411
 Accounts Receivable (Note 6) 
                                      4,286,650,547              4,447,414.607

Totallntragovernmental                                                6,010,645,254             5,975,452,565

 NRRIT Net Assets (Note 5) 
                                        22,146.037,531             23,787,084,273
 Accounts Receivable. Net (Note 6) 
                                    42.865,125                 37,513,155
 Inventory and Related Property, Net (Note 7) 
                            101,450                     97,502
 General Property, Plant and Equipment, Net (Note 8) 
                   1,498,480                  1,573,748
 Other 
                                                                    52,366                     84,694

TOTAL ASSETS                                                       $28,201,200,206            $29,801,805,937

LIABILITIES (Note 9)

Intragovernmental: 

 Accounts Payable 
                                                   $513,563,639              $492,712,858
 Debt 
                                                               3,536,280,762             3,534.828,185
 Other 
                                                                  1,033,794                 1,589,752

Totallntragovernmental                                                4,050,878,195             4,029,130,795

 Accounts Payable 
                                                        376.347                   745.815
 Benefits Due and Payable 
                                            958,400,783               938,590,685
 Other 
                                                               155,829,406               120,892,879

TOTAL LIABILITIES 
                                                   5,165,484,731             5,089,360,174

COMMITMENTS AND CONTINGENCIES (Note 10) 


NET POSITION 


Unexpended Appropriations - Earmarked Funds (Note 17) 
                  21,045,822                   546,185
Unexpended Appropriations - Other Funds 
                               171,324,503               177.907,363
Cumulative Results of Operations - Earmarked Funds (Note 17) 
       22,842.686,914            24.533,250,962
Cumulative Results of Operations - Other Funds 
                            658,236                   741,253


TOTAL NET POSITION 
                                                 23,035,715,475            24,712,445,763

TOTAL LIABILITIES AND NET POSITION 
                               $28,201,200,206            $29,801,805,937


                 The accompanying notes are an integral part of these financial statements.

                                                     - 68­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF NET COST
FOR THE YEARS ENDED SEPTEMBER 30,2011 AND 2010
(in dollars)
                                                                    FY 2011             FY 2010

Program Costs:
 Railroad Retirement Program
     Gross Costs (Note 11)                                      $11,216,536,778     $11,058,111,229
     Less: Earned Revenue                                            11,092,913          11,276,432
     Net Program Costs                                           11,205,443,865      11,046,834,797


 Railroad Unemployment and Sickness Insurance Program
     Gross Costs (Note 11)                                          138,253,996          197,125,864
     Less: Earned Revenue                                            21,885,559           22,294,403
     Net Program Costs                                              116,368,437          174,831,461


Costs Not Assigned to Programs                                                 o                     o
Less: Earned Revenues Not Attributed to Programs                         30,628                 156,637

NET COST OF OPERATIONS                                          $11,321,781,674      $11,221,509,621

                   The accompanying notes are an integral part of these financial statements.




                                                - 69­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
FOR THE YEAR ENDED SEPTEMBER 30, 2011
(i n dollars)

                                                                          FY 2011



                                           Earmarked          All Other                             Consolidated
                                             Funds             Funds            Eliminations           Total

Cumulative Results of Operations:

 Beginning Balances                       $24,533,250,962        $741,253                           $24,533,992,215

Budgetary Financing Sources:
 Appropriations Used                          698,086,236       62,464,682                              760,550,918
 Non-Exchange Revenue                       5,607,764,685           51,592     $ (699,116,647)        4,908,699,630
 Transfers in from NRRIT (Note 12)          1,744,000,000                                             1,744,000,000
 Transfers in/out Without Reimbursement     3,885,574,000                                             3,885,574,000

Other Financing Sources (Non~Exchange):
 Imputed Financing                             11,246,803                                                11,246,803
 Change in NRRIT Assets                    (1,641,046,742)                                           (1,641,046,742)
 Loss Contingency                             (37,890,000!                                              (37,890,000)

 Total Financing Sources 
                 10,267,734,982       62,516,274          (699,116,647)     9,631,134,609
 Net Cost Of Operations 
                  11,958,299,030       62,599,291          (699,116,647)    11,321,781,674
 Net Change 
                              (1,690,564,048)          (83,017)                         (1,690,647,065)

 Cumulative Results of Operations          22,842,686,914          658,236                           22,843,345,150


Unexpended Appropriations:
 Beginning Balances                              546,185       177,907,363                              178,453,548


Budgetary Financing Sources:
 Appropriations Received                      718,650,000       57,000,000                              775,650,000
 Other Adjustments                                (64,127)      (1,118,178)                              (1,182,305)
 Appropriations Used                         (698,086,236)     (62,464,682)                            (760,550,918)

 Total Budgetary Financing Sources             20,499,637       (6,582,860)                              13,916,777

 Total Unexpended Appropriations               21,045,822      171,324,503                              192,370,325

 Net Position                             $22,863,732,736     $171,982,739                          $23,035,715,475

                  The accompanying notes are an integral part of these financial statements




                                                    - 70­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
FOR THE YEAR ENDED SEPTEMBER 30, 2010
(in dollars)

                                                                          FY 2010



                                              Earmarked          All Other 
                        Consolidated
                                                Funds             Funds 
          Eliminations        Total

Cumulative Results of Operations:

 Beginning Balances                         $24,019,150,744          $921,728                       $24,020,072,472

Budgetary Financing Sources:
 Appropriations Used                            467,052.092        83,458,693                           550,510,785
 Non-Exchange Revenue                         5,250,263,573             6,910     $ (467,929,635)     4,782,340,848
 Transfers in from NRRIT (Note 12)            1,989,000,000                                           1,989,000,000
 Transfers in/out Without Reimbursement       3,964,929,000                             (807,000)     3,964,122,000

Other Financing Sources (Non-Exchange):
 Imputed Financing                                8,839,732                                               8,839,732
 Change in NRRIT Assets                         441,515,999                                             441,515,999
 Loss Contingency                                  (900,000)                                               (900,000)

 Total Financing Sources                     12,120,700,396        83,465,603 
     (468,736,635)    11,735,429,364
 Net Cost Of Operations                      11,606,600,178        83,646,078 
     (468,736,635)    11,221,509,621
 Net Change                                     514.100.218          (180.475)                          513,919.743

 Cumulative Results of Operations            24.533,250.962           741.253                        24,533,992,215



Unexpended Appropriations:
 Beginning Balances                                 522,250        22,376,577                            22,898,827



Budgetary Financing Sources:
 Appropriations Received                        467,150,000       239,807,000                           706,957,000
 Other Adjustments                                  (73,973)         (817,521)                             (891,494)
 Appropriations Used                           (467,052,092)      (83,458,693)                         (550.510,785)

 Total Budgetary Financing Sources                   23.935       155,530,786                           155,554,721

 Total Unexpended Appropriations                    546.185       177,907,363                           178.453,548

 Net Position                               $24,533.797.147      $178.648,616                       $24,712.445.763

                           The accompanying notes are an integral part of these financial statements




                                                      - 71 ­
RAILROAD RETIREMENT BOARD
COMBINED STATEMENT OF BUDGETARY.RESOURCES
FOR THE YEARS ENDED SEPTEMBER 30,2011 AND 2010
(in dollars)


                                                                          FY 2011             FY 2010
BUDGETARY RESOURCES

Unobligated balance, brought forward, October 1                             $183,033,165          $31,025,871

Recoveries of prior year unpaid obligations                                      859,130            1,279,499
Budget authority
 Appropriation                                                            12,612,204,994       12,568,495,728
 Borrowing authority (Note 19 and Note 20)                                 3,820,500,000        3,819.100,000
 Spending authority from offsetting collections
  Earned

    Collected
                                                                34,101,424           34,705,908
    Change in receivables from Federal sources
                                   (1,693)               1,693
 Expenditure transfers from trust funds                                      117,967,209          118,066,000
Subtotal                                                                  16,584,771,934       16,540,369,329

Nonexpenditure transfers, net, anticipated and actual                             (76,702)            (178,053)
Temporarily not available pursuant to Public Law                             (599,906,043)        (863,453,827)
Permanently not available                                                  (3,813,554,424)      (3,694,178,976)

TOTAL BUDGETARY RESOURCES                                                $12,355,127,060      $12,014,863,843

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 18)
 Direct                                                                  $12,154,506,188      $11,821,158,053
 Reimbursable                                                                 10,232,295           10,672,625
 Subtotal                                                                 12,164,738,483       11,831,830,678
Unobligated balance
 Apportioned                                                                 149,132,322          122,786,746
Unobligated balance not available                                             41,256,255           60,246,419

TOTAL STATUS OF BUDGETARY RESOURCES                                      $12,355,127,060      $12,014,863,843

CHANGE IN OBLIGATED BALANCE
Obligated balance, net
 Unpaid obligations, brought forward, October 1                             $975,707,985         $971,829,238
  Uncollected customer payments from Federal sources. brought
  forward, October 1                                                            (253,812)          (2,773,591 )
Total unpaid obligated balance, net                                          975.454,173          969,055,647

Obligations incurred, net                                                  12,164,738,483       11.831,830,678
Gross outlays                                                             (12,152,845,706)     (11,826,672,432)
Recoveries of prior year unpaid obligations, actual                              (859,130)          (1,279,499)
Change in uncollected customer payments from Federal sources                        1,693            2,519,779

Obligated balance, net, end of period
 Unpaid obligations (Note 13)                                                986,741,632          975,707,985
 Uncollected customer payments from Federal sources                             (252,119)            (253,812)
Total, unpaid obligated balance, net, end of period                         $986.489,513         $975.454,173

NET OUTLAYS (Note 14)
 Gross outlays                                                           $12,152,845,706      $11,826,672,432
 Offsetting collections                                                     (152,068,633)        (155,293,380)
 Distributed offsetting receipts                                          (4,584,640,447)      (4,431,122,000)

  Net Outlays                                                              $7,416,136,626      $7,240,257,052



                 The accompanying notes are an Integral part of these financial statements.


                                                        -72 ­
                                           Statement of Social Insurance (Note 15, Note 16)

                                                     Actuarial Surplus or (Deficiency)

                                                75-year Projection as of January 1, 2011

                                                   (Present values in billions of dollars)

                                                                                             1/1/2011   1/1/2010   1/1/2009   1/1/2008 1/1/2007

Current participants who have attained retirement age:
  Contributions and earmarked taxes                                                            $73.1      $70.3      $69.0      $66.2    $63.4
  Expenditures for scheduled future benefits                                                   109.3      104.8      102.1       97.0     92.8
    Present Value of future revenue less future expenditures                                   (36.2)     (34.6)     (33.1)     (30.8)   (29.4)

Current participants not yet having attained retirement age:
  Contributions and earmarked taxes                                                             71.7       72.9       75.9       69.6      66.7
  Expenditures for scheduled future benefits                                                    86.2       88.0       91.2       88.4      86.0
    Present Value of future revenue less future expenditures                                   (14.6)     (15.0)     (15.3)     (18.8)    (19.2)

Net present value of future revenue less future expenditures for
current participants (closed group measure)                                                    (50.8)     (49.6)     (48.5)     (49.6)    (48.6)
Plus: Treasury securities and assets held by the program                                        26.3       24.9       21.8       33.2      32.0
Closed group surplus/(unfunded obligation)                                                    ($24.6)    ($24.7)    ($26.6)    ($16.4)   ($16.7)

Future participants:
  Contributions and earmarked taxes                                                            $53.2      $53.2      $57.2      $43.3    $43.1
  Expenditures for scheduled future benefits                                                    27.6       27.4       29.5       26.0     25.5
     Present Value of future revenue less future expenditures                                   25.6       25.8       27.7       17.3     17.6

Net present value of future revenue less future expenditures for
current and future participants (open group measure)                                           (25.2)     (23.8)     (20.7)     (32.3)    (31.1)
Plus: Treasury securities and assets held by the program                                        26.3       24.9       21.8       33.2      32.0
Open group surplus/(unfunded obligation)                                                        $1.0       $1.0       $1.1       $0.9      $0.9




                                                                      - 73 -
                          Statement of Changes in Social Insurance Amounts

                                              Open Group Measure

                                  For the Year Ended December 31, 2010

                                              (in billions of dollars)



Net present value(NPV) of future revenue less
future expenditures for current and future
participants (the "open group") over the next 75
years, beginning of the year                                                             $   (23.8)

Reasons for changes in the NPV during the year:

Changes in valuation period                                                                     0.2
Changes in demographic data and assumptions1                                                      0
Changes in economic data and assumptions2                                                     (1.6)
Changes in law or policy3                                                                       NA
Changes in methodology and programmatic data4                                                   NA
Other changes                                                                                   NA

Net change in open group measure                                                              (1.4)



Open group measure, end of year                                                          $   (25.2)




 1. Demographic assumptions were not changed between 2010 and 2011. Changes in demographic
    data had a minimal effect (less than 0.1 billion) on the open group measure.

 2. Ultimate economic assumptions were not changed from last year’s report, but the select economic
    assumptions were. The actual COLA of 0.0% was used for 2011 in place of the 0.5% COLA
    assumed for 2011 in last year’s report. A wage increase rate of 2.4% was used for 2010 rather than
    the assumed 4% wage increase rate used for 2010 in last year’s report. Also, the actual 2010
    investment return of 14.4% was higher than the assumed 7.5% investment rate used for 2010 in last
    year’s report. The fund balance increased from about $24.9 billion on December 31, 2009 to about
    $26.3 billion on December 31, 2010. Economic data and assumptions had the greatest effect on the
    open group measure, resulting in a change of about $1.6 billion.

 3. There were no changes in law or policy.

 4. There were no changes in methodology and programmatic data.




                                                      - 74 -
Notes to the Financial Statements: Fiscal Years Ended September 30, 2011 and 2010


1. Summary of Significant Accounting Policies

A. Basis of Presentation

Public Law 107-289, the Accountability of Tax Dollars Act of 2002, added the Railroad
Retirement Board (RRB) as an agency required to prepare audited financial statements for
fiscal year 2003, and subsequent years. Office of Management and Budget (OMB) guidance
requires that Performance and Accountability Reports (P&AR) for fiscal year 2011 are to be
submitted to the President, the Congress, and the Director of OMB by November 15, 2011. As
required by law, OMB has also prescribed the form and content of financial statements under
OMB Circular A-136. The RRB’s financial statements were prepared in accordance with the
form and content prescribed by OMB and with generally accepted accounting principles and
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).

The principal statements (prepared on a consolidated basis, except for the Statement of
Budgetary Resources which was prepared on a combined basis, and eliminating all significant
interfund balances and transactions) are comprised of the Balance Sheet and Statements of Net
Cost, Changes in Net Position, Budgetary Resources, and Social Insurance. These statements
are different from the financial reports, also prepared by the RRB pursuant to OMB directives,
used to monitor and control the RRB's use of budgetary resources.

B. Reporting Entity

The railroad retirement and the railroad unemployment and sickness insurance programs are
financed through the following accounts:

●   Railroad Retirement (RR) Account, 60X8011, funds retirement, survivor, and disability
    benefits in excess of social security equivalent benefits from payroll taxes on employers and
    employees and other income sources. Account 60X8011 is considered an earmarked fund.
    Our authority to use these collections is 45 United States Code (USC) §231(F)(c)(1).

●   Social Security Equivalent Benefit (SSEB) Account, 60X8010, funds the portion of railroad
    retirement benefits equivalent to a social security benefit from various income sources
    related to these benefits. Account 60X8010 is considered an earmarked fund. Our authority
    to use these collections is 45 USC §231N-1(c)(1).

●   Dual Benefits Payments (DBP) Account, 60 0111, funds the phase-out costs of certain
    vested dual benefits from general appropriations. Account 60 0111 is considered a general
    fund. Our authority to use these collections is 45 USC §231(N)(d).

●   Federal Payments to the Railroad Retirement Accounts, 60X0113, was established by OMB,
    not by legislation, and is used as a conduit for transferring certain income taxes on benefits;
    receiving credit for the interest portion of uncashed check transfers; and funds provided by
    the Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010.
    Account 60X0113 is considered an earmarked fund. This account has no basis in law.

●   Limitation on Administration Account, 60 8237, pays salaries and expenses to administer
    the railroad retirement program and the railroad unemployment and sickness insurance


                                              - 75 -
    program. This account is financed by the RR Account, the SSEB Account, and the Railroad
    Unemployment Insurance Trust Fund, Administrative Expenses. Account 60 8237 is
    considered an earmarked fund. Our authority to use these collections is
    45 USC §231N-1(c) and 45 USC §231N-(H).

●   Limitation on Administration Account, 60X8237, Public Law 107-217, Sec. 121(d)(3),
    authorizes Federal agencies to retain indefinitely as “no-year money” any unexpended
    portion of the fiscal year appropriated funds, up to the estimated cost of the operation and
    maintenance (O&M) of the delegated properties. Funds carried over may only be expended
    for O&M and repair of the facility. In addition, this fund contains the Limitation on
    Administration funds for extended unemployment benefits provided under Public
    Law 111-92. Account 60X8237 is considered an earmarked fund.

●   Railroad Unemployment Insurance Trust Fund, Benefit Payments, 60X8051.001, funds
    railroad unemployment and sickness insurance benefits from contributions by railroad
    employers. Account 60X8051.001 is considered an earmarked fund. Our authority to use
    these collections is 45 USC §360.

●   Railroad Unemployment Insurance Trust Fund, Administrative Expenses, 60X8051.002, was
    established to pay salaries and expenses to administer the program. Account 60X8051.002
    is considered an earmarked fund. This fund is financed by contributions from railroad
    employers. Monies are transferred from this fund, based on cost accounting estimates and
    records, to the Limitation on Administration Account (60 8237) from which salaries and
    expenses are paid for both the railroad retirement program and the railroad unemployment
    and sickness insurance program. Our authority to use these collections is 45 USC §361.

●   Limitation on the Office of Inspector General, 60 8018, was established to fund the
    administration of the Inspector General's Office. Account 60 8018 is considered an
    earmarked fund. Our authority to use these collections is Public Law 112-10.

●   City and State Taxes (6275) was established as a holding account for amounts withheld
    from employees' salaries but not yet paid to the appropriate institutions.

●   Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act, 60X0114:
    Funds provided under Public Law 111-5, American Recovery and Reinvestment Act of
    2009.

●   Economic Recovery Payments – Recovery Act, 60 0115: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Administrative Expenses – Recovery Act, 60X0116: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Administrative Expenses – Recovery Act, 60 0116: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Limitation on Administration – Recovery Act, 60X8262: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Limitation on Administration – Recovery Act, 60 8262: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.


                                             - 76 -
●   Railroad Unemployment Insurance Extended Benefit Payments, for Limitation Account –
    60X0118: Funds provided under Public Law 111-92, Worker, Homeownership, and
    Business Assistance Act of 2009.

●   Railroad Unemployment Insurance Extended Benefit Payments – 60X0117: Funds provided
    under Public Law 111-92, Worker, Homeownership, and Business Assistance Act of 2009.

C. Budgets and Budgetary Accounting

Budget requests are prepared and submitted by the RRB in accordance with OMB Circular A-11
and other specific guidance issued by OMB. The RRB prepares and submits to OMB
Apportionment and Reapportionment Requests (SF-132) in accordance with OMB Circular A-11
for all funds appropriated by the Congress or permanently appropriated. Although OMB may
apportion funds by category, time period, or object class of expense, the RRB controls and
allocates all apportioned funds by three-digit object class codes of expense. For budgetary
accounting, all receipts are recorded on a cash basis of accounting and obligations are recorded
against the object class codes when they are incurred, regardless of when the resources
acquired are to be consumed. Obligations are amounts of orders placed, contracts awarded,
services received, and similar transactions during a given period that will require payments
during the same or a future period. Quarterly, the RRB prepares and submits Reports on
Budget Execution (SF-133) to OMB, reporting all obligations incurred against the amounts
apportioned.

D. Basis of Accounting

As required by law, the DBP Account is on a cash basis of accounting. Payroll taxes and
unemployment contributions are recorded on a modified cash basis in accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 7. All other transactions are
recorded on an accrual basis of accounting and a budgetary basis. Under the accrual method,
revenues (except payroll taxes and unemployment contributions which are on a modified cash
basis) are recognized when earned and expenses are recognized when a liability is incurred.
For budgetary accounting, financial transactions are recorded when obligations are incurred,
regardless of when the resources acquired are to be consumed.

The accompanying consolidated financial statements of the RRB include all funds maintained
by the RRB, after elimination of all significant interfund balances and transactions.

E. Concepts

The Fund Balance with Treasury (FBWT) is the aggregate amount of funds on deposit with the
Department of the Treasury (Treasury), excluding seized cash deposited. The FBWT is
increased by (1) receiving appropriations, reappropriations, continuing resolutions, appropriation
restorations, and allocations; and (2) receiving transfers and reimbursements from other
agencies. It also is increased by amounts borrowed from the Bureau of the Public Debt (BPD),
the Federal Financing Bank, or other entities, and amounts collected and credited to
appropriation or fund accounts. The FBWT is reduced by (1) disbursements made to pay
liabilities or to purchase assets, goods, and services; (2) investments in U.S. securities
(securities issued by BPD or other Federal Government agencies); (3) cancellation of expired
appropriations; (4) transfers and reimbursements to other entities or to the General Fund of the
Treasury; and, (5) sequestration or rescission of appropriations.



                                              - 77 -
F. Earmarked Funds

SFFAS No. 27, Identifying and Reporting Earmarked Funds, requires separate presentation and
disclosure of earmarked funds balances in the financial statements. Earmarked funds are
financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. Earmarked funds meet the following criteria:

    •   A statute committing the Federal Government to use specifically-identified revenues and
        other financing sources only for designated activities, benefits, or purposes;
    •   Explicit authority for the earmarked fund to retain revenues and other financing sources
        not used in the current period for future use to finance the designated activities, benefits,
        or purposes; and
    •   A requirement to account for and report on the receipt, use, and retention of the
        revenues and other financing sources that distinguishes the earmarked funds from the
        Government’s general revenues.

Refer to Note 17, Earmarked Funds, for additional information.

G. Application of Critical Accounting Estimates

The financial statements are based on the selection of accounting policies and the application of
significant accounting estimates, some of which require management to make significant
assumptions. Further, the estimates are based on current conditions that may change in the
future. Actual results could differ materially from the estimated amounts. The financial
statements include information to assist in understanding the effect of changes in assumptions
to the related information.


2. Related Parties

The RRB has significant transactions with the following governmental and nongovernmental
entities:

●   Treasury collects payroll taxes from the railroads on behalf of the RRB. The taxes collected
    are credited by Treasury to the RRB’s trust fund account via an appropriation warrant. In
    fiscal years 2011 and 2010, net payroll taxes transferred to the RRB by Treasury were
    $4.7 billion and $4.6 billion, respectively.

    Treasury provides payment services to Federal agencies and operates collections and
    deposit systems. The RRB invests in government account securities through BPD. In fiscal
    years 2011 and 2010, investments, including accrued interest, totaled $1.5 billion and
    $1.3 billion, respectively. In addition, Treasury advances funds to the RRB for the financial
    interchange which are repaid annually. The amount paid by the RRB to Treasury in fiscal
    year 2011 due to the financial interchange advances during fiscal year 2010 included
    principal of $3.8 billion and interest of $134 million. The amount paid by the RRB to
    Treasury in fiscal year 2010 due to the financial interchange advances during fiscal year
    2009 included principal of $3.7 billion and interest of $144 million.

●   The Social Security Administration (SSA) and RRB participate in an annual financial
    interchange. The financial interchange is intended to place the social security trust funds in
    the same position in which they would have been had railroad employment been covered by


                                                - 78 -
    the Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2011,
    the RRB trust funds realized $4.6 billion through the financial interchange.

    Under Section 7(b)(2) of the Railroad Retirement Act of 1974, the RRB is required to pay
    certain individuals, described in this section, monthly social security benefits on behalf of
    SSA. SSA reimburses the RRB for benefits paid on behalf of SSA. The amounts
    reimbursed were $1.4 billion for fiscal year 2011 and $1.3 billion for fiscal year 2010.

●   The Centers for Medicare & Medicaid Services (CMS) participates in the annual financial
    interchange in the same manner as described for SSA. The RRB transferred $477 million
    and $535 million to CMS in fiscal years 2011 and 2010, respectively. In addition to the
    financial interchange transactions, CMS reimburses the RRB for certain expenses it incurs
    associated with administering the Medicare program. The amounts reimbursed in fiscal
    years 2011 and 2010 were $10.9 million and $11.0 million, respectively.

●   The General Services Administration (GSA) provides payroll processing and human
    resources services to the RRB. In addition, the RRB paid rent to GSA in the amount of
    $3.3 million for fiscal year 2010 and $3.4 million for fiscal year 2011.

●   The Department of Labor (DOL) invests Railroad Unemployment Insurance Act (RUIA)
    contributions. Accounts receivable with the DOL amounted to $55 million and $30 million for
    fiscal years 2011 and 2010, respectively.

●   The National Railroad Retirement Investment Trust (NRRIT) transfers funds to the RRB for
    payment of railroad retirement benefits. During fiscal years 2011 and 2010, the NRRIT
    transferred $1,744 million and $1,989 million, respectively, to the RR Account. The NRRIT
    holds and invests funds not immediately needed to pay benefits under the RRA. The net
    assets of the NRRIT are reported on the RRB’s balance sheet as a non-governmental
    investment. The RRB reports this information based on information provided by the NRRIT
    for that purpose.

3. Fund Balances with Treasury

Fund balances with Treasury at September 30 consisted of:

                                                                              2011          2010
    A. Fund Balances:
            (1) Trust Funds                                               $ 38,858,214   $ 49,681,373
            (2) General Funds                                              190,912,181    178,450,174
            (3) Other Fund Types                                                     0              0

                     Total                                                $229,770,395   $228,131,547

    B. Status of Fund Balance with Treasury (FBWT)
             (1) Unobligated Balance
                 (a) Available                                            $149,132,322   $122,786,746
                 (b) Unavailable                                            41,256,255     60,246,419
             (2) Obligated Balance not yet Disbursed                        39,381,818     45,098,382
             (3) Non-Budgetary FBWT                                                  0              0

                     Total                                                $229,770,395   $228,131,547

    C. Other Information: The above represents cash held in Treasury. Unobligated
       and obligated funds not held in cash are invested in Treasury securities.



                                                       - 79 -
4. Investments

The investments in Treasury securities represent the investments of two of the RRB’s
earmarked funds, the RR and the SSEB Accounts.

                                                  Amounts for Balance Sheet Reporting
                                           Cost           Interest Receivable      Investments Net
Intragovernmental Securities:
    Non Marketable Par Value 2011      $1,491,827,000             $2,397,312        $1,494,224,312

  Non Marketable Par Value 2010        $1,297,808,000             $2,098,411        $1,299,906,411

The balance on September 30, 2011, consisted of investments in 3.000 percent par value
specials (with market value equal to face value) maturing on October 3, 2011. The balance on
September 30, 2010, consisted of investments in 3.000 percent par value specials (with market
value equal to face value) maturing on October 1, 2010. Par value specials mature on the first
working day of the month following the month of issue and have a yield based on the average
yield of marketable Treasury notes with maturity dates at least 3 years away.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with the RR and SSEB Accounts. The cash receipts from the railroads for the RR
and SSEB Accounts are deposited in the Treasury, which uses the cash for general government
purposes. Treasury securities are issued to the RRB as evidence of its receipts. Treasury
securities are an asset to the RRB and a liability to the Treasury. Because the RRB and the
Treasury are both parts of the Federal Government, these assets and liabilities offset each other
from the standpoint of the government as a whole. For this reason, they do not represent an
asset or a liability in the U.S. government-wide financial statements.

Treasury securities provide the RRB with authority to draw upon the Treasury to make future
benefit payments or other expenditures. When the RRB requires redemption of these securities
to make expenditures, the government finances those expenditures out of accumulated cash
balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the Federal Government finances
all other expenditures.


5. NRRIT Net Assets

The balance sheet amounts represent the net asset value of NRRIT assets, at fair value, as of
September 30, 2011 and 2010. These figures were provided to the RRB by the NRRIT for the
fiscal years ended September 30, 2011 and 2010.

Readers of these financial statements should be aware that the Railroad Retirement and
Survivors’ Improvement Act of 2001 authorizes the NRRIT to invest railroad retirement assets in
a diversified investment portfolio in the same manner as those of private sector retirement
plans.




                                              - 80 -
6. Accounts Receivable

• Intragovernmental

Accounts receivable - Intragovernmental at September 30 consisted of:

                                                                               2011              2010

   Financial Interchange – Principal                                        $4,084,400,000    $4,275,900,000
   Financial Interchange – Interest                                            142,600,000       141,600,000
   Department of Labor                                                          55,081,547        29,629,643
   CMS – Refund of Medicare Part B Premiums                                        169,000           169,000
   Social Security Administration - OASI/DI Benefits
                   (Old Age and Survivors Insurance/Disability Insurance)                0          115,964
   Treasury General Fund – HIRE Act (Tier I)                                     4,400,000                0

    Total                                                                   $4,286,650,547    $4,447,414,607

• Accounts Receivable, Net

Accounts receivable, net at September 30 consisted of:

                                                                                 2011           2010

   Accounts receivable - Benefit overpayments                                $54,925,842     $47,195,476
   Accounts receivable – Past due RUI contributions and taxes                    592,478         572,713
   Accounts receivable – Interest, penalty & administrative costs                409,477         349,632
     Total                                                                   $55,927,797     $48,117,821
   Less: Allowances for doubtful accounts                                     13,062,672      10,604,666

     Net Total                                                               $42,865,125     $37,513,155

The RRB’s September 30, 2011, accounts receivable balance (after deducting currently not
collectible (CNC) receivables but prior to the application of the allowance for doubtful accounts)
of $55,927,797 includes $44,653,660 (80%) in railroad retirement program receivables and
$11,274,137 (20%) in railroad unemployment insurance program receivables. The total
allowance for doubtful accounts is $13,062,672. This includes $9,502,299 (73%) for the railroad
retirement program and $3,560,373 (27%) for the unemployment insurance program
receivables.

The allowance for doubtful accounts for the railroad retirement program was calculated,
excluding debts classified as CNC, as follows: (1) categorizing the accounts receivable by
cause and age, (2) analyzing each category using historical data, (3) determining the
percentage of amounts due the RRB that would probably not be collected, and (4) applying the
determined percentages against accounts receivable.


7. Inventory and Related Property

Operating materials and supplies are valued on the cost basis. The recorded values are
adjusted for the results of physical inventories taken periodically. Expenditures are recorded
when inventories are consumed.




                                                          - 81 -
8. General Property, Plant and Equipment

These assets are stated at cost less accumulated depreciation/amortization. Acquisitions are
capitalized if the cost is $5,000 or more and the service life is 2 years or greater.
Depreciation/amortization is computed on the straight-line method. These assets consisted of:

                                                                              At September 30, 2011
                                             Service                              Accumulated          Net
        Classes of Fixed Assets               Lives                Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years          $ 2,723,731        $ 2,673,319       $      50,412
ADP software                                   5 years           19,615,921         19,602,513              13,408
Equipment                                   5-10 years            4,809,548          4,623,124             186,424
Internal-Use Software in Development                              1,248,235                  0           1,248,235

                                                                $28,397,435        $26,898,956        $1,498,479



                                                                              At September 30, 2010
                                             Service                              Accumulated          Net
        Classes of Fixed Assets               Lives                Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years          $ 2,723,731        $ 2,658,367       $      65,364
ADP software                                   5 years           19,615,921         19,589,866              26,055
Equipment                                   5-10 years            4,844,244          4,610,150             234,094
Internal-Use Software in Development                              1,248,235                  0           1,248,235

                                                                $28,432,131        $26,858,383        $1,573,748

9. Liabilities

Liabilities at September 30 consisted of:

                                                                              2011                   2010
  Intragovernmental:
    Other – Unfunded Federal Employees’ Compensation Act
            (FECA) Liability                                              $      670,677         $       605,928

  Public:
    Other – Accrued Unfunded Leave                                        $    7,186,594         $    7,272,293

  Total Liabilities Not Covered by Budgetary Resources                    $    7,857,271         $    7,878,221
  Total Liabilities Covered by Budgetary Resources                         5,157,627,460          5,081,481,953

  Total Liabilities                                                       $5,165,484,731         $5,089,360,174




                                                       - 82 -
• Debt

Intragovernmental debt results from borrowing from Treasury to fund benefit payments from the
SSEB Account.

                                                                              2011                     2010

   Beginning Balance, Principal                                           $3,480,500,000        $3,359,200,000
    New Borrowing                                                          3,815,800,000         3,814,500,000
    Repayments                                                            (3,812,300,000)       (3,693,200,000)
    Ending Balance, Principal                                              3,484,000,000         3,480,500,000
    Accrued Interest                                                          52,280,762            54,328,185

     Total                                                                $3,536,280,762        $3,534,828,185

• Benefits Due and Payable

Benefits due and payable are accrued for all benefits to which recipients are entitled for the
month of September, which, by statute, are not paid until October. Also, liabilities are accrued
on benefits for past periods that have not completed processing, such as benefit payments due
but not paid. The amounts include uncashed checks of $12,410,998 and $12,003,999, at
September 30, 2011 and 2010, respectively. Under Public Law 100-86, the amount of RRB
benefits represented by checks which remain uncashed for 12 months after the check issue
date are credited (including interest thereon) to the accounts from which the checks were
drawn. The principal amount of uncashed checks must remain in a liability account until the
RRB determines that entitlement no longer exists or another check is issued to the beneficiary.
A special workload of approximately 14,000 benefit cases, estimated at $7 million, has been
identified and will be processed over the next few years.

• Other Liabilities

Other liabilities at September 30 consisted of:

                                                                                                        2011
                                                        Non-Current                Current              Total

   Intragovernmental:
     Employer Contributions & Payroll Taxes Payable     $             0        $      363,117     $       363,117
     Unfunded FECA Liability                                          0               670,677             670,677
      Total Intragovernmental                                         0             1,033,794           1,033,794

   Accrued Unfunded Liabilities                                       0             7,186,594           7,186,594
   Accrued Payroll                                                    0             1,540,178           1,540,178
   Accrued RRB Contributions – Thrift Savings Plan                    0                41,757              41,757
   Withholdings Payable                                               0                82,523              82,523
   Contingent Liability (see Note 10 for details)           105,000,000            38,790,000         143,790,000
   Capital Lease Liability                                            0                     0                   0
   Other                                                              0             3,188,354           3,188,354

      Total Other Liabilities                           $105,000,000           $51,863,200        $156,863,200




                                                      - 83 -
                                                                                                 2010
                                                         Non-Current       Current               Total

    Intragovernmental:
      Employer Contributions & Payroll Taxes Payable     $             0   $     983,824   $       983,824
      Unfunded FECA Liability                                          0         605,928           605,928
       Total Intragovernmental                                         0       1,589,752         1,589,752

    Accrued Unfunded Liabilities                                       0       7,272,293         7,272,293
    Accrued Payroll                                                    0       4,422,873         4,422,873
    Accrued RRB Contributions – Thrift Savings Plan                    0         112,536           112,536
    Withholdings Payable                                               0          42,273            42,273
    Contingent Liability (see Note 10 for details)           105,000,000         900,000       105,900,000
    Capital Lease Liability                                            0               0                 0
    Other                                                              0       3,142,904         3,142,904

       Total Other Liabilities                           $105,000,000      $17,482,631     $122,482,631



10. Commitments and Contingencies

The RRB is involved in the following actions:

●    Several railroads have filed suits claiming a refund of Railroad Retirement Tax Act or FICA
     taxes paid on moving expenses and interest on supplemental annuity taxes. The RRB’s
     legal counsel has determined that it is probable that the RR Account is contingently liable for
     an estimated amount of $8.39 million. Another railroad filed suit requests refund of
     approximately $20 million (not including interest) representing the employer’s share of taxes
     previously paid with respect to moving and relocation expenses and with respect to stock
     purchased by current and former employees under non-qualified stock options. The
     likelihood of loss of taxes paid on moving expense allowances and employee stock options
     is reasonably possible. Reflected on the Balance Sheet under other liabilities, an amount of
     $5 million was recorded in fiscal year 2009, and $3.39 million was recorded this year.

●    In fiscal year 2005, we recorded a contingent liability in the amount of $100,000,000, for an
     estimated forthcoming adjustment to the financial interchange for military service credits due
     the SSA. An additional amount of $35.4 million for military service credits was recorded this
     year.

The total fiscal year 2011 contingent liability recorded is $143,790,000.

●   Several Class 1 railroads have filed claims for refund of taxes with the Internal Revenue
    Service (IRS). Of the $2.7 billion in claims, the RRB’s legal counsel has determined that it is
    reasonably possible that the RR and SSEB Accounts are contingently liable for an estimated
    amount of $1.3 billion, and the $1.4 billion is remote. Under the anti-disclosure provision of
    the IRS code, we are not permitted to disclose any details related to these claims. No
    provision has been made in the accompanying financial statements regarding these claims
    other than this disclosure.

As of September 30, 2011, the RRB had contractual arrangements which may result in future
financial obligations of $29.7 million.




                                                       - 84 -
11. Intragovernmental Costs and Exchange Revenue

                                                                   2011              2010
  Railroad Retirement (RR) Act Program
   Intragovernmental Costs                                   $   165,144,079     $   170,861,847
   Public Costs                                               11,051,392,699      10,887,249,382
       Total RR Act Program Costs                            $11,216,536,778     $11,058,111,229

   Intragovernmental Earned Revenue                          $      11,092,913   $    11,276,432
   Public Earned Revenue                                                     0                 0
       Total RR Act Program Earned Revenue                   $      11,092,913   $    11,276,432

  Railroad Unemployment Insurance (RUI) Act Program
   Intragovernmental Costs                                   $       4,743,469   $     4,504,732
   Public Costs                                                    133,510,527       192,621,132
       Total RUI Act Program Costs                           $     138,253,996   $   197,125,864

   Intragovernmental Earned Revenue                         $                0   $             0
   Public Earned Revenue                                            21,885,559        22,294,403
       Total RUI Act Program Earned Revenue                  $      21,885,559   $    22,294,403

These totals do not include $30,628 and $156,637 of earned revenues not attributable to either
program for fiscal years 2011 and 2010, respectively.

Intragovernmental costs (exchange transactions made between two reporting entities within the
Federal Government) are being reported separately from costs with the public (exchange
transactions made between the reporting entity and a non-Federal entity). Intragovernmental
exchange revenues (exchange transactions made between two reporting entities within the
Federal Government) are reported separately from exchange revenues with the public
(exchange transactions made between the reporting entity and a non-Federal entity).
Intragovernmental expenses relate to the source of goods and services purchased by the
reporting entity, not to the classification of related revenue.


12. Transfers To/From NRRIT

The RRB received a total of $1,744 million and $1,989 million from the NRRIT during fiscal
years 2011 and 2010, respectively. These funds were received into the RR Account. Transfers
were to fund the payment of benefits.


13. Undelivered Orders at the End of the Period

                                               2011         2010

     Undelivered Orders                       $8,201,017   $8,028,743




                                                  - 85 -
      14. Explanation of Differences Between the Combined Statement of Budgetary Resources
          and the Budget of the United States Government

      A reconciliation was completed of budgetary resources, obligations incurred, distributed
      offsetting receipts, and outlays, as presented in the Statement of Budgetary Resources for the
      year ended September 30, 2010, to amounts included in the Budget of the United States
      Government. A reconciliation was not performed for the period ended September 30, 2011,
      since the RRB’s Performance and Accountability Report is published in November 2011, and
      OMB’s MAX system will not have actual budget data available until mid-December 2011.

      The Budget of the United States Government and the RRB’s Statement of Budgetary
      Resources differ because of the following transaction types:


                                                                       Fiscal Year 2010 (in millions)
                                                                                          Distributed
                                                      Budgetary     Obligations            Offsetting
                                                      Resources      Incurred              Receipts       Net Outlays

1.      Combined Statement of Budgetary
          Resources – September 30, 2010                  12,015          11,832                 4,431           7,240
2.      Expenditure Transfers from Trust Funds              (118)
3.      Unobligated Balance, Brought Forward
          October 1, 2009                                    (31)
4.      Recoveries of Prior Year Unpaid Obligations           (1)
5.      Sickness Insurance Benefit Recoveries                (23)
6.      Administrative Expense Reimbursement                 (12)
7.      Cancelled Authority                                    1
8.      Interfund Transfers: Federal Payment
          Obligations – Income Taxes Collected
          on Benefits (0113)                                (467)
9.      Intrafund Transfers: Receipts from the
        Old-Age and Survivors Insurance (OASI)
        Trust Fund                                        (3,930)
10.     Intrafund Transfers: Receipts from the
        Disability Insurance (DI) Trust Fund                (462)

                   Financial Interchange

11.     Accrued Receipts from the OASI and DI
        Trust Funds                                                                               (108)            108
12.     RRB Transfers to the Federal Hospital
        Insurance Trust Fund                                                                       536            (536)

                          NRRIT

13.     NRRIT Obligations / Outlays                        2,060           2,060                                 2,060
14.     Intrafund Transfers: NRRIT Transfer to
          RRA                                             (1,989)                                1,989          (1,989)
15.     Proprietary Receipts: NRRIT – Gains and
          Losses                                          (1,995)                                1,995          (1,995)
16.     Proprietary Receipts: NRRIT – Interest
          and Dividends                                     (435)                                  435            (435)
17.     Rounding                                               2               (2)
18.     Budget of the United States Government
        FY 2010 Actuals                                    4,615          13,890                 9,278           4,453




                                                           - 86 -
15. Social Insurance

•    Surplus/(unfunded obligation) represents combined values for the RR Account,
     SSEB Account, and NRRIT.

•    Estimated future revenue includes tier 1 taxes, tier 2 taxes, income taxes on benefits, and
     financial interchange income, where financial interchange income consists of financial
     interchange transfers plus financial interchange advances from general revenues less
     repayment of financial interchange advances from general revenues.

•    Estimated future expenditures include benefit and administrative costs.

•    Detail may not add to totals due to rounding. Employee and beneficiary status are
     determined as of 1/1/2010, whereas present values are as of 1/1/2011.

•    The figures in the Statement of Social Insurance, rounded to millions of dollars prior to 2008,
     have been rounded to tenths of billions. The practice of displaying the figures in the
     Statement of Social Insurance in millions of dollars implies a degree of accuracy that
     75-year projections do not possess.

    Treasury Securities and Assets Held by the Program

The January 1, 2007, Treasury securities and assets do not include less than $0.1 billion of
accrued interest and dividends and miscellaneous adjustments related primarily to operating
expenses of the NRRIT.

Higher Treasury securities and assets result in lower tax rates and consequently lower future
tax income and lower Treasury securities and assets result in higher rates and income.

    Subsequent Event Note Disclosure for the Statement of Social Insurance

From January 1, 2011, the valuation date of the Statement of Social Insurance, to
September 30, 2011, the balance sheet date, there was a decline in the value of the NRRIT
assets. If a change in the trust fund balance is not excessively large, then we would expect the
effect of the change to be offset by a corresponding change in the present value of future taxes
due to the operation of the Account Benefits Ratio on future tax rates. Given the extent of the
decline in the NRRIT assets from January 1 to September 30, we believe that there would be
little effect on the net surplus position. The decline in the line item “Treasury securities and
assets held by the program” would be expected to be largely offset by increases in the line
items “Contributions and earmarked taxes,” resulting in relatively little change to the final line
item “Open group surplus/(unfunded obligation).”




                                               - 87 -
16. Significant Assumptions

The estimates used in the Statement of Social Insurance and Required Supplementary
Information are based on the assumption that the program will continue as presently
constructed. The calculations assume that all future transfers required by current law under the
financial interchange will be made.

The estimates are also based on various economic, employment, and other actuarial
assumptions. The ultimate economic assumptions are a 7.5 percent investment return, a
3 percent annual increase in the cost of living, and a 4 percent annual wage increase.

The employment assumption for the Statement of Social Insurance is employment
assumption II, the intermediate employment assumption, as used in the 2011 Section 502
Report. Under employment assumption II, starting with an average 2010 employment of
221,000, (1) railroad passenger employment is assumed to remain level at 44,000, and (2) the
employment base, excluding passenger employment, is assumed to decline at a constant
annual rate of 2.0 percent for 25 years, at a reducing rate over the next 25 years, and remain
level thereafter.

Actuarial assumptions are those published in the Technical Supplement to the “Twenty-Fourth
Actuarial Valuation of the Assets and Liabilities Under the Railroad Retirement Acts as of
December 31, 2007.” This may be found on the RRB’s website, www.rrb.gov.

Actuarial assumptions published in the Twenty-Fourth Actuarial Valuation include:

Table S-1.    2007 RRB Annuitants Mortality Table
Table S-2.    2007 RRB Disabled Mortality Table for Annuitants with Disability Freeze
Table S-3.    2007 RRB Disabled Mortality Table for Annuitants without Disability
              Freeze
Table S-4.    2003 RRB Active Service Mortality Table
Table S-5.    2007 RRB Spouse Total Termination Table
Table S-6.    Probability of a retired employee having a spouse eligible for railroad
              retirement benefits
Table S-7.    1995 RRB Mortality Table for Widows
Table S-8.    1997 RRB Remarriage Table
Table S-9.    2004 RRB Total Termination Table for Disabled Children
Table S-10.   Calendar year rates of immediate age retirement
Table S-11.   Rates of immediate disability retirement and of eligibility for disability
              freeze
Table S-12.   Calendar year rates of final withdrawal
Table S-13.   Service months and salary scales
Table S-14.   Family characteristics of railroad employees assumed for the valuation of
              survivor benefits




                                             - 88 -
      Note 17 Eannarked Funds
                                                         8010                8011              8051.001                0113               8237            8051.002           8018                                 Total
                                                         SSEB                RRA                  RUIA           Federal Payments    limitation on          RUIA         Limitation on       Eliminations       Eannarked
                                                                                            Benefit Payments      to RR Accounts     Administration    Admin Expenses         OIG                                 Funds
      Balance Sheet as of September 30,2011

      Assets

      Fund Balance with Treasury                          $12,343,119        $10,221,234            $3,355,602        $21,045,822       $10,843,825          $257,614        $1,178,582                             59,245,798
      Investments                                         796,827,566        697,396,746                                                                                                                         1,494,224,312
      NRRIT Net Invested Assets                                           22,146,037,531                                                                                                                        22,146,037,531
      Taxes and Interest Receivable                     4,231,400,000         35,320,360            49,812,785                              683,878        11,525,380            75,000             (758,878)    4,328,058,525
      Other Assets                                                                                                                        1,429,061                             223,235                              1,652,296

                  Total Assets                          5,040,570,685     22,888,975,871           53,168,387          21,045,822        12,956,76411,7'82,994                1,476,817             (758,878)   28,029,218,462

      Liabilities Due and Payable                       4,585,222,195        410,750,046           12,893,902                               422,449            82,918             9,897             (758,878)     5,008,622,529 

      Other Liabilities                                   135,400,000         11,578,351                                                  9,187,048                             697,798                             156.863,197 


      Total Liabilities                                 4,720,622,195        422,328,397           12,893,902                             9,609,497112,918                      707,695             (758,878)     5,165,485,726

      Unexpended Appropriations                                                                                        21,045,822                                                                                   21,045,822 

      Cumulative Results of Operations                    319,948,490     22,466,647,474           40,274,485                             3,347,267        11,700,076          769,122                          22,842,686,914 


                  Total Liabilities and Net Position   $5,040,570,685    $22,888,975,871          $53,168,387        $21,045,822        $12,956,764       $11,"711~,~~_      $1,476,817            ($758,878)   28,029,218,462


      Statement of Net Cost for the Period
      Ended September 30,2011
00
\.0                       Costs                        $6,517,069,440     $4,523,014,465         $114,311,968       $698,086,236       $129,123,565                        $10,127,455         ($699,540,256)   11,292,192,873
                                                                                                   21,885,559                            10,199,716                          1,318,197              (425,000)       32,978,472

      Net Program Costs                                 6,517,069,440      4,523,014,465           92.426,409        698,086,236        118,923,849                           8,809,258         (699,115,256)   11,259,214,401

      Costs Not Attributable to Program Costs
      less Eamed Revenues Not
                 Attributable to Program Costs                                                                                               30,620                                      8                               30,628

      Net Cost of Operations                           $6,517,069,440     $4,523,014,465          $92,426,409       $698,086,236       $118,893,229                          $8,809,250        ($699,115,256)   11,259,183,n3


      Statement of Changes in Net Position
      for the Period Ended September 30,2011

      Net Position Beginning of Period                  $564,943,363     $23,981,000,165         ($25,394,052)           $546,185        $3,617,351        $8,249,301         $834,834                          24,533,797,147

      Appropriations Received                                                                                         718,650,000                                                                                  718,650,000
      Expended Appropriations                                                                                         698,086,236                                                                                  698,086,236
                                                                                                                          (64,127)                                                                                     (64,127)
      Appropriations Used                                                                                            (698,086,236)                                                                                (698,086,236)

      Taxes and Non-Exchange Revenue                    2,706,368,270      2,726,425,076          151,248,872                                              23,722,467                           (699,115,256)     4,908,649,429
      Other Financing Sources                           3,565,706,297        179,283,440            6,846,074                           118,623,145       (20,271,692)        8,743,538                           3,858,930,802
      Transfers In From NRRIT                                              1,744,000,000                                                                                                                          1,744,000,000
      Change in NRRIT Assets                                              (1,641,046,742)                                                                                                                        (1,641,046,742)

      Net Cost of Operations                           (6,517,069,440)    (4,523,014,465)         (92,426,409)       (698,086,236)     (118,893,229)                         (8,809,250)        699,115,258     (11,259,183,773)

      Change in Net Position                             (244,994,873)    (1,514,352,691)          65,668,537         20,499,637           (270,084)        3,450,775           (65,712)                         (1,670,064,411)

      Net Position End of Period                         319,948,490      22,466,647,474           40,274,485         21,045,822          3,347,267        11,700,076          769,122                          22,863,732,736
     Note 17 Earmarked Funds
                                                         8010                8011              8051.001               0113              8237             8051.002            8018                               Total
                                                         SSEB                RRA                  RUIA          Federal Payments    Limitation on          RUIA          Limitation on     Eliminations       Earmarked
                                                                                            Benefit Payments     to RR Accounts     Administration    Admin Expenses          OIG                               Funds
     Balance Sheet as of September 30,2010

     Assets

     Fund Balance with Treasury                         $12,155,964          $13,061,198·         $7,438,179           $546,185        $14,298,263          $628,985         $1,357,529                          $49,486,303
     Investments                                        793,129.608          506,776,803                                                                                                                       1,299,906,411
     NRRIT Net Invested Assets                                            23,787,084,273                                                                                                                      23,787,084,273
     Taxes and Interest Receivable                     4,417,500,000          81,240,170          25,510,980                             1,270,148          7,791,623           118,091       (48,765,992)     4,484,665,020
     Other Assets                                                                                                                        1,494,268                              261,6~                             1,755,946

                 Total Assets                          5,222,785,572      24,388,162,444          32,949,159            546,185         17,062,679          8,420,608         1,737,298       (48,765,992)    29,622,897,953

     Liabilities Due and Payable                       4,557,842,209        398,119,375           58,343,211                               908,065           171,307                          (48,765,992)     4,966,618,175
     Other Liabilities                                   100,000,000          9,042,904                                                 12,537,263                              902,464                          122,482,631

     Total Liabilities                                 4,657,842,209        407,162,279           58,343,~1                             13,445,328           171,307            902,464       (48,765,992)     5,089,100,806

     Unexpended Appropriations                                                                                          546,185                                                                                      546,185
     Cumulative Results of Operations                   564,943,363       23,981,000,165         (25,394,052)                            3,617,351         8,249,301            834,8~                        24,533,250,962

                 Total Liabilities and Net Position   $5,222,785,572     $24,388,162,444         $32,949,159           $546,185        $17,062,679        $8,420,608         $1.737,298     ($48,765,992)    $29,622,897,953


     Statement of Net Cost for the Period
     Ended September 30, 2010

     Gross Program Costs                              $6,402,023,545      $4,473,555,198        $159,652,531        $467,052,092      $128,281,137                         $10,188,147     ($468,353,213)    $11,172,399,437
     Less Earned Revenues                                                              o          22,294,403                            10,517,680                           1,183,752          (425,000)         33,570,835
\0
o    Net Program Costs                                 6,402,023,545       4,473,555,198         137,358,128         467,052,092       117,763,457                            9,004,395     (467,928,213)     11,138,828,602

     Costs Not Attributable to Program Costs
     Less Eamed Revenues Not
               Attributable to Program Costs                                                                                               156,638                                                                  156,638

     Net Cost of Operations                           $6,402,023,545      $4,473,555,198       $137,358,128         $467,052,092      $117,606,819                           $9,004,395    ($467,928,213)    $11,138,671,964


     Statement of Changes In Net Position
     for the Period Ended September 30, 2010

     Net Position Beginning of Period                  $577,549,999      $23,399,638,829         $27,800,176           $522,250         $4,162,486        $8,728,103         $1,271,151                      $24,019,672,994

     Appropriations Received                                                                                         467,150,000                                                                                 467,150,000
     Expended Appropriations                                                                                         467,052,092                                                                                 467,052,092
     Other Adjustments                                                                                                   (73,973)                                                                                    (73,973)
     Appropriations Used                                                                                            (467,052,092)                                                                               (467,052,092)

     Taxes and Non-Exchange Revenue                    2,538,856,249       2,611,435,441          76,982,064                                               22,989,818                       (467,928,213)      4,782,335,359
     Other Financing Sources                           3,850,560,660          12,965,094           7,181,836                           117,061,684        (23,468,620)        8,568,078                        3,972,868,732
     Transfers In From NRRIT                                               1,989,000,000                                                                                                                       1,989,000,000
     Change in NRRIT Assets                                                  441,515,999                                                                                                                         441,515,999

     Net Cost of Operations                           (6,402,023,545)     (4,473,555,198)       (137,358,128)       (467,052,092)     (117,606,819)                          (9,004,395)     467,928,213     (11,138,671,964)

     Change in Net Position                              (12,606,~:s~1       581,361,336         (53,194,228)             23,935          (545,135)         (478,802)          (436,317)                        514,124,153

     Net Position End of Period                        $564,943,363      $23,981,000,165        ($25,394,052)          $546,185         $3,617,351        $8,249,301          $834,834                       $24,533,797,147
18. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

All RRB direct and reimbursable obligations are incurred against Category B apportionments.
There are no RRB direct or reimbursable obligations incurred against Categories A or Exempt
apportionments.

The amounts of Category B direct and reimbursable obligations are reported on the face of the
Statement of Budgetary Resources for fiscal years 2011 and 2010.

This disclosure agrees with the aggregate of RRB direct and reimbursable obligations as
reported on the RRB’s fiscal year 2011 year-end SF-133, Report on Budget Execution and
Budgetary Resources, and lines 8A and 8B in the Statement of Budgetary Resources.


19. Terms of Borrowing Authority Used

The Railroad Retirement Board (RRB), Social Security Administration and Centers for Medicare
and Medicaid Services are parties to a financing arrangement described as the “financial
interchange”.

The financial interchange between the railroad retirement and social security systems is
intended to put the Social Security Old-Age, Survivors, and Disability Insurance (OASDI) and
Hospital Insurance (HI) trust funds in the same position they would have been had railroad
employment been covered under the Social Security and Federal Insurance Contributions Acts.

Financial interchange transfers are made in a lump sum for a whole fiscal year in the June
following the close of a fiscal year. The Railroad Retirement Solvency Act of 1983, as
amended, provided for monthly advances of the financial interchange from the U.S. Treasury
general fund to be repaid when the financial interchange is settled each June. Each
advance/loan is equal to an estimate of the transfer the RRB would have received in the
preceding month if the financial interchange with social security were on an up-to-date basis,
with interest adjustments. The RRB must repay these advances/loans when it receives the
transfer from social security against which the money was advanced.

Section 7(c)(4) of the 1974 Railroad Retirement Act (RRA) as amended provides the rules for
repayment of the financial interchange advances and references Section 7(c)(3) for the interest
rate to be used.

The interest rate on the repayment of the advances is the same as that used in the actual
financial interchange determination from the close of the prior fiscal year until the date of the
transfer.


20. Available Borrowing Authority, End of the Period

The amount of RRB available borrowing authority at the end of the period associated with
financial interchange advances is $3,812,300,000.




                                               - 91 -
21. Legal Arrangements Affecting Use of Unobligated Balances

The portion of RRB trust fund receipts collected in the current fiscal year that exceed the
amount needed to pay benefits or other valid obligations remain in the RRB trust funds as
unobligated balances. These receipts can become available in the current year if needed for
valid obligations. RRB receipts are assets of the trust fund and available for obligation as
needed in the future.


22. Subsequent Events

Other than the decline of $2.8 billion in NRRIT net assets from the SOSI, January 1, 2011
valuation date and the September 30, 2011 balance sheet date, discussed in Note 15, no
material events or transactions have occurred subsequent to September 30, 2011, that we are
aware of. We have evaluated subsequent events through November 15, 2011, the date the
financial statements were released.




                                             - 92 -
Note 23 Reconciliation of Net Cost of Operations to Budget
For the Years Ended September 30,2011 and 2010
(in dollars)
                                                                                     2011                2010
Resources Used to Finance Activities:
Budgetary Resources Obligated
 Obligations Incurred                                                           $12,164,738,483    $11,831,830,678
 Less: Spending Authority from Offsetting Collections and Recoveries               (152,926,070)      (154,053,100)
 Obligations Net of Offsetting Collections and Recoveries                        12,011,812,413     11,677,777,578
 Less: Offsetting Receipts                                                       (4,584,640,447)    (4,431,122,000)
 Net Obligations                                                                  7,427,171,966      7,246,655,578

Other Resources
 Imputed Financing from Costs Absorbed by Others                                     11,246,803          8,839,732
 Other                                                                           (1,678,936,742)       440,615,999
 Net Other Resources Used to Finance Activities                                  (1,667,689,939)       449,455,731

 Total Resources Used to Finance Activities                                       5,759,482,027      7,696,111,309

Resources Used to Finance Items Not Part of the Net Cost of Operations:
 Change in Budgetary Resources Obligated for Goods,
  Services & Benefits Ordered but not yet Provided
                                    (592,642)          1,104,745
 Resources That Fund Expenses Recognized in Prior Periods
                             (877,543)                  0
 Budgetary Offsetting Collections & Receipts That Do Not Affect Net

  Cost of Operations
                                                                  (788,135)           503,689
 Resources That Finance the Acquisition of Assets
                                1,640,604,217       (442,077,934)
 Other Resources or Adjustments to Net Obligated Resources

  That Do Not Affect Net Cost of Operations                                       3,885,574,000      3,964,122,000

 Total Resources Used to Finance Items Not Part of the Net Cost of Operations     5,523,919,897      3,523,652,500

 Total Resources Used to Finance the Net Cost of Operations                      11,283,401,924     11,219,763,809

Components of the Net Cost of Operations That Will Not Require or

Generate Resources In the Current Period:

Components Requiring or Generating Resources in Future Periods:

 Increase in Annual Leave Liability
                                                    (85,699)             71,625
 Other
                                                                              38,354,804           1,547,945
 Total Components of Net Cost of Operations That Will Require or Generate

  Resources in Future Periods                                                        38,269,105           1,619,570

Components Not Requiring or Generating,Re.ources:
 Depreciation and Amortization                                                          110,645             126,242
 Total Components of Net Cost of Operations That Will Not Require
  or Generate Resources                                                                 110,6~,             126,242

 Total Components of Net Cost of Operations That Will Not Require or

  Generate Resources in the Current Period
                                         :38,379,750         : ,,1,745,812

Net Cost of Operations                                                          $11,321,781,674    $11 ,2~1 ,5Q,9,621




                                                              - 93­
                                          UNAUDITED

Required Supplementary Information

Social Insurance

   Program Financing

Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement-survivor benefit programs. Railroad retirement taxes, which have
historically been higher than social security taxes, are calculated, like benefit payments, on a
two-tier basis. Railroad retirement tier 1 payroll taxes are coordinated with social security taxes
so that employees and employers pay tier 1 taxes at the same rate as social security taxes. In
addition, both employees and employers pay tier 2 taxes that are used to finance railroad
retirement benefit payments over and above social security levels. The tier 2 tax rate is based
on the ratio of certain asset balances to the sum of benefit payments and administrative
expenses.

Revenues in excess of benefit payments are invested to provide additional trust fund income.
The NRRIT oversees most investments, including all investments in non-governmental assets.

Additional trust fund income is derived from the financial interchange (FI) with the social security
trust funds, revenues from Federal income taxes on railroad retirement benefits, and
appropriations from general treasury revenues provided after 1974 as part of a phase-out of
certain vested dual benefits.

The financial interchange between the railroad retirement and social security systems is
intended to put the Social Security Administration (SSA) Federal Old-Age, Survivors, and
Disability Insurance (FOASI/DI) trust funds and the Centers for Medicare and Medicaid Services
(CMS) Federal Hospital Insurance (FHI) trust fund in the same position they would have been
had railroad employment been covered under the Social Security and Federal Insurance
Contributions Acts. It follows that all computations under the FI are performed according to
social security law. The amount of benefits payable under the RRA has no effect on the results.

Placing the social security trust funds in the same position they would have been had railroad
employment been covered under social security since its inception involves computing the
amount of social security payroll and income taxes relating to railroad employment and
computing the amount of additional benefits which social security would have paid to railroad
retirement beneficiaries during the same fiscal year. In the computation of the latter amount,
credit is given for any social security benefits actually paid to railroad retirement beneficiaries.
When benefit reimbursements exceed payroll and income taxes, the difference, with an
allowance for interest and administrative expenses, is transferred from the social security trust
funds to the SSEB Account. If taxes exceed benefit reimbursements, a transfer would be made
in favor of the social security trust funds.

On a present value basis, funds provided through the FI are expected to equal $80.8 billion, or
40.8% of the estimated future income of $198.0 billion.

Benefits

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on year of


                                               - 94 -
                                                UNAUDITED

birth. Disability annuities can be paid on the basis of total or occupational disability. Annuities
are also payable to spouses and divorced spouses of retired workers and to widow(er)s,
surviving divorced spouses, partitioned surviving spouses, partitioned surviving divorced
spouses, divorced widow(er)s, remarried widow(er)s, children, and parents of deceased railroad
workers. Qualified railroad retirement beneficiaries are covered by Medicare in the same way
as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and
SSA. The RRB has jurisdiction over the payment of retirement benefits if the employee had at
least 10 years of railroad service, or five years if performed after 1995; for survivor benefits,
there is an additional requirement that the employee’s last regular employment before
retirement or death was in the railroad industry. If a railroad employee or his or her survivors do
not qualify for railroad retirement benefits, the RRB transfers the employee’s railroad retirement
credits to SSA, where they are treated as social security credits.

Program Finances and Sustainability

The RRB must submit to the President and the Congress a report on the actuarial status of the
railroad retirement system. Projections are made of the various components of income and
outgo under three employment assumptions.

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2011. The figures in the table are based on the
2011 Section 502 Report extended through calendar year 2085. The present values in the table
are based on estimates of income and expenditures through the year 2085. The estimates
include income and expenditures related to future participants as well as to former and present
railroad employees. The present values are computed on the basis of economic and
demographic assumptions and employment assumption II, the intermediate employment
assumption, as used in the 2011 Section 502 Report. Under employment assumption II,
starting with an average 2010 employment of 221,000, (1) railroad passenger employment is
assumed to remain level at 44,000, and (2) the employment base, excluding passenger
employment, is assumed to decline at a constant annual rate of 2.0 percent for 25 years, at a
reducing rate over the next 25 years, and remain level thereafter.

Actuarial Estimates: Actuarial estimates of the long-range financial condition of the railroad
retirement program are presented here. Throughout this section, the following terms will
generally be used as indicated:

      •   Income: sources of income are payroll taxes, income taxes, investment income, and
          financial interchange transfers.

      •   Income excluding interest a: income, as defined above, excluding the investment income
          from assets of the trust fund.

      •   Expenditures: benefit payments and administrative expenses.




a
     References to interest income in this section may be considered as referring to total investment income
    including dividends and capital gains.


                                                     - 95 -
                                         UNAUDITED

   •   Cashflow: either (1) income excluding interest or (2) expenditures, depending on the
       context, expressed in nominal dollars.

   •   Net Cashflow: income excluding interest less expenditures, expressed in nominal
       dollars.

The Statement of Social Insurance and the required supplementary information are based on
actuarial and economic assumptions used in the 2011 Section 502 Report extended through
calendar year 2085, the RRA, and the Railroad Retirement Tax Act. This information includes:

   (1) actuarial present values of future estimated expenditures for and estimated income from,
       or on behalf of, current and future program participants;

   (2) estimated annual income excluding interest and expenditures in nominal dollars and as
       a percentage of taxable payroll;

   (3) the ratio of estimated annuitants to estimated full-time employees, showing the
       relationship between the program’s benefit recipients and taxpayers; and

   (4) an analysis of the sensitivity of the projections to changes in selected assumptions,
       which is included in recognition of the inherent uncertainty of those assumptions.

Estimates are generally based on a 75-year projection period. Estimates extending far into the
future are inherently uncertain, with uncertainty greater for the more distant years.




                                             - 96 -
                                          UNAUDITED


Cashflow Projections – Chart 1 shows actuarial estimates of railroad retirement annual income,
income excluding interest, and expenditures for 2011-2085 in nominal dollars. The estimates
are for the open-group population, which includes all persons projected to participate in the
railroad retirement program as railroad workers or beneficiaries during the period. Thus, the
estimates include payments from, and on behalf of, those who will be employed by the railroads
during the period as well as those already employed at the beginning of the period. They also
include expenditures made to, and on behalf of, such workers during that period.

As Chart 1 shows, annual expenditures exceed annual income through 2027. By 2028, income
is greater than expenditures. This remains true throughout the remainder of the projection
period. Without investment income, however, annual expenditures are generally greater than
annual income although this is not true in 2033 through 2037 and in 2062. Reasons for this
pattern include participant demographics, the assumed drop in railroad employment, and the
automatic tier 2 tax rate adjustment mechanism. The combined balance of the NRRIT, RR
Account, and SSEB Account never becomes negative largely because (i) a sufficient balance
exists at the beginning of the projection period and (ii) tier 2 tax rates respond automatically to
changing account balances.

Percentage of Taxable Payroll – Chart 2 shows estimated annual income excluding interest and
expenditures for the railroad retirement program expressed as percentages of taxable payroll.
Expenditures as a percentage of payroll increase from 2011 through 2019 primarily due to the
anticipated retirement of a large percentage of the current workforce combined with the
projected decline in railroad employment. Except for the income from tier 1 payroll taxes, the
sources of income vary as a percentage of payroll.




                                               - 97 -
                                            UNAUDITED


Sensitivity Analysis – The projections of the future financial status of the railroad retirement
program depend on many economic and demographic assumptions including rail employment,
inflation, wage increase, investment return, age retirement, disability retirement, withdrawal,
active service mortality, beneficiary mortality, total termination, probability of spouse,
remarriage, family composition, disability freeze, service patterns, and salary scales. Because
perfect long-range projections are impossible, this section is included to illustrate the sensitivity
of the long-range projections to changes in certain key assumptions that have the greatest
impact on the results. All present values are calculated as of January 1, 2011, and are based
on estimates of income and expenditures during the projection period 2011-2085.

Employment: Average employment in the railroad industry has generally been in decline for
some years. This decline is expected to continue. Since employment is a key consideration,
projections of income and expenditures using three different employment assumptions have
been made. The Statement of Social Insurance uses employment assumption II, the
intermediate assumption, but this section compares results under the three assumptions. For
all three cases, the average employment for the year 2010 is equal to 221,000. Employment
assumptions I and II, based on a model developed by the Association of American Railroads,
assume that (1) passenger employment will remain at the level of 44,000, and (2) the
employment base, excluding passenger employment, will decline at a constant annual rate
(0.5 percent for assumption I and 2.0 percent for assumption II) for 25 years, at a reducing rate
over the next 25 years, and remain level thereafter. Employment assumption III differs from
employment assumptions I and II by assuming that (1) passenger employment will decline by
500 per year until a level of 35,000 is reached and then remain level, and (2) the employment
base, excluding passenger employment, will decline at a constant annual rate of 3.5 percent for
25 years, at a reducing rate over the next 25 years, and remain level thereafter. Employment
assumptions I, II, and III are intended to provide an optimistic, moderate, and pessimistic
outlook, respectively.

Under employment assumptions I and II, no cashflow problems occur throughout the entire
period. Under employment assumption III, the combined balance of the RR Account, the
NRRIT, and the SSEB Account becomes negative in 2034 and remains so through the rest of
the 75-year period. Table 1 shows the excess of assets and the present value of income over
the present value of expenditures for the three employment assumptions.


                                       Table 1
 Excess of Assets and Present Value of Income over Present Value of Expenditures for
                     Three Employment Assumptions, 2011-2085
                                     (in billions)

     Employment Assumption                     I               II                III

     Present Value                           $1.4             $1.0            $(0.2)

     Average Tier 2 tax ratea                16.3%            18.8%            21.4%


 a
  Average combined employer/employee tier 2 tax rate is calculated by dividing the present value of
  tier 2 taxes by the present value of tier 2 payroll.




                                                   - 98 -
                                        UNAUDITED




Chart 3a shows the combined balance of the accounts under each of the three employment
assumptions. Note that the combined account balance is positive throughout the entire period
for assumptions I and II but goes negative in 2034 for assumption III and remains so through the
remainder of the 75-year period.

Chart 3b shows the tier 2 tax rate under these employment assumptions. The tax rate reaches
the minimum in 2056 under employment assumption I but then increases again slightly in 2072
and remains level through 2085. The tax rate does not reach the minimum until 2073 under
employment assumption II. Under employment assumption III, the tax rate reaches the
maximum in 2028, remaining at that level through the remainder of the 75-year period.




                                             - 99 -
                                          UNAUDITED




The tier 2 tax rate for each year is determined by the average account benefits ratio, which is
the average for the ten most recent fiscal years of the ratio of fair market value of assets in the
RR Account and NRRIT (and for years before 2002, the SSEB Account) to the total benefits and
administrative expenses paid from the RR Account and the NRRIT. Therefore, the tier 2 tax
rate will be affected by employment assumption. The tier 2 tax rate adjustment mechanism
promotes but does not guarantee solvency. The tier 1 tax rate does not vary by employment
assumption.

Investment return: Since investments may include non-governmental assets such as equity and
debt securities as well as governmental securities, it is worthwhile to examine the effects of
future rates of investment return. In addition to the investment return of 7.5 percent used for our
projections, we show the effect on the combined accounts of an investment return of 4 percent
and an investment return of 11 percent. Table 2 shows the excess of assets and the present
value of income over the present value of expenditures for the three investment return
assumptions. If the tier 2 tax rate were fixed, the actuarial surplus would increase with
increasing investment return. However, the tier 2 tax rate adjusts to changing account
balances, resulting in the highest average tax rate under the 4 percent scenario and the lowest
average tax rate under the 11 percent scenario. Under the 7.5 percent scenario, the tax rate
adjustment mechanism keeps the system in close actuarial balance. Under the 11 percent
scenario, the tax rate is limited to a minimum value. Under the 4 percent scenario, the tax rate
reaches a maximum value and then remains at that value longer than is needed, resulting in the
highest actuarial surplus.




                                              - 100 -
                                        UNAUDITED

The tier 2 tax rate remains at the maximum longer than is needed largely because of the
10-year average in the Average Account Benefits Ratio, as required by law. Use of the 10-year
averaging effectively sacrifices some responsiveness for the sake of stability and smoothness.


                                       Table 2
 Excess of Assets and Present Value of Income over Present Value of Expenditures for
                  Three Investment Return Assumptions, 2011-2085
                                     (in billions)

  Investment Return Assumption              4%            7.5%           11%


  Present Value                           $10.2            $1.0          $1.7

  Average Tier 2 tax rate                  21.1%           18.8%         16.0%




Chart 4a shows the combined account balance under the three investment return assumptions
for the projection period. At a 4 percent investment return, the account balance reaches its
lowest value in 2026, although it never becomes negative. After that it continues to increase.
With a 7.5 percent investment return, the account balance decreases through 2027 and
increases thereafter. An 11 percent investment return results in a combined balance that


                                            - 101 -
                                         UNAUDITED

increases throughout the projection period. Although the 4 percent scenario shows the lowest
account balance at the end of the projection period, the concurrent use of a 4 percent discount
rate results in the highest surplus on January 1, 2011.

Chart 4b shows the tier 2 tax rate under the same three investment return assumptions. With a
4 percent investment return, the maximum tier 2 tax rate applies from 2024 through 2047. With the
7.5 percent investment return, the maximum tax rate applies from 2033 through 2037, and the
minimum tax rate is paid starting in 2073. With an 11 percent investment return, the maximum tax
rate is never applicable, and the minimum tax rate is paid beginning in 2039. As mentioned above,
the tier 2 tax rate is determined based on the ratios of asset values to benefits and administrative
expenses, so it will be affected by investment return, but tier 1 tax rates will not.




Ratio of Beneficiaries to Workers: Chart 5 shows the estimated number of annuitants per
full-time employee under all three employment assumptions. The average number of annuitants
per employee for employment assumption I is highest in 2011. For assumptions II and III, the
ratio is highest in 2021 and 2037, respectively. For all three employment assumptions, the
average number of annuitants per employee declines to around 1.7 by the end of the projection
period. The convergence in number of annuitants per employee at the end of the projection
period results primarily from level employment projected in the latter years under all three
employment assumptions.




                                             - 102 -
UNAUDITED




  - 103 -
         RAILROAD RETIREMENT BOARD                                                                       COMBINED

         DISAGGREGATE OF BUDGETARY RESOURCES                                                             RAILROAD

         FOR THE YEAR ENDED SEPTEMBER 30, 2011                                     COMBINED
          UNEMPLOYMENT
         LIMITATION ON

         (In dollars)                                                              RAILROAD
           AND SICKNESS
        THE OFFICE OF

                                                                                  RETIREMENT            INSURANCE
            INSPECTOR
           COMBINED

         BUDGETARY RESOURCES                                                       PROGRAM               PROGRAM
              GENERAL
             TOTALS


         Unobligated balance, brought forward, October 1                               $17,972,263          $164,571,737            $489,165            $183,033,165

         Recoveries of prior year unpaid obligations                                       802,895                     0               56,235                859,130
         Budget authority
          Appropriation                                                             12,409,444,867           202,760,127                     0         12,612,204,994
          Borrowing authority                                                        3,820,500,000                     0                     0          3,820,500,000
          Spending authority from offsetting collections
           Eamed
             Collected                                                                  10,464,042            22,319,178            1,318,204           34,101,424
             Change in receivables from Federal sources                                     (1,693)                    0                    0               (1,693)
          Expenditure transfers from trust funds                                       108,854,854               942,727            8,169,628          117,967,209
         Subtotal                                                                   16,349,262,070           226,022,032            9,487,832       16,584,771,934

         Nonexpenditure transfers, net, anticipated and actual                          46,412,762           (46,443,108)             (46,356)                (76,702)

         Temporarily not available pursuant to Public Law                             (453,624,385)         (146,295,732)              14,074            (599,906,043)

         Permanently not available                                                  (3,813,554,424)                    0                    0          (3,813,554,424)

                                                                                                                                                 ---
         TOTAL BUDGETARY RESOURCES                                                 $12,147,271,181          $197,854,929          $10,000,950      $12,355,127,060

         STATUS OF BUDGETARY RESOURCES

         Obligations incurred

          Direct
                                                                  $12,006,792,696          $138,409,337           $9,304,155      $12,154,506,188
 I
          Reimbursable
                                                                 10,232,295                     0                    0           10,232,295
......    Subtotal                                                                  12,017,024,991           138,409,337            9,304,155       12,164,7.38,483
0
~        Unobligated balance
          Apportioned                                                                  119,922,914            29,145,592              63,816             149,132,322
         Unobligated balance not available                                              10,323,276            30,300,000             632,979              41,256,255

         TOTAL STATUS OF BUDGETARY RESOURCES                                       $12,147,271,181          $197,854,929          $10,000,950      $12,355,127,060

         CHANGE IN OBLIGATED BALANCE
         Obligated balance, net
          Unpaid obligations, brought forward, October 1                             $965,465,042             $9,270,563            $972,380            $975,707,985
           UnCollected customer payments from Federal sources, brought forward,
           October 1                                                                     (253,812)                     0                   0                (253,812)
         Total unpaId obligated balance, net                                         $965,211,230             $9,270,563            $972,380            $975,454,173

         Obligations incurred, net                                                 $12,017,024,990          $138,409,337           $9,304,156      $12,164,738,483
         Gross outlays                                                             (12,004,238,450)         (138,943,742)          (9,663,514)     (12,152,845,706)
         Recoveries of prior year unpaid obligations, actual                              (802,895)                    0              (56,235)            (859,130)
         Change in uncollected customer payments from Federal sou[Ces                        1,693                     0                    0                1,693

         Obligated balance, net, end of period
          Unpaid obligations                                                         $977,448,687             $8,736,158            $556,787            $986,741,632
          Uncollected customer payments from Federal sources                             (252,119)                     0                   0                (252,119)
         Total, unpaid obligated balance, net, end of period                         $977,196,568             $8,736,158            $556,787            $986,489,513

         NET OUTLAYS
          Gross outlays                                                            $12,004,238,450          $138,943,742           $9,663,514      $12,152,845,706
          Offsetting collections                                                      (119,318,896)          (23,261,905)          (9,487,832)        (152,068,633)
          Distributed offsetting receipts                                           (4,584,640.447)                    0                    0       (4,584,640,447)

           Net Outlays                                                              $7,300,279,107          $115,681,837            $175,682        $7,416,136,626
                 UNITED STATES RAILROAD RETIREMENT BOARD


                             OFFICE OF INSPECTOR GENERAL





To the Board Members:

The following report presents the results of the Office of Inspector General's (DIG)
audits of the financial statements of the Railroad Retirement Board (RRB) as of
and for the fiscal years ended September 30, 2011 and 2010.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheet of the RRB as of
September 30, 2011 and 2010; the related statements of net cost, changes in net
position, and budgetary resources for the years then ended; and the statements of
social insurance as of January 1, 2011, 2010, 2009, 2008, and 2007 and the
statement of changes in social insurance amounts for the year ended
December 31,2010.

We did not audit the financial. statements of the National Railroad Retirement
Investment Trust (NRRIT). The net assets of the NRRIT represent approximately
79°t'o of the total assets reported by the RRB for fiscal year (FY) 2011 and 80% of
the total assets reported for FY 2010. NRRIT assets represent approximately 95%
and 94% of the Treasury securities and assets held by the program as of
January 1, 2011 and 2010. Related changes in the net value of investments held
by the NRRIT are reported as a source of financing which contributed a net loss of
$1.6 billion during FY 2011 and a net gain of approximately $442 million during
FY 2010.

Pursuant to the Railroad Retirement and Survivors' Improvement Act of 2001, the
NRRIT retains the services of an independent auditor to opine on its financial
statements. With respect to the assets of the NRRIT as of September 30, 2011
and 2010; and January 1, 2011, 2010, 2009, 2008, and 2007 the financial
                                                               t


statements of the NRRIT were audited by other auditors whose reports have been
furnished to us, and our opinion, insofar as it relates to the amounts included for
the NRRIT, is based solely on the report of the other auditors.

In our opinion, the financial statements of the RRB referred to above, including the
accompanying notes, present fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles, the financial position of the RRB, its
consolidated net cost of operations and changes in net position, and combined
budgetary resources as of and for the fiscal years ended September 30, 2011, and
2010; and the financial condition of the Railroad Retirement program as of
January 1, 2011, 2010, 2009, 2008, and 2007 and changes in the financial condition
of the program for the year ended December 31,2010.



844 N RUSH STREET CHICAGO IL 60611-2092                              Printed on recycled paper
                                        - 105 -
Auditor's Report                                                               Page 2



However, misstatements may nevertheless occur in other financial information
reported by the RRB and may not be detected as a result of internal control
deficiencies described later in this report.

CONSISTENCY OF OTHER INFORMATION

The RRB's required supplementary information is included, to which we have
applied limited procedures in accordance with auditing standards generally
accepted in the United States of America, which consisted of inquiries of
management about the methods of preparing the information and comparing the
information for consistency with management's responses to the auditor's
inquiries, the basic financial statements and other knowledge the auditor obta~ned
during the audit of the basic financial statements. We do not express an opinion
or provide any assurance on this information because the limited procedures do
not provide sufficient evidence to express an opinion or provide assurance.

Social Insurance

As described in the statement and related notes, the statement of social insurance
presents the actuarial present value of the future income to be received, and
expenditures to be paid to or on behalf of participants in the Railroad Retirement
program during a period sufficient to illustrate the program's long-term sustainability.
In preparing the statement of social insurance, management considers and selects
assumptions and data that it believes provide a reasonable basis for the assertions
in the statement. However, because of the large number of factors that affect the
statement of social insurance and the fact that future events and circumstances
cannot be known with certainty, there will be differences between the estimates in
the statement of social insurance and the actual results, and those differences may
be material.

The statement of changes in social insurance amounts reconciles the beginning
and ending net present values of future revenue less future expenditures for
current and future participants (the "open group measure") and presents the
components of the changes in the open group measure from the end of the
previous reporting period. The significant components of the change include:
changes in the valuation period; changes in demographic and economic data
and assumptions; and changes in law, regulation, and policy, as applicable.

Emphasis of Matters

NRRIT

Pursuant to the Railroad Retirement and Survivors' Improvement Act of 2001, the
NRRIT is authorized to invest railroad retirement assets in a diversified investment
portfolio. As of Septerrlber 30,2011, the reported value of the net assets of the
NRRIT was approximately $1.6 billion lower than reported at September 3D, 2010.



                                        - 106 -
Auditor's Report                                                                                Page 3


The RRB discusses its relationship with the NRRIT in Note 2 and Note 5 to the
financial statements, and describes the impact of changes in the Treasury
Securities and Assets held by the Program on social insurance actuarial
projections in Note 15.

Financial Interchange

The RRB discloses transactions with related parties in Note 2 to the financial
statements. The RRS, Social Security Administration and Centers for Medicare
and Medicaid Services are parties to a financing arrangement described as a
financial interchange. Under this arrangement, transfers-in from the Social
Security Administration's Old-Age and Survivors Insurance and Disability
Insurance trust funds and transfers-out to the Federal Health Insurance trust fund
represented approximately $4 billion (net), or about 40% of the financing sources
reported on the RRB's statement of changes in net position for FY 2011 before
considering the change in the reported value of NRRIT net assets. For FY 2010,
'flnancial interchange transfers of $4 billion (net) represented about 35% of the
financing sources reported before considering the reduction in the reported value
of NRRIT assets.

CONSIDERATION OF INTERNAL CONTROL

In planning and performing our audit, we considered the RRB's internal control
                                          1
over financial reporting and compliance. We did this to determine our procedures
for auditing the financial statements and to comply with OMS audit guidance, and
not to express an opinion on internal control. Accordingly, we do not express an
opinion on internal control over financial reporting and compliance or on
management's assertion on internal control included in Management's Discussion
and Analysis.

With respect to previously reported control deficiencies, the RRB has made
progress in strengthening its information security program but this effort is not yet
complete and remains an area of material weakness. 2 The previously reported
material weakness for internal controls over non-integrated subsystems
continues to exist because agency actions are not yet sufficient.

Our internal control work would not necessarily disclose all deficiencies in
internal control that might be material weaknesses or other significant
deficiencies. Although not considered to be nlaterial weaknesses or significant

1 The definition of internal control as it relates to the basic financial statements is presented in the
footnotes on page 6.
2A material weakness is a deficiency, or combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of the entity's financial statements will
not be prevented, or detected and corrected on a timely basis. A significant deficiency is a
deficiency, or combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance.




                                                 - 107 -
Auditor's Report                                                                       Page 4


deficiencies, we will report other matters involving internal control and its operation
to RRB management in a separate letter.

Material Weaknesses

Information Technology Security - Risk Management Framework

During FY 2011 the OIG evaluated the RRB's information security program
pursuant to the provisions of the Federal Information Security Management Act of
2002 (FISMA). OIG auditors found that weaknesses regarding the review of
contractor deliverables associated with the risk management framework continue
to be found. 3 Although agency managers are working to strengthen controls,
management action had either not been completed as of the end of the current
reporting period, or had not been in place long enough to permit evaluation.

Information Technology Security - Applications and Services

During FY 2011, the OIG also identified a material weakness regarding
information technology security application services because the RRB continues
to use an unsupported server, Windows 2000, as the operating system for some
major applications. Although the agency has moved some of the Windows 2000
servers to the virtual environment, this action does not alleviate the problems
associated with processing data in an unsupported environment. Uncertainties
exist in determining the timeframe in which this situation will be corrected as well
as the necessary resources for completion.

Internal Control Over Non-Integrated Subsystems

The RRB's financial reporting control structure is not comprehensive with respect
to the reconciliation of the general ledger to non-integrated subsystems. The OIG
previously reported this issue as a result of its audits of the agency's financial
statements.

The agency has taken action to address this material weakness by performing
reconciliations of the various non-integrated subsystems that support financial
accounting. Although this shows that progress is being made to address this
material weakness, the agency's progress is not yet sufficient to ensure that all of
the reconciliations are properly designed and effective.

RRB managers are working to address this weakness.


3 "Inspection of the Railroad Retirement Board's Agency Enterprise General Information Support

System Certification and Accreditation," OIG Report 11-10, September 28. 2011.

"Inspection of the Railroad Retirement Board's Financial Management System's Continuous

Monitoring Program," OIG Report 11-11, September 28,2011.

"Evaluation of the Railroad Retirement Board's Benefit and Payment Operations System Continuous

Monitoring," OIG Report 11-12, September 29,2011.




                                            - 108 -
Auditor's Report                                                                        Page 5



Budgetary Reporting

The Bureau of Fiscal Operations (BFO) is responsible for preparing agency
financial statements, which includes the Statement of Budgetary Resources
(SBR). During our fiscal year 2011 audit, we found significant unexplained
variances in the September 30, 2011 SBR which resulted in the discovery of
material errors of more than $2 billion, which were corrected by BFO prior to the
publication of the statement. We also discovered a $170 million error in the June
30, 2011 SBR, which was subsequently corrected. In addition, the OIG also
identified other numerous instances of ineffective controls for budgetary
transactions. As a result of these errors, the OIG has determined that BFO's
internal controls over budgetary reporting are insufficient to ensure that a material
misstatement would be prevented, detected and corrected on a timely basis.

Management within the Bureau of Fiscal Operations is working to address these
weaknesses.

Significant Deficiency

Railroad Audits

The agency conducts external audits of railroad employers to ensure compliance
under the Railroad Retirement and Unemployment Insurance Acts and verifies the
accuracy and timeliness of reported compensation and contributions. Although the
RRB does not have the authority to audit taxes under the Railroad Retirement Tax
Act, agency staff reviews compensation amounts on which these payroll taxes are
based. Creditable compensation paid by railroad employers impacts railroad
unemployment insurance act contributions, which finances the railroad
unen1ployment and sickness insurance programs. Consequently, audit findings
could impact the RRB's trust 'funds, which are recorded in the agency's financial
statements.

As a result of our review of the organizational unit that conducts the external
audits, the OIG reported that the unit lacked comprehensive policies and
procedures for conducting, reporting and documentin~ audits to ensure that
compensation is reported in accordance with the law. A weak quality control
system, the practice of not verifying all employer information with the Internal
Revenue Service, and not issuing audit reports in a timely manner increases the
risk that railroad reporting errors could remain undetected.

Management in the Bureau of Fiscal Operations is working to address these
deficiencies.


4"Review of the Railroad Retirement Board's Audit and Compliance Division," OIG Report 11-04,
February 1, 2011.




                                             - 109 -
Auditor's Report	                                                                        Page 6


COMPLIANCE WITH LAWS AND REGULATIONS

Our tests of the RRB's compliance with selected provisions of laws and
regulations for FY 2011 disclosed no instances of non-compliance that are
reportable under U.S. generally accepted government auditing standards or
OMB guidance. However, the objective of our audit was not to provide an
opinion on overall compliance with laws and regulations. Accordingly, we do not
express such an opinion.

OBJECTIVES, SCOPE, AND METHODOLOGY

RRB management is responsible for (1) preparing the financial statements in
conformity with U.S. generally accepted accounting principles, (2) establishing,
maintaining, and assessing internal control to provide reasonable assurance that
the broad control objectives of the Federal Managers' Financial Integrity Act
                                                                           5
(FMFIA) are met, and (3) complying with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the
financial statements are presented fairly, in all material respects, in conformity
with U.S. generally accepted accounting principles. We are also responsible for
(1) obtaining a sufficient understanding of internal control over financial reporting
and compliance to plan the audit, (2) testing compliance with selected provisions
of laws and regulations that have a direct and material effect on the financial
statements, and laws for which OMB audit guidance requires testing; and
(3) performing limited procedures with respect to certain other information
appearing in the RRB's Performance and Accountability Report. In order to fulfill
these responsibilities, we:

    •	 examined, on a test basis, evidence supporting the amounts and

       disclosures in the proprietary and budgetary 'financial statements;

    •	 assessed the accounting principles used and significant estimates made
       by RRB management in preparing the proprietary and budgetary
       'financial statements;
    •	 assessed the factors, data, assumptions and model used by RRB
       management to prepare the long-term actuarial projections presented in
       the statement of social insurance;


51nternal Control as it relates to the financial statements is a process, affected by the agency's
management and other personnel, designed to provide reasonable assurance that the following
objectives are met (1) Reliability of financial reporting - transactions are properly recorded,
processed, and summarized to permit the preparation of the Basic Statements in accordance with
generally accepted accounting principles, and assets are safeguarded against loss from
unauthorized acquisition, use, or disposition; and (2) Compliance with applicable laws.
regulations. and government-wide policies - transactions are executed in accordance with laws
governing the use of budget authority, government-wide policies, and laws identified by OMB, and
other laws and regulations that could have a direct and material effect on the Basic Statements.



                                              - 110 -
Auditor's Report                                                               Page 7


   •	 assessed the reconciliation of the beginning and ending open group
      measure including the significant components of the change presented in
      the statement of changes in social insurance amounts;
   •	 evaluated the overall presentation of the financial statements;
   •	 obtained an understanding of the entity and its operations, including its
      internal control related to financial reporting, compliance with laws and
      regulations (including execution of transactions in accordance with
      budget authority);
   •	 tested relevant internal controls over financial reporting and compliance,
      and evaluated the design and operating effectiveness of internal control;
   •	 considered the design of the process for evaluating and reporting on

      internal control and financial management systems under the FMFIA;

      and

   •	 performed tests of compliance with selected provisions of laws and
      regulations, including laws governing the use of budget authority, and
      other laws and regulations that could have a direct and material effect on
      the RRB's basic financial statements:
          o	 Anti-Deficiency Act, as amended;
          o	 provisions of the Railroad Retirement Act governing financing and
              the payment of benefits;
          o	 provisions of the Railroad Unernployment Insurance Act governing
              financing and the payment of benefits; and
          o	 provisions of the Social Security Act that provide for certification of
             benefits to the RRB for payment (42 U.S.C. § 405(i)).

We considered the material weaknesses identified above in determining the
nature, timing, and extent of our audit procedures on the FY 2011 financial
statements.

We did not evaluate all internal controls relevant to operating objectives as
broadly defined by the FMFIA, such as controls relevant to preparing statistical
reports and ensuring efficient operations. We limited our internal control testing
to controls over financial reporting and compliance. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected by our audit. We
also caution that projecting our evaluation to future periods is subject to the risk
that controls may become inadequate because of changes in conditions or that
the degree of compliance with controls may deteriorate. We also caution that
our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to the RRB.
We limited our tests of compliance to selected provisions of laws and regulations



                                         - 111 -
Auditor’s Report                                                            Page 8


that have a direct and material effect on the RRB’s financial statements and
those required by OMB audit guidance that we deemed applicable to the RRB’s
financial statements for the fiscal year ended September 30, 2011. We caution
that noncompliance may occur and not be detected by these tests and that such
testing may not be sufficient for other purposes.

The NRRIT was established pursuant to the Railroad Retirement and Survivors’
Improvement Act of 2001 (Public Law 107-90). Under that law, the NRRIT is not
a department, agency or instrumentality of the Government of the United States.
In addition, the law specifically exempts the NRRIT from compliance with Title 31,
United States Code which governs the monetary and financial operations of the
Federal government. The law also provides that the NRRIT annually engage an
independent, qualified public accountant to audit the financial statements of the
NRRIT. Accordingly, the OIG has not audited the books and records of the
NRRIT, nor had any input into the selection of the independent accountant
retained by the NRRIT, nor provided oversight to that firm in the execution of
their responsibilities. Our opinion on the RRB’s financial statements, insofar as it
relates to the amounts included for the NRRIT, is based solely on the report of
the auditor retained by the NRRIT, and our assessments of internal control and
compliance do not extend to the operations of the NRRIT.

Except to the extent that the foregoing arrangement may have affected the
planning and execution of our audit, we performed our work in accordance with
U.S. generally accepted government auditing standards and OMB audit
guidance.

RRB MANAGEMENT’S COMMENTS

RRB management thanked the OIG audit staff for their close cooperative effort in
meeting this year’s reporting deadline. With respect to the material weaknesses
described in this report, management cited their ongoing effort to correct the
weaknesses and to implement solutions.

The full text of management’s response follows as an attachment to this report. We
did not perform audit procedures on the RRB's written response to the material
weaknesses and, accordingly, we express no opinion on the response.


Original signed by:

Martin J. Dickman
Inspector General
November 8, 2011, except for matters relating to
the fair value of the net assets of the NRRIT as of
September 30, 2011, as to which the date is
November 15, 2011.



                                      - 112 -
                                                                  Attachment
                                                                  Page 9       .fUM G-l15f (1·82]
                   UNITED STATES GOVERNMENT


                                                               RAILROAD RETIREMENT BOARD
                   MEMORANDUM
                                                               NOV	 14 2011

 TO          ··	   Diana Kruel
                   Assistant Inspector General for Audit

             ·..                        (Original signed by)
                   Chief Financial Officer

 SUBJECT:	         FY 2011 Financial Statement Audit - Auditor's Report;

                   Re: Your memorandum dated November 8, 2011




 My office, and those of the Board Members, have reviewed the Office of Inspector
 General's draft report. We will continue our efforts to pay benefits to the right
.people, in the right amounts, in a timely manner, and will take appropriate action
. to safeguard our customers' trust funds. Although material weaknesses were
 identified, we have devoted substantial resources to correct agency weaknesses and
 will continue to implement solutions. We again thank you and your staff for
 working closely and cooperatively with us these past few months to help ensure
 that the RRB will be able to meet this year's reporting deadline of November 15,
 2011.



 cc:	    The Board

         Executive Committee





                                       - 113 -
PAGE INTENTIONALLY LEFT BLANK
OTHER ACCOMPANYING INFORMATION
PAGE INTENTIONALLY LEFT BLANK
                    UNITED STATES RAILROAD RETIREMENT BOARD


                                OFFICE OF INSPECTOR GENERAL



                   MANAGEMENT AND PERFORMANCE CHALLENGES

                     FACING THE RAILROAD RETIREMENT BOARD


    This statement has been prepared pursuant to the Reports Consolidation Act of
    2000 and the requirements of Office of Management and Budget Circular A-136
    which require that the Inspectors General identify what they consider to be the
    most serious management challenges facing their respective agency and briefly
    assess the agency's progress in addressing those challenges.

Congress created the railroad retirement system 75 years ago. The Railroad
Retirement Act (RRA) created a nationwide retirement system for railroad
workers to provide income security in old age. Over the years the program has
been expanded to include disabled workers, elderly spouses and widow(er)s,
children, and parents of young children. In 1938, Congress added a nationwide
system of unemployment insurance and later a program of sickness insurance
benefits. During fiscal year (FY) 2010, the Railroad Retirement Board (RRB)
paid about $10.8 billion for retirement and survivor benefits to approximately
582,000 beneficiaries and roughly $160 million in net unemployment and
sickness insurance benefits to some 38,000 claimants.

Our identification of challenges facing RRB management is based on recent
audits and evaluations; new congressional directives to prevent improper
payments and fraud in government programs; and continued lack of audit
oversight for the National Railroad Retirement Investment Trust (NRRIT), a
multi-billion dollar investment enterprise. The following challenges were
identified during FY 2011:

       •   Oversight and transparency of invested program assets;
       •   Disability and Railroad Medicare program integrity;
       •   Information technology security;
       •   Controls over non-integrated subsystems;
       •   Human capital management; and
       •   Preventing and detecting improper payments.

Providing Oversight of Invested Assets of the Railroad Retirement Act
Program

The Railroad Retirement and Survivor's Improvement Act of 2001 (RRSIA)
created the NRRIT, independent of the RRB, to manage and invest railroad
retirement assets in a diversified investment portfolio in the same manner as
those of private sector retirement plans. 1 Although the RRB maintains a reserve

I   Public Law 107-90, December 21,2001, codified in 45 U.S.c. § 231n(j)




                                                - 117 -
Inspector General Statement                                                                   Page 2 of6
Management and Performance Challenges

to pay benefits as they come due, approximately 80% of the agency's total
assets, $23.8 billion, were entrusted to the NRRIT at the end of FY 2010.

Currently, the interagency Memorandum of Understanding between the RRB, the
Department of Treasury, Office of Management and Budget, and the NRRIT is
being revised to require additional financial information for the annual audit of the
NRRIT financial statements. However, the proposed revisions do not alleviate
the DIG's concerns about the effectiveness of oversight for the NRRIT, a
multi-billion dollar investment enterprise.

Agency management has concluded that the RRB has sufficient information to
carry out its responsibilities under the RRSIA. In response to the DIG's concerns
regarding performance audits, the RRB states that an audit of the NRRIT's
operational matters was released in December 2009; yet, the effectiveness of the
NRRIT's internal controls was not sufficiently tested and the potential for fraud,
waste, and abuse was not addressed during this audit.

During FY 2011, the DIG conducted a special review to identify the RRB's
current weaknesses and the ways in which they could be addressed. We
reported that since its inception, the NRRIT's administrative expenses have risen
and increased the overall RRB cost structure by more than 70%.2 This increase
can be partially explained by the number of fund management staff that would be
needed to manage increasingly complex risk based investment strategies and
transactions. However, minimal information is released publically to justify the
recurrent increases in administrative expenses.

To ensure the integrity, economy, and long-term viability of the NRRIT, RRB
management must establish performance audit requirements that will effectively
strengthen administrative and financial oversight while ensuring trust fund
transparency.

Disability Automation and Program Integrity

Automation of the RRB's disability program continues to be a challenge for the
agency. The Office of Programs stated that operational efficiency can be further
enhanced through automation of the RRB's disability program. As such, a
migration to paperless disability program processing has been identified as a
future automation goal. An electronic method of processing disability claims
would also provide a means for real-time detection and prevention of disability
fraud, and enable the use of data mining techniques that will assist the agency's
program integrity activities.




2 The cost structure increase of 70% is computed as the ratio of reported NRRIT administrative expenses to
RRB appropriations as ofFY 2010 ($77,165,000/$109,073,000).



                                                 - 118 -
Inspector General Statement                                                Page 30f6
Management and Performance Challenges

Electronic records and paperless processing allow multiple users to access and
work with the same data simultaneously. In addition, RRB customers can access
electronic data and records online to answer self-inquiries without contacting the
RRB's field service. Electronic records also support data analytics initiatives that
can address fraud within the benefit payment environment.

The necessary funding for this initiative has not been requested and will be
difficult to obtain during our current economic climate.

Recently, the Office of Management and Budget approved the use of RRB form
G-252, Self-Employment/Corporate Officer Work and Earnings Monitor.
Form G- 252 is intended to enhance program integrity activities by capturing
additional information from disability annuitants who are self-employed or serving
as corporate officers.

While we applaud the RRB's development of this form, we believe that the RRB's
procedures regarding this new form do not go far enough to prevent improper
payments. On two separate occasions we submitted recommendations to
augment these program integrity efforts, but they were not included in the final
form. If the RRB cannot implement all of our prior recommendations, they should
require all current and new disability annuitants to complete form G-252.

The OIG is looking at recommending additional ways the agency can change the
way they do business and more effectively fulfill its responsibilities as stewards of
the RRB's trust fund.

Railroad Medicare Program Integrity

The Government Accountability Office (GAO) continues to cite Medicare as a
high risk area because of its size, complexity, and vulnerability to
mismanagement and improper payments. GAO estimated that nearly $48 billion
in improper Medicare payments had been paid during FY 2010. This
represented more than 9% of the total Medicare benefits paid during the reported
year. The Railroad Medicare program is not immune to the types of fraud, waste,
and abuse found in the Medicare program.

The RRB has administrative responsibilities for certain benefit payments under
the Social Security Act and the Medicare program for eligible RRB beneficiaries.
In addition, the RRB contracts with a separate carrier to process Railroad
Medicare Part B claims for qualified railroad retirement beneficiaries. The
imminent establishment of a new Railroad Medicare contract, with updated
provisions and requirements will create an environment of uncertainty in the short
term.




                                      - 119 -
Inspector General Statement                                                                       Page4of6
Management and Performance Challenges

As of September 30, 2010, there were about 458,800 beneficiaries enrolled in
the Railroad Medicare Part B program. During FY 2010, the Medicare Part B
carrier paid over $870 million in medical insurance benefits.

The RRB has recently assumed responsibility for withholding and collecting
premiums for Railroad Medicare Part C and Part D. These additional Medicare
responsibilities have increased the agency's workload and generated significant
backlogs. Increased intra~governmental coordination is also needed between the
Centers for Medicare & Medicaid Services and the RRB to affect the appropriate
transfer of funds between the agencies.

During FY 2011, our audit of Railroad Medicare contract cost controls found that
the controls for both the RRB and its contracted carrier were not fully effective,
the carrier's records of work performed were insufficient to support amounts
billed, and the RRB's oversight and contract management procedures are
inadequate to fully ensure the integrity of Railroad Medicare cost
reimbursements. Recommendations for corrective action are pending.

Information Technology Security

During FY 2011, the OIG evaluated information security pursuant to the
provisions of the Federal Information Security Management Act of 2002 (FISMA)
and concluded that the RRB has not yet achieved an effective FISMA-compliant
security program. A material weakness for information security will continue to
be reported as continued internal control deficiencies exist over the review of
contractor deliverables associated with the risk management framework. 3

 Although agency managers are working to strengthen controls, management
 action in response to internal control over the risk management framework had
.either not been completed as of the end of the current reporting period, or had
 not been in place long enough to permit evaluation. Once completed, the risk
 management process will help to ensure that the RRB complies with FISMA
 requirements.




3   In prior years, the risk management framework process was referred to as certification and accreditation.




                                                   - 120 -
Inspector General Statement                                             Page 50f6
Management and Performance Challenges

Internal Control Over Non-Integrated Subsystems

In connection with its audit of the RRB's FY 2009 financial statements, the OIG
identified internal control over non-integrated subsystems as a material
weakness. The RRB's financial reporting structure relies on an automated
general ledger which receives information electronically from both integrated and
non-integrated subsystems that support transaction processing. The control
structure is not comprehensive with respect to the reconciliation of the general
ledger to the non-integrated subsystems, and does not ensure the completeness
of transactions originating in non-integrated subsystems.

During FY 2011, agency management reported that it had established general
ledger reconciliations for most of its non-integrated subsystems and submitted
documentation supporting resolution of the material weakness for our review.
Although progress has been made, the agency's progress is not yet sufficient to
ensure that all of the reconciliations are properly designed and effective.

Human Capital Management

Demographically, the RRB has a very mature workforce with a significant number
of its employees becoming eligible to retire in the near future. The most recent
projections indicate that over the next five years approximately 50% of the
agency's employees will become eligible for retirement. In the Bureau of
Information Services, the percentage of employees eligible for retirement will
approach 70% by the end of FY 2016. Recent recoveries in the value of Thrift
Savings Plan retirement accounts may encourage more of these eligible
employees to retire. These attrition-based workforce changes will impact every
facet of the agency's operations including senior level management.

The RRB has identified staff attrition as an ongoing concern and has developed
internal and external sources for recruitment. The current high levels of
unemployment have resulted in an unusually large volume of applicants for many
of the recent job postings. However, this surplus of potential recruits may not
continue indefinitely and critical positions may become more difficult to fill as
more Federal workers opt for retirement.

The RRB's Human Capital Management Plan and Succession Management Plan
could be employed to address rapid staff turnover; however, the plan is presently
unfunded which creates a risk for the agency. The RRB's plan recognizes the
agency's need to maintain and replace agency staff, but does not consider the
impact of a scaled decline in financial resources or other budgetary risk
scenarios.




                                    - 121 -
Inspector General Statement                                             Page 6of6
Management and Performance Challenges

In addition, the RRB has not established a long-term service delivery plan that
can efficiently respond to its declining customer base. An analysis of the RRB's
future customer service workload and the dynamic level of full time equivalent
positions needed to support an optimal level of customer service within the
agency's budgetary limits have not been performed.

Preventing and Detecting Improper Payments

The Improper Payments Information Act of 2002 (IPIA) established requirements
for measuring and reporting improper payments in Federal programs.
Appendix C, Part I of OMB Circular A-123, Management's Responsibility for
Internal Controls, provides guidance to agencies implementing IPIA
requirements. On July 22, 2010, the President signed new legislation known as
the Improper Payments Elimination and Recovery Act of 2010 which amends the
prior law.

Pursuant to the amended law, the RRB reports annually on agency progress in
reducing improper payments, and has reported a reduction in the rate of RRA
improper payments (as compared with outlays) dropping from 1.64% in FY 2004
to .64% in FY 2010. During FY 2010, the RRB recognized more than $53 million
in new overpayments in its retirement, survivor and disability benefit operations
of which nearly 75% were associated with routine events such as the death of an
annuitant or the administrative coordination of benefits with the Social Security
Administration.

Monitoring and reducing improper payments is inherently challenging in an
environment where errors result from external changes. As such, the agency
must work harder to obtain current and accurate information and process it as
quickly as possible. The reduction in the improper payment rates reflects the
agency's commitment to reducing improper payments. However, as the agency
moves forward, they must continue to identify opportunities for improvement.



Original signed by:

Martin J. Dickman
Inspector General

October 14, 2011




                                    - 122 -
                                  Management’s Comments


These are Management’s comments on the Management and Performance Challenges
identified by the Railroad Retirement Board (RRB) Inspector General.

Providing Oversight of Invested Assets of the Railroad Retirement Act Program

In the Statement on Management and Performance Challenges issued October 14, 2011, the
RRB’s Office of Inspector General expressed its concern with what it believes to be a lack of
oversight of the National Railroad Retirement Investment Trust and its investment activities
carried out pursuant to the Railroad Retirement and Survivors’ Improvement Act of 2001.

The Railroad Retirement and Survivors’ Improvement Act of 2001 (RRSIA) authorized the
establishment of the National Railroad Retirement Investment Trust (NRRIT) to handle
investment of railroad retirement funds in securities including stocks and bonds. The NRRIT by
statute is not a Federal agency or entity and is separate and apart from the RRB. The NRRIT is
headed by a seven member Board of Trustees comprised of representatives appointed by rail
carriers, rail labor, and a seventh member selected by the six members representing rail carriers
and rail labor who have the fiduciary responsibility to prudently invest and manage the assets
held in trust by NRRIT. In enacting the RRSIA, Congress was concerned about too much
control over the NRRIT and its investment activities by the Federal government. As such,
responsibility for managing the assets of NRRIT was given to its seven trustees, but the
legislation authorizes the RRB to bring legal action against the NRRIT or NRRIT officials to
compel compliance with the provisions of the Railroad Retirement Act.

The RRB is fulfilling its responsibilities under the RRSIA. The RRB’s Board Members meet with
the Board of Trustees twice each year to discuss the activities of the NRRIT, and the agency’s
General Counsel participates in telephone conference calls nearly every month with the Chief
Executive Officer/Chief Investment Officer and Counsel to the NRRIT to discuss the business
conducted by the Board of Trustees at their periodic meetings. In addition, staff from the RRB’s
Bureau of Fiscal Operations and Bureau of the Actuary communicate on a regular basis with
NRRIT staff as well as review various reports concerning investment activities and performance
prepared by the NRRIT.

With respect to the OIG’s recommendation that the RRB establish requirements for
performance audits concerning NRRIT activities, it should be noted that pursuant to
recommendations by the Audit Committee of the NRRIT, the NRRIT has conducted three
external audits of its activities. The most recent audit was conducted in 2009 by Independent
Fiduciary Services, Inc. The report on this audit, which was issued November 19, 2009,
covered the review of the following areas: investment performance reporting; due diligence
procedures; non-traditional investment practices; trust and custody arrangements; and
investment account and operations. The audit was a very thorough review of these areas. In
view of the willingness of the NRRIT to conduct performance audits on its own initiative, we
don’t see any need to impose any requirements for such audits at this time.

The OIG, in a review conducted in fiscal year 2011, found that the NRRIT’s administrative
expenses have risen steadily since the inception of the Trust. The OIG is correct that
administrative costs of the NRRIT have risen since its inception, however, this increase in costs
is attributable to the increasing use of investment management firms to actively manage the
investment of railroad retirement trust funds. Investments by the NRRIT in the first few years of


                                             - 123 -
its existence were made in index funds. Costs associated with these investments were
relatively minor. In recent years, investments have been moved from index funds to actively
managed investments by investment managers. The NRRIT now has over 70 investment
managers handling investments. The fees charged by the investment managers comprise more
than 84 percent of the total of the administrative costs reported by the NRRIT. Although
administrative costs have risen since the beginning of the NRRIT, the costs have remained
relatively constant for the past four years as the NRRIT has moved the majority of its
investments from index funds to actively managed investments. In addition, the total number of
employees of the organization grew from two in 2002 to approximately 20 in 2007, and has
since remained at that level. Overall administrative costs reported by the NRRIT are very
reasonable considering the size of the portfolio and compare favorably with costs of other
pension funds of similar investment complexity.

Finally, although the OIG states that the administrative costs of the NRRIT have increased the
RRB cost structure, it needs to be noted that the administrative costs of the NRRIT are borne by
the funds in the portfolio and do not come out of the funds appropriated to the RRB for
administration of the Railroad Retirement Act.

Disability Automation and Program Integrity

In 2010, the Board directed the establishment of a Disability Working Group to analyze and
evaluate ways to reduce fraud related to earnings and self-employment in the disability
program. In its report (issued in September 2010), the Disability Working Group identified
opportunities to strengthen program integrity in the disability program by building on existing
processes and developing new initiatives for the prevention and detection of disability fraud. In
January 2011, an Action Plan was finalized that outlined specific action steps and time frames
for pursuing the identified improvements. Over the past summer, the first action item was
completed. This involved the development and delivery of fraud awareness training for all staff
who have any involvement in the adjudication of disability claims. The training was provided for
approximately 300 field and headquarters employees. Work is continuing on additional case
reviews needed to complete the next steps identified in the Action Plan.

RRB staff has also begun work on evaluating the resources that would be needed to implement
an electronic imaging system for the disability program, but as the Inspector General noted, we
anticipate that funding may be difficult to obtain in the near term for such a major undertaking.

Railroad Medicare Program Integrity

The RRB is authorized to contract with a carrier to process the Medicare Part B claims of its
annuitants. The RRB is currently soliciting for a new Railroad Part B Medicare Administrative
Contract (MAC). Centers for Medicare Services (CMS) MAC contract requirements, including
those related to benefit integrity and quality review, are included in the RRB contract. The
selected contractor will be required to meet the contract standards and requirements which
include the appropriate program internal controls. The RRB Medicare solicitation team is
coordinating contracting activity with CMS staff to ensure that we comply with all MAC contract
requirements.

With respect to agency Medicare information systems, the RRB completed updating its premium
withholding system upgrades at a cost of about $900,000. These upgrades will allow faster and
more efficient processing of beneficiary premium withholding requests for Medicare Parts C
and D selections. The RRB is also updating its Medicare systems dealing with income-related


                                              - 124 -
adjustments under Part D at a cost of about $600,000. The RRB continues to work with CMS to
implement this phase of the project, which is expected to be completed during fiscal year 2013.

We also are responsible for premium collection for Medicare Parts B, C and D. As the Inspector
General noted, we did have significant backlogs due to the new responsibilities related to
Parts C and D. However, with the recent increase in staff in the Medicare Section and the use
of available overtime funds, we reduced these workloads to more manageable levels during
fiscal year 2011. By September 30, 2011, both the Medicare Enrollments workload and the
Medicare Premium Collection workload were within the acceptable range and met their internal
performance targets. The Medicare Maintenance workload was cut in half over the past year,
and is still dropping. We expect it to be within the acceptable range during fiscal year 2012.

Information Security

Agency management plans to resolve this weakness by implementing an information security
program in accord with the guidelines set forth in the Risk Management Framework. This will
include developing procedures that will guide agency management in defining the contractor
deliverables for the security authorization and continuous monitoring process and management
review of the resulting documentation. This will ensure that the information system owner will
be able to fulfill their responsibilities in this process. FISMA-complaint training will be provided
to staff involved with the risk management process to enhance understanding of the Risk
Management Framework and management responsibilities. Additionally, we are monitoring the
material weakness identified for Applications and Services and implementing corrective actions.

Internal Control over Non-Integrated Subsystems

RRB financial managers worked with Executive Committee (EC) representatives to prepare an
inventory of non-integrated subsystems during fiscal year 2010. In fiscal year 2011, the new
and existing financial reconciliations for the identified non-integrated subsystems were
established and performed. Progress was made to develop documentation for the
non-integrated subsystems reconciliations. In addition, the agency is taking the next steps
toward migrating its financial system to a designated shared service provider. As part of
pre-migration activities for fiscal year 2011, the agency is working with an outside contractor to
define its financial system requirements including areas of concern such as non-integrated
subsystems. It is anticipated that the remaining OIG recommendation regarding internal control
over non-integrated subsystems will be fully addressed in fiscal year 2012, and we will then ask
the OIG for closure of that recommendation.

Human Capital Management

The agency Human Capital Plan is updated annually and submitted to the Office of Personnel
Management for review and approval. This plan includes a three-year workforce projection that
estimates the number of hires and separations for the agency. In aggregate, the numbers are
fairly accurate when they represent overall agency human capital activity, but it is very difficult to
precisely predict turnover for specific positions. In addition to the workforce projection table, the
Executive Committee prepares an annual hiring plan that allows agency management to
specifically target critical human capital needs during each fiscal year that reflect budget and
position vacancy realities. This has been a highly effective approach to maximize our use of
human resources as financial resources decline. As a small agency, this has proved to be an
effective approach to managing an average turnover rate of about 4 to 6 positions per month.



                                               - 125 -
The RRB has made significant progress in terms of hiring for entry-level positions. This is
consistent with the agency’s human capital and succession planning documents. Given limited
funding levels, the agency has managed to accomplish this by relying on attrition and
retirements to bring new people into the workforce and position the agency to continue providing
outstanding customer service into the future. In the past two years, training classes were held
for new claims examiners in the area of initial applications for retirement and survivor benefits,
and two for new unemployment and sickness insurance claims examiners. Two training
programs were also conducted for new post-adjudication examiners in both retirement and
survivor claims. Another training program implemented for Medicare claims examiners will help
our customers receive Medicare benefits in a more timely and efficient manner. Finally, the
RRB completed training for new claims representatives in its field service, and refresher training
for experienced representatives, to enable our employees who have direct customer contact to
provide the highest possible level of service.

In fiscal year 2011, the RRB’s Bureau of Human Resources began using the USA Staffing
software which allows our staffing specialists to better utilize the USA Jobs website. The
software will shorten the time necessary to electronically post job announcements, receive
applications, screen candidates and ultimately fill vacant positions. In fiscal year 2012, we will
add e-QIP software to speed up security clearances for on boarding employees.

Preventing and Detecting Improper Payments

Over the years, the agency has concentrated its efforts towards monitoring and reducing
improper payments, as evidenced by the continued reductions in our improper payment rate.
The current rate of .58 percent reflects the high priority placed on accuracy and compliance
throughout the RRA claims process. Approximately 93 percent of payment errors result from
changes coming from outside the agency, such as changes in the beneficiary’s status which
affects entitlement or eligibility and changes in service and compensation due to work. As
recognized by the Inspector General, the RRB’s challenge is to obtain current and accurate
information and process it as quickly as possible. The RRB will continue to devote significant
resources to prevent or minimize these errors.




                                              - 126 -
                Improper Payments Information Act (IPIA) Reporting Details
                                (as amended by IPERA)


I. Risk Assessment. Briefly describe the risk assessment(s) performed subsequent to
completing a full program inventory. List the risk-susceptible programs (i.e., programs that
have a significant risk of improper payments based on OMB guidance thresholds) identified
by the agency risk assessments. Include any programs previously identified in the former
Section 57 of OMB Circular No. A-11. Highlight any changes to the risk assessment
methodology or results that occurred since the last report.

The RRB administers two benefit payment programs: Railroad Retirement Act (RRA) retirement
and survivor benefits, and Railroad Unemployment Insurance Act (RUIA) benefits. Both were
designated as “high risk” under the former Section 57 of Circular A-11. Therefore, in previous
reports, we had been measuring and reporting the level of improper payments for both
programs in our Performance and Accountability Reports.

In January 2009, the Office of Management and Budget granted relief from reporting the RUIA
program improper payments due to the consistently low level of error over several years.
Barring any unexpected changes to the program or the rate, the next RUIA program improper
payments report will be included in the RRB’s Fiscal Year 2012 Performance and Accountability
Report.

The agency used the process described below to calculate the amount of RRA improper
payments made in fiscal year 2010.

                   Results of Fiscal Year 2010 Improper Payment Review

                                                                              Action Plan or
                Improper Payment Amt.          Improper Payment Rate
 Program                                                                         Targets
                     >$10 million                      >2.5%
                                                                                Needed?
RRA                        Yes                             No                        No


II. Statistical Sampling. Briefly describe the statistical sampling process conducted to
estimate the improper payment rate for each program identified. Please highlight any
changes to the statistical sampling process that have occurred since the last report.

The agency has an established methodology for identifying improper payments in the RRA
benefit payment program. It is based on determining both the known overpayments and
underpayments, which have since been recovered or paid out, and estimating those which
result from adjudicative error, but have not been identified or corrected. It also uses information
from quality assurance reviews. These reviews employ statistical sampling to study railroad
retirement awards. Also included in the estimated amounts are projections of improper
payments from audits, special studies, and estimates of manual work based on pending
workload referrals.




                                              - 127 -
III.     Corrective Actions. Describe the corrective action plans for:

a. Reducing the estimated improper payment rate and amount for each type of root cause
identified. Agencies shall report root cause information based on the following three
categories: Administrative and Documentation errors; Authentication and Medical Necessity
errors; and Verification errors. This discussion must include the corrective action(s),
planned or taken, most likely to significantly reduce future improper payments due to each
type of error an agency identifies, the planned or actual completion date of these actions,
and the results of the actions taken to address these root causes. If efforts are ongoing, it is
appropriate to include that information in this section, and to highlight current efforts,
including key milestones. Agencies may also report root cause information based on
additional categories, or sub-categories of the three categories listed above, if available.

The root causes of error in the RRA program are summarized according to OMB’s root causes
in the table below.

               Root Cause of Error             Estimated Rate            Estimated Amount

       Administrative and Documentation             5.3%                     3,304,081


       Authentication and Medical Necessity         2.1%                      1,321,740


       Verification and Local Administration       92.6%                     57,690,246

       Total                                       100%                      62,316,067

Corrective Actions:

Administrative and Documentation: These errors result from improper handling by the
agency’s automated systems or its personnel. Planned corrective actions include:
• development of an enhanced automated retirement payment system to replace the current
   legacy system that processes Retirement Applications, planned for calendar year 2012,
• development of an interface between systems to ensure accurate use of military service in
   the calculation of benefits, tentatively scheduled for completion in calendar year 2012,
• expansion of a Medicare premium collection database, targeted for completion in fiscal year
   2013, to include Part B premium withholding history, and
• changes to ORCS (Overpayment Recovery Correspondence System), which is used to
   prepare overpayment notices and to upload overpayment data to other related agency
   systems (Program Accounts Receivable and Automated System to Recover Overpayments).
   ORCS is being automated to interact with mainframe programs to insure that the most
   current data is retrieved and used in the development of RRA overpayment recovery.
   Current plans are to complete this automation initiative by the end of calendar year 2011.

Authentication and Medical Necessity: Very few of the agency’s improper payments fall into
this category. There are no planned corrective/preventative actions.




                                               - 128 -
Verification and Local Administration: These errors result from changes coming from
outside the agency, particularly changes in the beneficiary’s status which affect entitlement or
eligibility either temporarily or permanently, and changes in service and compensation typically
due to work. Our challenge is to obtain the information and process it as quickly as possible.

The initiatives to minimize this specific group of improper payments are:
• The RESCUE (Recalculate for Service and Compensation Updated to EDMA) system
   evaluates employer-reported changes to employee service and compensation records and
   adjusts annuities, if needed. RESCUE was implemented in fiscal year 2006 and evaluated
   record changes posted in January 2006. In fiscal year 2007, the system evaluated
   adjustments posted prior to January 2006 and identified specific RRA improper
   underpayments and paid out additional benefits due, resolving many of the improper
   payments that were included in previous years’ estimates. However, a significant manual
   workload resulted from this initiative. As of September 30, 2010, 14,404 of these referrals
   (11,577 for active cases and 2,827 for terminated cases) were on hand. These backlogged
   cases are handled whenever any other work needs to be done on the case. RESCUE
   referrals are also processed using overtime funds as resources permit.
• RESCUE is currently run several times a year so that annuity adjustments for service and
   compensation changes are made timely and properly for those records that can be handled
   automatically. Those that cannot be processed by RESCUE are referred for manual
   handling and are included in the current workload. As of September 30, 2010, there were
   13,632 of these current referrals. The agency also uses overtime funding in the short term
   for this workload.
• The RRB is also addressing the RESCUE backlog by hiring and training claims examiner
   staff who will eventually be able to handle these complex referrals. This is a long-term
   process which will take several years before we see a significant impact on these workloads.
• SPEED (System Processing Excess Earnings Data), an automation initiative designed to
   process post-entitlement annuity adjustments in both retirement and survivor cases that
   result from excess earnings and work deductions. SPEED allows the RRB to adjust annuity
   payments for earnings on a timely basis, which minimizes any underpayments or
   overpayments that may result from changes in earnings. SPEED Phases 1 through 5 are
   currently in production (Phase 5 was completed in March 2011). Phase 6 is divided into two
   parts; Retirement Processing and Survivor Processing, to be worked simultaneously.
   Phase 6 Retirement is expected to initiate or adjust regular and/or Last Person Employment
   (LPE) work deductions when an estimated work report is entered. Phase 6 Survivor is
   expected to download survivor current year earnings estimates from the survivor payments
   system, create an estimate report, suspend annuity (if necessary), calculate withholding,
   establish a reinstatement call-up and release a notification letter to the annuitant. Current
   plans are to complete these next two phases in early calendar year 2013.

b. Grant-making agencies with risk-susceptible grant programs shall briefly discuss what
the agency has accomplished in the area of funds stewardship past the primary recipient.
Discussion shall include the status of projects and results of any reviews.

Not applicable to RRB.




                                             - 129 -
IV.    a) and b) Program improper payment reporting.

The table below is required for each reporting agency.

                Improper Payment (IP) Reduction Outlook FY 2009 – FY 2014
                                        ($ in millions)

                 FY 09                          FY 10                          FY 11
                            FY 09    FY 09                  FY 10   FY 10                 FY 11   FY 11
  Program      $ Outlays                      $ Outlays                      $ Outlays
                            IP %      IP $                  IP %     IP $                 IP %     IP $
                (actual)                       (actual)                     (estimated)

 RRA
               $10,519.4    0.69     $73.1    $10,780.2     0.58    $62.3   $10,959.1     0.58    $63.4



                 FY 12                          FY 13                          FY 14
                            FY 12   FY 12                   FY 13   FY 13                 FY14    FY 14
 Program       $ Outlays                      $ Outlays                      $ Outlays
                            IP %     IP $                   IP %     IP $                 IP %     IP $
              (estimated)                    (estimated)                    (estimated)

 RRA
               $11,171.2    0.58     $64.6    $11,487.9     0.58    $66.4   $ 11,825.9    0.58    $68.4


      Note: The absolute value of the overpaid and underpaid dollars and the rates is shown—the figures
      are not netted.

At the time this report was prepared, the latest actual data available was for fiscal year 2010
(shown in bold in the chart). For fiscal year 2010, actual overpayments were $51,110,197 and
actual underpayments were $11,205,870.

The estimates for fiscal year 2011 through 2014 are based on the December 2010 OMB budget
review estimates.


V.     Recapture of Improper Payments Reporting.

a. An agency shall discuss payment recapture audit (or recovery auditing) efforts, if
applicable. The discussion should describe: the agency’s payment recapture audit
program; the actions and methods used by the agency to recoup overpayments; a
justification of any overpayments that have been determined not to be collectable; and any
conditions giving rise to improper payments and how those conditions are being resolved
(e.g., the business process changes and internal controls instituted and/or strengthened to
prevent further occurrences). If the agency has excluded any programs or activities from
review under its payment recapture auditing program (including any programs or activities
where the agency has determined a payment recapture audit program is not cost-effective),
the agency should list those programs and activities excluded from the review and the
justification for doing so. Include in your discussion the dollar amount of cumulative
recoveries collected beginning with FY 2004.

It is not feasible for the RRB to implement a formal payment recapture audit program. We do
have a robust, multi-faceted review process in place that is an effective approach for evaluating
payment accuracy in the RRA and RUIA programs and identifying and preventing improper
payments. Taken as a whole, our full range of current activities constitutes an effective
alternative to a formal payment recapture program.



                                                  - 130 -
However, despite all the agency’s best efforts to prevent improper payments, some will always
occur, due to lack of timely information, etc. In overpayment situations, the agency is diligent in
its recovery efforts. The RRB’s account receivable balance for the RRA program at the end of
fiscal year 2010 was $49,404,689. This balance includes debts classified as currently not
collectible. We estimate that approximately 77.2 percent of these receivables will be collected
and that the remaining 22.8 percent will eventually be closed as uncollectible. The RRB’s
collection program is in full compliance with the Debt Collection Improvement Act of 1996. For
the period of fiscal years 2004 through 2010, the RRB established $311,112,748 in new RRA
program receivables and recovered $272,834,403. Recoveries are made through offset of
benefits, recovery of erroneous benefit payments paid after death from the receiving financial
institution, and direct payment from debtors. Fraudulent payments are referred to the OIG for
prosecution through the Department of Justice. Delinquent accounts are referred to Treasury
for cross-servicing and offset of Federal payments.

d.      Table 6
        Overpayments Recaptured Outside of Payment Recapture Audits

                                                     ($ in millions)

                                                                                 Cumulative       Cumulative
                             Amount       Amount        Amount       Amount
                                                                                   Amount           Amount
        Agency Source       Identified   Recovered     Identified   Recovered
                                                                                  Identified      Recovered
                              FY 10*      FY 10**        FY 09*      FY 09**
                                                                                FY 04 – FY 10*   FY 04 – FY10**
       Various, including
       post payment
       quality reviews,
       special
       evaluations OIG
       reviews/audits,
       reports from the
       public, monitoring     $45.3        $40.9         $46.7        $37.9        $311.1           $272.8
       programs, and
       agency-identified
       errors. No
       breakdown
       between these
       sources is
       available.



*Amounts limited to established overpayments for fiscal year(s) identified.

**Recoveries include debts established prior to fiscal year(s) identified.


VI. Accountability. Describe the steps the agency has taken and plans to take (including
timeline) to ensure that agency managers, accountable officers (including the agency head),
programs, and where appropriate States and localities, are held accountable for reducing
and recovering improper payments. Specifically, they should be held accountable for
meeting applicable improper payments reduction targets and establishing and maintaining
sufficient internal controls (including an appropriate control environment) that effectively
prevents improper payments from being made and promptly detects and recovers any
improper payments that are made.




                                                        - 131 -
Paying benefits accurately and timely, and providing prudent stewardship over agency
trust funds are the agency’s two strategic goals. Agency managers have links to those
goals in their performance plans. In addition, we are adding two new goals, one aimed
at minimizing improper payments and the other focused on maximizing recovery efforts,
to our fiscal year 2012 performance plan with the submission of the fiscal year 2013
budget.


VII.    Agency information systems and other infrastructure.

a. Describe whether the agency has the internal controls, human capital, and information
systems and other infrastructure it needs to reduce improper payments to the levels the
agency has targeted.

The agency has established effective internal controls aimed at minimizing improper
payments.

Although the agency has limited staff and expects further attrition of experienced
personnel, the RRB has been able to meet the challenge of keeping the improper
payment rate below the 2.5% threshold.

In order to prevent and reduce the already low levels of improper payments the RRA
program generates, information systems need to be developed or modified as described
in the project initiatives discussed in section III.a above.

b. If the agency does not have such internal controls, human capital, and information
systems and other infrastructure, describe the resources the agency requested in its most
recent budget submission to Congress to establish and maintain the necessary internal
controls, human capital, and information systems and other infrastructure.

Since fiscal year 2010, the agency has requested funding for the agency’s System
Modernization effort. System Modernization is a multi-year effort to modernize the agency’s
automation systems, both hardware and software. System Modernization, when complete, will
contribute to achieving the agency’s target information technology architecture and meet its
performance goals, including improved accuracy of benefit payments and stewardship of the
trust funds. Modernization will help reduce redundancy, improve processing accuracy and
speed, and transition our computing environment to more modern technology platform and
methodologies.


VIII. Barriers. Describe any statutory or regulatory barriers, which may limit the agencies’
corrective actions in reducing improper payments and actions taken by the agency to
mitigate the barriers’ effects.

None.




                                           - 132 -
IX. Additional Comments. Discuss any additional comments, if any, on overall agency
efforts, specific programs, best practices, or common challenges identified, as a result of
IPIA implementation.

The RRB has made concerted efforts to reduce improper payments over the years. Payment
accuracy rates are at consistently high levels and the return on investment for program integrity
activities has been high as well. Both have been set as annual performance goals and reported
each year since the Government Performance and Results Act has been in effect. The agency
monitors progress on implementing recommendations from the quality assurance process, and
is vigilant about pursuing OIG recommendations which impact the quality and timeliness of
payments. The agency has also worked closely with the OIG in referring potential fraud cases
for its investigation and prosecution. However, continued loss of experienced staff and the long
lead time to hire and train staff to handle the complicated manual work generated as a result of
systems limitations presents an ongoing challenge to making further significant reductions in the
levels of improper RRA payments. The agency hopes to be able to maintain adequate staffing
so that it can continue this important effort.




                                             - 133 -
 Summaries of Financial Statement Audit and Management Assurances

Summary of Financial Statement Audit

Audit Opinion                                          Unqualified
Restatement                                               No

     Material Weaknesses        Beginning         New             Resolved    Consolidated      Ending
                                 Balance                                                        Balance
Information Security – Risk
Management                           1                                                            1
Information Security –
Applications and Services                          1                                              1

Non-Integrated Subsystems            1                                                            1

Budgetary Reporting                                1                                              1
Total Material Weaknesses            2             2                                              4


Summary of Management Assurances

                 Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                   Qualified

      Material Weaknesses     Beginning     New        Resolved     Consolidated   Reassessed    Ending
                               Balance                                                           Balance
Information Security – Risk
Management                       1                                                                    1
Information Security –
Applications and Services                    1                                                        1

Non-Integrated Subsystems        1                                                                    1

Budgetary Reporting                          1                                                        1

Total Material Weaknesses        2           2                                                        4


          Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance Systems conform




                                             - 134 -
APPENDICES
PAGE INTENTIONALLY LEFT BLANK
                                   Appendices

Glossary of Acronyms and Abbreviations


A

AABR                       Average Account Benefits Ratio
ABR                        Account Benefits Ratio
ACSI                       American Customer Satisfaction Index
ARRA                       American Recovery and Reinvestment Act of 2009

B

BPD                        Bureau of the Public Debt

C

CGI                        Consultants to Government and Industry
CMS                        Centers for Medicare & Medicaid Services
CNC                        Currently Not Collectible

D

DBP Account                Dual Benefits Payments Account
DOL                        Department of Labor

E

EDMA                       Employment Data Maintenance
ERP                        Economic Recovery Payments
ERS                        Employer Reporting System

F

FACTS II                   Federal Agencies’ Centralized Trial-Balance System
FASAB                      Federal Accounting Standards Advisory Board
FBWT                       Fund Balance With Treasury
FECA                       Federal Employees’ Compensation Act
FFS                        Federal Financial System
FHI                        Federal Hospital Insurance
FI                         Financial Interchange
FICA                       Federal Insurance Contributions Act
FISMA                      Federal Information Security Management Act
FMFIA                      Federal Managers’ Financial Integrity Act
FY                         Fiscal Year
FOASI/DI                   Federal Old-Age and Survivors Insurance/Disability Insurance

G

GPRA                       Government Performance and Results Act




                                         - 137 -
I

IPERA         Improper Payments Elimination and Recovery Act
IPIA          Improper Payments Information Act
IRMAA         Income-Related Monthly Adjustment Amount
IRS           Internal Revenue Service
IT            Information Technology
IVR           Interactive Voice Response

L

LAN           Local Area Network
LPE           Last Person Employment

M

MCRC          Management Control Review Committee
MMA           Medicare Prescription Drug, Improvement and Modernization
              Act of 2003

N

NRRIT         National Railroad Retirement Investment Trust

O

OIG           Office of Inspector General
OMB           Office of Management and Budget
OPM           Office of Personnel Management

P

P&AR          Performance and Accountability Report
PII           Personally Identifiable Information
POA&M         Plan of Action and Milestones

R

RESCUE        Recalculate for Service and Compensation Updated to EDMA
RR            Railroad Retirement
RRA           Railroad Retirement Act
RR Account    Railroad Retirement Account
RRB           Railroad Retirement Board
RRSIA         Railroad Retirement and Survivors’ Improvement
              Act of 2001
RUI           Railroad Unemployment Insurance
RUIA          Railroad Unemployment Insurance Act
RUI Account   Railroad Unemployment Insurance Account




                          - 138 -
S

SFFAS      Statement of Federal Financial Accounting Standards
SI         Sickness Insurance
SPEED      System Processing Excess Earnings Data
SSA        Social Security Administration
SSEB       Social Security Equivalent Benefit
SSP        Shared Service Provider

T

Treasury   Department of the Treasury
Trust      National Railroad Retirement Investment Trust

U

UI         Unemployment Insurance
USC        United States Code
USPS       United States Postal Service

V

VoIP       Voice over Internet Protocol

W

WHBAA      Worker, Homeownership and Business Assistance Act of 2009




                       - 139 -
Railroad Retirement Board
Board Members, Inspector General, and Executive Committee



                                Board Members

        Chairman                                  Michael S. Schwartz
        Labor Member                              Walter A. Barrows
        Management Member                         Jerome F. Kever


                          Office of Inspector General

        Inspector General                         Martin J. Dickman


                             Executive Committee

        Director of Administration/Senior         Henry M. Valiulis
           Executive Officer
        General Counsel                           Steven A. Bartholow
        Chief Financial Officer                   George V. Govan
        Director of Programs                      Dorothy A. Isherwood
        Chief Information Officer                 Terri S. Morgan
        Chief Actuary                             Frank J. Buzzi




                                      - 140 -
For additional copies of this report, please contact:
         Railroad Retirement Board
         Bureau of Fiscal Operations
         844 North Rush Street, 5th Floor
         Chicago, Illinois 60611-2092
         Telephone: (312) 751·4590
         Fax: 312-751-7171
         Available on the Internet at: www.rrb.gov
